<html>
<title> - THE ROLE OF THE INTERIOR DEPARTMENT IN THE DEEPWATER HORIZON DISASTER</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
 THE ROLE OF THE INTERIOR DEPARTMENT IN THE DEEPWATER HORIZON DISASTER 
=======================================================================


                             JOINT HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                AND THE

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 20, 2010

                               __________

                           Serial No. 111-145


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

77-922 PDF                       WASHINGTON : 2013 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman
JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JAN SCHAKOWSKY, Illinois             SUE WILKINS MYRICK, North Carolina
HILDA L. SOLIS, California           JOHN SULLIVAN, Oklahoma
CHARLES A. GONZALEZ, Texas           TIM MURPHY, Pennsylvania
JAY INSLEE, Washington               MICHAEL C. BURGESS, Texas
TAMMY BALDWIN, Wisconsin             MARSHA BLACKBURN, Tennessee
MIKE ROSS, Arkansas                  PHIL GINGREY, Georgia
ANTHONY D. WEINER, New York          STEVE SCALISE, Louisiana
JIM MATHESON, Utah                   PARKER GRIFFITH, Alabama
G.K. BUTTERFIELD, North Carolina     ROBERT E. LATTA, Ohio
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
PETER WELCH, Vermont
              Subcommittee on Oversight and Investigations

                    BART STUPAK, Michigan, Chairman
BRUCE L. BRALEY, Iowa                GREG WALDEN, Oregon
  Vice Chairman                        Ranking Member
EDWARD J. MARKEY, Massachusetts      ED WHITFIELD, Kentucky
DIANA DeGETTE, Colorado              MIKE FERGUSON, New Jersey
MIKE DOYLE, Pennsylvania             TIM MURPHY, Pennsylvania
JANICE D. SCHAKOWSKY, Illinois       MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas
DONNA M. CHRISTENSEN, Virgin 
    Islands
PETER WELCH, Vermont
GENE GREEN, Texas
BETTY SUTTON, Ohio
JOHN D. DINGELL, Michigan (ex 
    officio)
                                 ------                                

                 Subcommittee on Energy and Environment

               EDWARD J. MARKEY, Massachusetts, Chairman
MICHAEL F. DOYLE, Pennsylvania       RALPH M. HALL, Texas
JAY INSLEE, Washington               FRED UPTON, Michigan
G.K. BUTTERFIELD, North Carolina     ED WHITFIELD, Kentucky
CHARLIE MELANCON, Louisiana          JOHN SHIMKUS, Illinois
BARON P. HILL, Indiana               JOHN B. SHADEGG, Arizona
DORIS O. MATSUI, California          STEVE BUYER, Indiana
JERRY McNERNEY, California           GREG WALDEN, Oregon
PETER WELCH, Vermont                 SUE WILKINS MYRICK, North Carolina
JOHN D. DINGELL, Michigan            JOHN SULLIVAN, Oklahoma
RICK BOUCHER, Virginia               MICHAEL C. BURGESS, Texas
FRANK PALLONE, Jr., New Jersey
ELIOT ENGEL, New York
GENE GREEN, Texas
LOIS CAPPS, California
JANE HARMAN, California
CHARLES A. GONZALEZ, Texas
TAMMY BALDWIN, Wisconsin
MIKE ROSS, Arkansas
JIM MATHESON, Utah
JOHN BARROW, Georgia
  


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bart Stupak, a Representative in Congress from the State of 
  Michigan, opening statement....................................     1
    Prepared statement...........................................     4
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................     6
    Prepared statement...........................................     9
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............    15
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................    16
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................    17
    Prepared statement...........................................    19
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, prepared statement......................................    21
    Prepared statement...........................................    23
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................    29
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................    30
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, opening statement.................................    31
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................    31
Hon. Jerry McNerney, a Representative in Congress from the State 
  of California, opening statement...............................    32
Hon. Parker Griffith, a Representative in Congress from the State 
  of Alabama, opening statement..................................    32
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................    33
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, opening statement.....................................    34
    Prepared statement...........................................    36
Hon. Michael F. Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................    38
Hon. Phil Gingrey, a Representative in Congress from the State of 
  Georgia, opening statement.....................................    39
Hon. Lois Capps, a Representative in Congress from the State of 
  California, opening statement..................................    39
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................    40
Hon. Charlie Melancon, a Representative in Congress from the 
  State of Louisiana, opening statement..........................    41
Hon. John Sullivan, a Representative in Congress from the State 
  of Oklahoma, opening statement.................................    42
Hon. Jane Harman, a Representative in Congress from the State of 
  California, opening statement..................................    43
Hon. Ralph M. Hall, a Representative in Congress from the State 
  of Texas, opening statement....................................    43
Hon. G.K. Butterfield, a Representative in Congress from the 
  State of North Carolina, opening statement.....................    44
Hon. John B. Shadegg, a Representative in Congress from the State 
  of Arizona, opening statement..................................    45
Hon. Doris O. Matsui, a Representative in Congress from the State 
  of California, opening statement...............................    46
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................    46
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................    47
Hon. Steve Scalise, a Representative in Congress from the State 
  of Louisiana, opening statement................................    48
Hon. Betty Sutton, a Representative in Congress from the State of 
  Ohio, opening statement........................................    49

                               Witnesses

Gale Norton, Secretary of the Interior, 2001-2006................    50
    Prepared statement...........................................    53
Dick Kempthorne, Secretary of the Interior, 2006-2009............    60
    Prepared statement...........................................    63
Ken Salazar, Secretary of the Interior...........................   125
    Prepared statement...........................................   129

                           Submitted Material

Letter of September 9, 2008, from the United States Department of 
  the Interior to Secretary Kempthorne...........................   178
Article entitled, ``Ban on deep-water drilling adds insult to 
  injury,'' by Bobby Jindal, Washington Post, July 17, 2010......   182
Hearing memorandum, July 16, 2010................................   184
Report by Congressional Research Service, June 1, 2010...........   188


 THE ROLE OF THE INTERIOR DEPARTMENT IN THE DEEPWATER HORIZON DISASTER

                              ----------                              


                         TUESDAY, JULY 20, 2010

                  House of Representatives,
       Subcommittee on Oversight and Investigation,
                                             joint with the
            Subcommittee on Energy and Environment,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The Subcommittees met, pursuant to call, at 10:00 a.m., in 
Room 2123 of the Rayburn House Office Building, Hon. Bart 
Stupak [Chairman of the Subcommittee on Oversight and 
Investigations] presiding.
    Members present: Representatives Stupak, Markey, Green, 
DeGette, Capps, Doyle, Harman, Schakowsky, Gonzalez, Inslee, 
Butterfield, Melancon, Matsui, Christensen, McNerney, Sutton, 
Braley, Dingell, Waxman (ex officio), Burgess, Upton, Hall, 
Stearns, Whitfield, Shimkus, Shadegg, Pitts, Sullivan, 
Blackburn, Gingrey, Scalise, Griffith, Latta, and Barton (ex 
officio).
    Staff present: Phil Barnett, Staff Director; Bruce Wolpe, 
Senior Advisor; Michal Freedhoff, Counsel; Caitlin Haberman, 
Special Assistant; Dave Leviss, Chief Oversight Counsel; 
Meredith Fuchs, Chief Investigative Counsel; Alison Cassady, 
Professional Staff Member; Molly Gaston, Counsel; Scott 
Schloegel, Investigator; Ali Neubauer, Special Assistant; Karen 
Lightfoot, Communications Director, Senior Policy Advisor; 
Elizabeth Letter, Special Assistant; Mary Neumayr, Minority 
Counsel; Alan Slobodin, Minority Counsel; Peter Spencer, 
Minority Professional Staff; Kevin Kohl Minority Professional 
Staff; Garrett Golding, Minority Legislative Assistant; and 
Jeanne Neal, Minority Research Analyst.

  OPENING STATEMENT OF HON. BART STUPAK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Stupak. This meeting will come to order. Today we have 
a joint hearing titled ``The Role of the Interior Department in 
the Deepwater Horizon Disaster''. This is a joint hearing 
before the Oversight and Investigation Subcommittee and the 
Energy and Environment Subcommittee. I will chair the first 
panel, and Chairman Markey will chair the second panel. We will 
now hear from members for their opening statements. The 
Chairman and the ranking members will be recognized for five 
minute openings. All other members will be recognized for two 
minute openings. I will begin.
    Last week, for the first time in 87 days, we heard some 
encouraging news. Finally the flow of oil that has ravaged much 
of the Gulf of Mexico is temporarily under control. Despite our 
relief that the flow of oil has abated, the consequences of 
this spill continue to mount. 11 men lost their lives on the 
day the Deepwater Horizon drilling rig exploded. The four 
states that border the Gulf of Mexico have suffered terrible 
economic and environmental devastation. That is why we are 
continuing our investigation. This is the fourth hearing the 
Oversight and Investigation Subcommittee has held, and the 
eighth hearing overall in the Energy and Commerce Committee.
    Our first hearing exposed serious deficiencies involving 
the blowout preventer. This supposed failsafe had a dead 
battery, a leaking hydraulic system, an emergency switch which 
failed to activate, and dangerous modifications. Our second 
hearing was a field hearing in New Orleans, where we heard from 
the widows of two men who died on the Deepwater Horizon 
explosion, as well as shrimpers and other small business owners 
who have suffered from the environmental catastrophe that 
followed. Our third hearing identified five key well design 
decisions relating to casing and cementing that increased the 
risk of a blowout. BP made a series of poor judgments before 
the blowout. The company took one shortcut after another in 
order to save time and money, and when the blowout occurred, BP 
was horrifically unprepared to deal with the consequences.
    Today the Oversight and Investigation Subcommittee and the 
Energy and Environment Subcommittee are jointly holding this 
hearing to examine the conduct of the regulators who overseen--
who have overseen oil and gas development in the Gulf of 
Mexico. There has been a pervasive failure by the regulators to 
take the actions necessary to protect safety and the 
environment. These failures to regulate happen at the time as 
Federal officials offered oil and gas companies new incentives 
to drill deeper and riskier waters in the Gulf of Mexico. The 
number of producing deep water wells increased from 65 in 1985 
to more than 600 in 2009, but the number of Federal inspectors 
working for the Minerals Management Service, MMS, has not kept 
pace with the number and complexity of the wells and the 
distance inspectors must travel. MMS had 55 inspectors in 1985, 
and just 58 some 20 years later. Currently MMS has 
approximately 60 inspectors in the Gulf of Mexico to inspect 
almost 4,000 facilities. Inspection has not been a priority.
    The Department of Interior also backed off when the oil and 
gas industry objected to proposals to strengthen government 
regulations. Reports prepared for MMS in 2001, 2002 and 2003 
recommended two blind-shear rams on blowout preventers and 
questioned the reliability of their backup systems. Yet 
regulations finalized in 2003 during Secretary Gale Norton's 
tenure did not require a second blind-shear ram, backup systems 
on BOPs, or even testing of backup systems.
    The same rulemaking identified poor cementing practices as 
one of the main primary causes of sustained casing pressure on 
producing wells. But an oil and gas industry coalition opposed 
mandatory requirements, and the Department opted against any 
prescriptive cementing requirements. Some helpful changes were 
made by Secretary Salazar and the Obama Administration. The 
abuse-prone royalty-in-kind program was phased out. New ethical 
standards were adopted, and stronger regulations were proposed. 
But these changes were more cosmetic than substantive. For the 
Deepwater Horizon and the BP well, it remained business as 
usual.
    I want to thank former Secretaries Norton and Kempthorne 
for appearing today. I hope they will address what went wrong 
under their tenure and what lessons can be learned. And I want 
to thank Secretary Salazar for appearing before the Committee. 
He has proposed and begun implementing many significant changes 
to the Minerals Management Service, now called the Bureau of 
Ocean Energy Management Regulation and Enforcement. I would 
like to hear more about what he has planned and how he will 
ensure that these changes make a real difference.
    I also want to extend my appreciation to Chairman Markey. 
Our Subcommittees have worked collaboratively throughout this 
investigation, and I thank him and Chairman Waxman for their 
leadership in this area, and with respect to the Blowout 
Prevention Act that we have reported out of committee last 
week.
    That concludes my opening statement.
    [The prepared statement of Mr. Stupak follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    I next to turn Mr. Burgess, ranking member of the Oversight 
and Investigation Subcommittee for his opening statement.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. Thank you, Mr. Chairman, and this is a day we 
have long awaited for. We finally get an opportunity to talk to 
Secretary Salazar about some of the issues that led up to the 
events surrounding the loss of the Deepwater Horizon.
    You know, early on in the tenure of this, in the month of 
May, we had the executives from BP, Transocean and Halliburton 
here at the table in front of us, and, just like you, I was 
dismayed by all the finger pointing I saw. In fact, it even 
rose to the level of the national consciousness, where Jay Leno 
referred to it in his opening monologue, and said, wasn't that 
a disgrace, all those executives pointing the finger at each 
other? And he said, President Obama has had enough of it. He 
said, no more finger pointing, and then he promptly went out 
and blamed Bush for the whole problem. Well, that is where we 
are this morning.
    Well, this hearing does come at a critical time. I am 
grateful that we are able to refer to the oil discharging in 
the Gulf in the past tense. We hope that that stays in the past 
tense. We have had encouraging news that it seems under 
control. There are serious environmental and economic impacts 
to confront in the Gulf. BP caused the spill. Some of the 
damage relates directly, though, to the administration's 
decision-making in the aftermath of the Deepwater Horizon 
explosion.
    Most significantly, as we convene this hearing and people 
continue to struggle mightily to clean up after the BP spill, 
the Department of Interior has made decision upon decision in 
recent weeks that we are told may kill upwards of 20,000 jobs 
in the Gulf Coast energy industry. Some of this new wave of 
economic destruction is already occurring. This is where we are 
hitting people when they are down and when they need it the 
least. The governor of Louisiana this past Saturday wrote a 
powerful op-ed in the ``Washington Post'', and Mr. Chairman, I 
would like to submit that for the record. In this editorial the 
governor describes what he sees as a determined effort by the 
Secretary of the Interior, the current Secretary of the 
Interior, to impose a second economic disaster on the people of 
Louisiana. This second economic disaster is one of the most 
pressing issues before us, but there are other questions 
concerning the Department of Interior's decision-making that we 
must explore today. And the person most able to answer these 
questions and provide us the necessary documents is the current 
Secretary of the Interior, Ken Salazar, so I appreciate very 
much finally having an opportunity to ask Secretary Salazar 
about the Department's role in handling of the Deepwater 
Horizon incident.
    I understand the majority wishes to use the rearview mirror 
as the examining lens to talk about this disaster. Chairman 
Markey has explained to me before the recess, this is so we 
might understand the totality of the Department's contribution 
to the Deepwater Horizon disaster. For this reason we will hear 
this morning from two former Secretaries of the agency. Both, 
as it happens, are from the Bush Administration, and, in fact, 
we are only going to question former Secretaries from the Bush 
Administration. We are not going back to question Secretaries 
from the Clinton Administration. But we do have with us this 
morning, we are grateful for the participation, the voluntary 
participation, I might add, of Gale Norton and Dirk Kempthorne. 
I look forward to their experience perspective, both as former 
Cabinet Secretaries and former State--elected State officials. 
But I question whether now, as private citizens, they can 
really provide the Committee information as full and complete 
as we could otherwise obtain through agency documents through 
the current Secretary of the Interior.
    Today Secretary Salazar will appear on a second panel. The 
fact that a sitting Cabinet member responsible for the critical 
decision-making in a time of crisis follows two Interior--past 
Interior Secretaries--I don't think he is here. I don't think 
he is listening to any of our opening statements, unless he is 
tuned in with rapt attention to C-SPAN, but he should be here. 
So, Mr. Secretary, Mr. Salazar, if you are watching on C-SPAN, 
please come to the Committee Room. We need you here. The 
American people need you here. The people of the Gulf Coast of 
Louisiana need you here.
    Oversight of the Executive Branch means oversight of the 
administration in power, not past administrations. Yet the 
fruits of the Committee's Executive Branch oversight relating 
to Deepwater Horizon, that has been underwhelming, as far as 
the deliverables to date. Committee requests for documents from 
the Department of Interior have amounted to some 2,000 pages. A 
few e-mails, internal memoranda, and other information. I hope 
we press for more cooperation, Mr. Chairman. By contrast, 
majority, with minority support, has effectively and 
aggressively investigated the companies associated with the 
disaster, some 120,000 pages of documents, all in the middle of 
one of the largest cleanup operations. This is asymmetric 
oversight, and it inhibits the Committee's ability to get the 
full facts and circumstances behind this disaster. It inhibits 
our ability to understand fully current and ongoing actions by 
this administration in responding to this oil spill.
    The majority tries to trace the Deepwater Horizon back to 
the Bush Administration, and has technical regulatory issues in 
his hearing memo to imply that the blowup protector and 
cementing problems can be traced to that administration. But 
the majority knows all available evidence suggests the disaster 
resulted from the failure to follow existing regulations and 
best industry practices, not that George W. Bush prevented a 
second set of shear arms. And, in fact, when we heard from the 
two ladies who lost husbands on the Deepwater Horizon, which 
you referenced in your opening statement, they said, we don't 
need more regulations, but we do need someone to oversee and 
insist that the regulations that are already in place are, in 
fact, followed.
    The fact remains it was under Secretary Salazar that BP's 
initial exploration plan was reviewed and approved by the 
Minerals Management Service. It was under this administration 
that BP's permit to drill the well was granted, and all the 
inspections of the operation and procedures were approved 
leading up to the explosion. We now observe the Secretary 
making decisions to restructure the agency in the middle of an 
environmental crisis. So we had a single spinal cord response--
a single spinal cord synapse, when really we should have 
cortical centers representing management evaluation.
    Mr. Stupak. Finish up.
    Mr. Burgess. How have these actions affected the ability of 
the Department to conduct its ongoing work and respond fully 
and effectively to the crisis? Do they inhibit the Secretary to 
ensure safe well drilling operations? We also see the Secretary 
appears to ignore----
    Mr. Stupak. Mr. Burgess, I am going to have ask you to 
finish--please.
    Mr. Burgess. --State and local officials. Because of the 
time it has taken to get the Secretary of the Interior here, 
Mr. Chairman, I beg your indulgence to let me conclude.
    Mr. Stupak. Well, Mr. Burgess, we have got a large group 
here. We are not going to let everyone go over time limits now. 
You are already a minute and a half over. I ask you to finish.
    Mr. Burgess. The question we need to answer is what is 
going on in the--at the Department of Interior now really based 
on sound agency safety analysis, given what we know about 
offshore safety experience? Certainly we should try to gather 
information on past actions and decisions by the Department 
and--that have contributed to the current response problems. I 
would like to understand whether the companies--the oil 
companies had to rely on faulty government computer models and 
what the Secretary plans to do about improving those models. 
But we should not focus on the past----
    Mr. Stupak. Mr. Burgess, I am going to ask you to stop now.
    Mr. Burgess [continuing]. Our most important activities 
happening right now by this administration during this crisis. 
Thank you, Mr. Chairman. I will----
    [The prepared statement of Mr. Burgess follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stupak. Mr. Burgess, you asked for understanding. I am 
going to ask for your understanding. We are going to keep 
strict time limits today. We have two committees. We have got a 
full panel here. We are going to observe the time limits, OK? 
That goes for everybody. Mr. Markey, your opening statement, 
please.

OPENING STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. All right. Thank you, Mr. Chairman. I thank you 
for your leadership, and Chairman Waxman's leadership upon this 
issue. I do believe that President Obama is wise in the 
maintenance of his moratorium in ultra-deep waters. If we are 
going to drill in ultra-deep waters, we should ensure that it 
is ultra-safe, and in the event of an accident, that a response 
would be ultra-fast. Right now we are not sure that that is the 
case. That is why the President is wise.
    Oil is not the result of spontaneous generation. The 
conditions for its creation are set millions of years before. 
Organisms die and decay. Heat, pressure and time do the rest. 
Just as with the slow creation of fossil fuels, the condition 
that created the BP disaster in the Gulf were put in motion 
many years ago. Increasing pressure from the oil industry to 
relax regulations, and the willingness of regulators to take 
the heat off companies did the rest. 10 years before BP oil 
spill, in January of 2000, a directive issued by the Department 
of Interior under the Clinton Administration stated that the 
methods used to model spills ``are not adequate to predict the 
behavior of spills in deep water'', and that a new model would 
be required. Unfortunately, this never happened. The Bush 
Administration never followed through.
    Nine years and three months before the BP oil spill, just 
two weeks after taking office, President Bush created the 
Cheney Energy Task Force. The task force met in secret, largely 
with representatives of the oil, gas and other energy 
industries. A little less than nine years before the spill, on 
May 16, 2001, the Cheney Energy Task Force submitted its 
report. The report asserts that exploration and production from 
the outer continental shelf has an impressive environmental 
record. The report further states that existing laws and 
regulations were creating delays and uncertainties that can 
hinder proper energy exploration and production projects. We 
are warned that substantial economic risks remain to investment 
in deep water, and that the Interior Department must therefore 
be directed to consider economic incentives for environmentally 
sound offshore oil and gas development. With the Cheney Task 
Force report, the first condition for this disaster, rewriting 
the offshore drilling policies to prioritize speed rather than 
safety, was set in motion.
    Eight years before the spill the Interior Department began 
issuing regulations that would extend and ultimately expand the 
royalty-free drilling given to oil companies for offshore oil 
and gas production. But financial incentives weren't enough, so 
the Bush Administration's Interior Department made the choice 
to assert that a catastrophic spill could not occur.
    Seven years before the spill the Bush Administration 
exempted most Gulf of Mexico lease holders from having to 
include blowout scenarios in their oil and gas exploration or 
production plans. Oil companies were also no longer required to 
say how long it would take to drill a relief well, and how a 
blowout could be contained by capping the well. BP therefore 
included no such information in its plans for the Deepwater 
Horizon well.
    Three years to the month before this spill, in April of 
2007, the environmental impact statement approved by the Bush 
Administration for drilling in the Gulf of Mexico said that 
since blowouts are ``rare events and of short duration'', the 
potential impacts to marine water quality ``are not expected to 
be significant.'' The analysis concluded that the most likely 
size of a large oil spill would be a total of 4,600 barrels, 
and that ``a sub-surface blowout would have a negligible impact 
on Gulf of Mexico fish resources or commercial fishing.'' A few 
months later in 2007, in the Bush Administration's Interior 
Department, it completed another environmental review and 
issued ``a finding of no new significant impact.'' No further 
environmental review was needed, according to the Bush 
Administration.
    On April 20, 2010 the regulatory house of cards erected 
over an eight year period by the Bush/Cheney Administration 
collapsed with the explosion on the BP Deepwater Horizon rig. 
Today we will hear from the nation's last three Secretaries of 
Interior, who have presided over our nation's leasing of 
offshore oil and gas since January 2001. I welcome the 
Secretaries, and we look forward to their testimony.
    Mr. Stupak. Thank you, Mr. Markey. Mr. Upton, opening 
statement, 5 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman. What happened on the 
Deepwater Horizon rig was truly a national tragedy. We all hope 
that the recently installed well cap will hold and not an ounce 
of oil will leak from that well ever again. Once this happens, 
our focus needs to shift to the cleanup and getting folks back 
to work. Citizens of the Gulf are facing unprecedented 
hardships. They don't need to be further burdened by job 
killing policies being pushed by the Congress or the 
administration.
    Of course, we do want answers. We want all the answers. We 
must work to ensure a disaster like this never happens again. 
Since that rig exploded, and as millions of gallons of oil 
leaked into the Gulf, our economy and our national security 
posture has been weakened. A joint investigation of the causes 
of the Deepwater Horizon blowout explosion and spill are 
currently being conducted by the Coast Guard and MMS. In 
addition, President Obama announced a presidential commission 
that will investigate and report. The team of engineers tapped 
by Secretary Salazar to examine what went wrong on the Horizon 
rig recently wrote, ``We believe the blowout was caused by a 
complex and highly improbable chain of human errors coupled 
with several equipment failures and was preventable. The 
petroleum industry will learn from this it can and will do 
better. We should not be satisfied until there are no deaths 
and no environmental impacts offshore ever. However, we must 
understand that, as with any human endeavor, there will always 
be risks.'' Secretary Salazar pointed to this team of engineers 
to rationalize the moratorium. Not only did the engineers 
disagree, so did the courts. The court has overturned the 
Salazar drilling moratorium a number of times.
    The Gulf accounts for nearly a third of the United States' 
oil production. Knee jerk reactions and finger pointing won't 
make drilling any safer, and certainly isn't productive for the 
citizens of the Gulf. Let us learn from this awful mistake, fix 
the problem, clean up the Gulf, and move forward to fix our 
ailing economy and create private sector jobs.
    I yield back.
    Mr. Stupak. Thank you, Mr. Upton. Mr. Chairman--Chairman 
Waxman for an opening statement, please.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Chairman Stupak and 
Chairman Markey, for holding this joint Subcommittee hearing. I 
think it is an important hearing. During the last three months 
since the Deepwater Horizon explosion and blowout this 
committee, and its subcommittees, has held seven hearings, and 
those hearings have focused on the actions of BP and other oil 
and gas companies, and we learned that BP repeatedly made 
dangerous choices to save time and money. Transocean's blowout 
preventer had a dead battery, a leaking hydraulic system, and 
other serious flaws. And we learned that the entire oil 
industry was unprepared to deal, and is unprepared to deal, 
with a significant blowout.
    Today we are going to examine the role of the regulators. 
We will learn that the Department of Interior under both 
President Bush and President Obama made serious mistakes. The 
cop on the beat was off duty for nearly a decade, and this gave 
rise to a dangerous culture of permissiveness. Secretary 
Salazar has testified before several committees, and we welcome 
his appearance today. What makes this hearing unique is that we 
will be hearing from two of his predecessors, former Secretary 
Gale Norton and former Secretary Dirk Kempthorne, and I welcome 
both of them to our committee. This will allow us to examine 
the recent history of Federal drilling regulation and look at 
it in a broader context.
    Mr. Markey pointed out, and he is right, in many ways this 
history begins with Vice President Cheney's secretive energy 
task force. This was initiated during President Bush's second 
week in office, and for weeks it met privately with oil and gas 
executives and other industry officials whose identity the 
administration steadfastly refused to disclose. Four months 
later the vice president released a report describing the new 
energy strategy for the administration. The report directed the 
Interior Department to ``consider economic incentives for 
environmentally sound offshore oil and gas development''. As 
recommended in the report, President Bush immediately issued an 
executive order to expedite projects that will increase the 
production of energy.
    Secretary Norton led the implementation of the Bush 
strategy for the Department of Interior. She promoted new 
incentives and royalty programs to encourage drilling. But she 
failed to act on safety warnings about blowout preventers, and 
she rejected proposals to strengthen standards for cementing 
wells. Those decisions sent a clear message. The priority was 
more drilling first, and safety second.
    Secretary Norton left amid the scandals involving Jack 
Abramoff to work as general counsel for Shell, a major oil 
company. Her successor, Secretary Kempthorne, oversaw the lease 
sale to BP of the future Macondo well, and Secretary Kempthorne 
also oversaw the deeply flawed assessment of potential 
environmental impacts associated with this lease sale, an 
assessment that did not anticipate the possibility or impacts 
of a catastrophic sub-sea blowout. As a result of these 
environmental assessments, BP did not have to include an oil 
spill response discussion, a site specific oil spill response 
plan, or a blowout scenario in its explanation plan. In many 
ways Congress was complicit in its oversight. The Energy Policy 
Act of 2005 granted royalty relief and subsidies to the 
industry, but did not strengthen regulatory requirements.
    As a Democrat, I hoped the Obama Administration would do 
better, and in some ways there have been reforms. The scandal-
ridden royalty-in-kind program was cancelled. Secretary Salazar 
instituted new ethics programs, and in the Department's budget 
Secretary Salazar requested more inspectors for offshore 
facilities. But there is little evidence that these reforms 
changed the laissez-faire approach of MMS in regulating the BP 
well. MMS approved the drill plan and changes to the well 
design plan that we have questioned during our investigations.
    The April 20 blowout was a wakeup call for this 
administration, and for Congress. Secretary Salazar's now 
reorganized MMS issued a 30 day safety report, developed a plan 
to implement the reorganization, and asked the Department IG to 
examine culpability and issue suspensions of new high risk 
activity until there is evidence that blowout preventers are 
safe enough and the oil industry is capable to respond to 
another spill.
    These actions are long overdue, but they are necessary 
steps in the effort to revitalize drilling regulation, and I 
welcome this chance to learn more about them.
    Chairman Stupak and Markey, thank you for holding the 
hearing, and I hope we can learn the extra part of our 
investigation as to what the regulators were doing during this 
10-year period. Yield back my time.
    [The prepared statement of Mr. Waxman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stupak. Thank you, Mr. Chairman. Mr. Barton for an 
opening statement, please.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Excuse me. Thank you both Chairmans, and Full 
Committee Chairman Waxman, for this hearing. I welcome our two 
former Cabinet Secretaries, who are both friends of mine. We 
appreciate you all voluntarily coming today.
    Three months ago today an explosion tore through the 
Deepwater Horizon drilling ship. It killed 11 men. It has 
filled great swaths of the Gulf of Mexico with crude oil. As 
the spreading spill has focused the nation's attention on what 
we need to do to stop it and prevent it from--in the future, 
our job here in this committee has been to conduct a bipartisan 
investigation to identify what went wrong and try to figure out 
if there is a way that we can help prevent it from the future.
    Last Thursday the Full Committee put together some of the 
results of the fruits of our investigation to pass out the 
Blowout Prevention Act of 2010. This bill passed this committee 
48-0 on a bipartisan basis. It will improve safety, it will 
protect the environment, and yet it will allow responsible 
drilling to go forward in the outer continental shelf. Having 
said that, we still have a lot of work to do. As has been 
pointed out, right now it appears that the leak has been 
stopped, but we certainly haven't stopped the economic and 
environmental harm in the Gulf of Mexico. I believe that this 
Committee's bipartisan oversight is providing the most powerful 
searchlight for getting to the truth so that we can address in 
the very near future what additional steps, in addition to the 
Blowout Prevention Act that we passed last week, need to be 
done to prevent this tragedy from ever happening again. We have 
found and spotlighted a number of disturbing BP decisions, in 
some cases non-decisions, that were made or not made at 
critical moments that, if they had been made differently, 
perhaps this accident may not have occurred.
    Having said that, we need to remember that the drilling in 
the outer continental shelf and Federal waters is a regulated 
Federal industry. And today, finally, we are going to begin to 
look at the role of the regulator in this case, the Department 
of the Interior. We are going to see if perhaps past decisions 
and current practices have led to the accident that we all wish 
had not occurred. We want to understand why the Department has 
allowed BP to do what it did. Was the Department really 
watching what was going on at the drilling operation? Keep in 
mind that the blowout preventer that failed on April the 20th 
passed inspection only two weeks before.
    Americans want to understand what the Obama 
Administration's response to the oil spill was and is, both in 
terms of what it did not do to stop the spread of oil and what 
it is doing right now, apparently, to stop energy production. 
It was the Obama Administration, not the Bush Administration, 
that didn't waive the Jones Act so that some of our foreign 
friends could bring in their oil spill equipment. It was the 
Obama Administration, not the Bush Administration, that 
wouldn't waive certain environmental impact studies so that our 
friends in Louisiana and Mississippi and Alabama could put up 
some berms that could have prevented the oil from reaching 
their beaches. It was the Obama Administration, not the Bush 
Administration, that made the decision not to transfer pre-
position equipment in other parts of the country for oil spills 
to the Gulf of Mexico to help in this spill. It was Secretary 
Salazar, not Secretary Barton or Secretary Kempthorne, that 
either made or didn't make those decisions.
    What we have right now is a worst case scenario. The folks 
that depend on their livelihood for tourism on the beaches of 
the Gulf are not having the tourists come because tourists are 
afraid that the beaches might be soiled. The people that depend 
on their livelihood for fishing and recreation in the Gulf are 
not allowed to fish or recreate in the Gulf, and the people who 
depend on their livelihoods by drilling and working on these 
offshore rigs and the service facilities that service them are 
out of work because they are shut down. So we kind of have a 
lose-lose-lose situation, Mr. Chairman. We hope in the very 
near future that we can put it together in a win-win-win 
situation.
    The majority has invited former Cabinet Secretaries Norton 
and Kempthorne today, and we thank them for voluntarily 
appearing, for the transparent purpose, in my opinion, of 
attempting to focus blame on the Bush Administration. But as I 
have pointed out, the decisions and the non-decisions that are 
being made and have not been made are not being made by these 
two individuals. They are being made by Secretary Salazar and 
President Obama. So I would hope that we will focus most of the 
attention in today's hearing on the current Cabinet Secretary 
and not the past Cabinet Secretary.
    I see my time has expired, Mr. Chairman. I will put the 
rest of my statement into the record, but thank you for holding 
this hearing.
    [The prepared statement of Mr. Barton follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stupak. Thank you, Mr. Barton. Chairman Dingell, 
opening statement, please, 5 minutes.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Thank you, Mr. Chairman. I would like to 
welcome our two witnesses today to the Committee, Secretary 
Norton and Secretary Kempthorne. It is a pleasure to see two 
old friends here before the Committee. Thank you for being 
here.
    Chairman Stupak and Chairman Markey, I thank you for 
holding this hearing today. It is very important, and I think 
it is extremely important that we continue to hear about the 
real and serious problems that have come to light as a result 
of the disaster in the Gulf. As this Committee has heard 
before, I am author of both the National Environmental Policy 
Act and the Marine Mammal Protection Act. I view these laws as 
my children, and while they have grown up, I find I still need 
to defend them from time to time against failures of proper 
administration. NEPA is a fairly simple statute. It simply 
requires agencies to look before their--before they leap.
    Now, as a poor Polish lawyer from Detroit, I just don't see 
how an agency can look before it leaps when it grants broad 
categorical exclusions. These broad categorical exclusions 
require very broad statutory response to a situation within the 
agency. In other words, the agency can't simply go out and just 
say, well, we are going to give a relief from the statute. It 
has to make certain findings and do a large number of things, 
which I do not believe could be said were done in the instances 
before us. I am pleased that the legislation reported by the 
House Resources Committee effectively takes these categorical 
exclusions off the table, although I must repeat I do not 
believe that it is necessary to do so.
    It has become clear that the Minerals Management Services 
is a dysfunctional agency. It has been that over a goodly 
period of time, and remained so until this administration came 
in to commence a change after the disaster in the Gulf. And it 
is unfortunate that it took a massive calamity and a tragic 
loss of life to bring this about. An Inspector General report 
in 2008 implicated a dozen officials of criminal and unethical 
behavior. I am pleased that the legislation recently reported 
by the Committee on Natural Resources will codify the changes 
put in place by Secretary Salazar and does away with the 
Mineral Management Service. Time will only tell whether the 
changes have been enough, and I hope that they will, but I 
would observe that a lot will depend upon administration.
    As this Committee knows, BP in particular has a long 
history of cutting corners, and the testimony before us showed 
that to be the case. I know that you, Mr. Chairman Stupak, 
offered an amendment in the markup Blowout Prevention Act 
consideration last week to address whether or not permits could 
be granted to habitually bad actors. Regrettably, it was not 
agreed to. I am pleased that the Natural Resources Committee 
has adopted a similar amendment in their legislation by 
unanimous consent, and I hope that it will be included when the 
legislation reaches the floor.
    This is not, and should not, be a partisan issue. I hope 
that none of my colleagues, and I hope the Congress, again, 
will not treat it in that fashion. This is simply an issue of 
where we need to find out what is going on and to commence to 
address the corrections that need to be made so that we may go 
forward with a sound energy policy, and also with proper 
protection for the environment.
    I would just like to mention my--to my two good friends, 
the Secretaries, that the refuge that you saw when you were--
came up into Michigan to visit with us on the Detroit River now 
constitutes something close to 6,000 acres. The Canadians will 
shortly be coming in, and your good work is appreciated not 
only by this member of the Committee, but, very frankly, by the 
citizens in the area, so I hope you feel welcome here this 
morning.
    Mr. Chairman, I thank you for your courtesy.
    Mr. Stupak. Thank you. Mr. Whitfield for an opening 
statement. Two minutes, please.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. Thank you, Mr. Chairman, and thank you, 
Secretary Norton, Secretary Kempthorne, for joining us today. I 
want to reiterate my agreement with Mr. Dingell that this 
should not be a partisan issue. And yet when I read the 
Democratic memorandum to the Democratic members of this 
committee, 10 out of 13 pages referred to the Bush 
Administration and decisions that the Bush Administration had 
made and didn't make. And there was an insinuation that the 
Bush Administration was responsible for the BP blowout. I think 
we do a disservice to the American people when we try to place 
blame on anyone when we don't know the reason for this blowout. 
The report is not due for nine more months, and it is being 
investigated. And at the end of that investigation, hopefully 
we will know and be able to move constructively forward to 
solve the problem.
    There are many people throughout the United States and the 
world today that believe it is unsafe to drill offshore, and--
on the outer continental shelf. And yet we know that the last 
major oil spill from a platform occurred in 1969, off the coast 
of Santa Barbara. There are 7,000 active leases in the Gulf 
today. There are 1.7 million barrels of oil per day being 
produced. There are 602 active wells today. So it is not like 
it is inherently dangerous, but yet the loss of one life is too 
many. And I will also note that in former documents from the 
Department of Interior it states--stated that natural cracks in 
the sea bed causes more oil seepage, 150 times larger in 
volume, than oil spill due to outer continental shelf oil and 
gas activities.
    So I look forward to the testimony today, and hopefully, 
with their testimony and the testimony of experts in the 
report, we will know what actually happened at the BP site. 
Thank you.
    Mr. Stupak. Thank you, Mr. Whitfield. Ms. DeGette, two 
minutes, opening statement, please.

 OPENING STATEMENT OF HON. DIANA DeGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you very much, Mr. Chairman,for holding 
this hearing. The former MMS, which is, as you said, now the 
Bureau of Ocean Energy Management Regulation and Enforcement, 
has been involved in all of these issues. They regulate and 
they oversee drilling activities, and it was their job in this 
case to monitor offshore drilling, inspect violations, and to 
collect royalty revenue.
    One of the things that really dismays me, having been in 
Congress now for a while, is how you can take an agency like 
this, that has been, frankly, having trouble for many years, 
and make it a partisan issue on both sides of the aisle. 
Because the truth is the MMS has been dysfunctional for many 
years. That is why I want to welcome both of the former 
Secretaries who are here today, in particular my friend 
Secretary Norton, who I have known for many years in Colorado. 
And also, why I look forward to listening to the testimony of 
another Coloradoan on our next panel, Mr. Salazar. Because 
until we get the full picture, we can't completely revamp this 
agency. And until we revamp this agency, we can't guarantee 
that we have appropriate regulatory oversight over this--over 
drilling. And until we can get appropriate regulatory oversight 
over drilling, we can't be sure that we should be having safe 
deep water drilling, and that is the way it is.
    At this point the administration is trying to revamp the 
former MMS. They are eliminating conflicts of interest. They 
are eliminating the royalty-in-kind program, and they have 
hired Michael Bromwich to oversee this reorganization. Last we 
heard from him in the Natural Resources Committee, he was brand 
new on the job and didn't have anything new to add. So these 
are all positive steps, but until we get the historical view of 
what happened with this agency, we won't adequately be able to 
make it effective, and we won't be adequately able to perform 
our regulatory functions.
    Thank you very much, Mr. Chairman.
    Mr. Stupak. Thank you, Ms. DeGette. Mr. Shimkus, your 
opening statement, please?

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman, and Secretary Norton, 
Secretary Kempthorne, welcome. I wish Secretary Salazar would 
be listening to some of these opening statements. Our 
colleagues have been real involved with this, as you can 
imagine. He should be hearing these. I agree with my colleague, 
Dr. Burgess.
    Point one is, remember, the President announced expansion 
of oil and gas drilling in the OCS a week before the explosion. 
Point two, in the military there is a clear sign when a change 
of command occurs. The outgoing commander grabs a flag and 
hands it over to the incoming commander. And when that occurs, 
the mission changes from the outgoing commander to the incoming 
commander, and the incoming commander is responsible for all 
his unit does or fails to do. I think there is a lesson to be 
learned here, that there is going to be a time when this 
administration is going to have to accept some responsibility. 
Maybe not all, but at least a smidgen, a little bit. They are 
going to have to say, yes, this did happen on our watch. Yes, 
we didn't really reorganize MMS when we first got in. Yes, it 
took the disaster for us to do that. Yes, maybe we were too 
slow to deploy assets. I think it would help in a--in, really, 
a bipartisan manner that they accept a little bit. In the 
military, it happens day one, and as a Commander-in-Chief, you 
would think he would learn that.
    I will focus on a lot of things today, but in my remaining 
time, I just want to highlight three things. I am an avid 
Facebook guy, and I mentioned the moratorium, and the--and rigs 
being moved, and one of my opponents put on there, I will 
believe it when I see it. Well, Diamond Offshore Drilling, 
Incorporated announces relocation of deep water ocean 
confidence to the Congo. Three deep water drilling rigs to be 
moved from sites south of Cameron Parish. Brazil sees silver 
lining in BP spill, more rigs. If we don't move carefully on 
this, we are going to increase our reliance on imported crude 
oil.
    Thank you, Mr. Chairman. I yield back my time.
    Mr. Stupak. Thank you, Mr. Shimkus. Mr. Inslee for an 
opening statement, please. Two minutes.
    Mr. Inslee. I will resume my time. Thank you, Mr. Chairman.
    Mr. Stupak. OK. Mr. McNerney, opening statement, two 
minutes.

 OPENING STATEMENT OF HON. JERRY McNERNEY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McNerney. Thank you, Mr. Chairman. I want to thank 
Secretary Norton, Secretary Kempthorne, for participating. It 
may not be an easy morning for you, and I appreciate that.
    The oil spill is clearly a tragedy, and there are no 
winners in this situation. But as tempting as it is to use this 
hearing as an opportunity for partisan finger pointing, our 
duty and responsibility is to identify the causes of the 
tragedy and put rules in place to prevent this sort of disaster 
from happening again in the future.
    I hope we can accomplish this here today, but the obvious 
fact is that once a deep water blowout takes place, a massive 
spill is inevitable. Of course, once a spill takes place, we 
need to have an effective plan to quickly stop the spill and 
clean up the contamination. However, the real challenge is to 
prevent such occurrences from happening in the first place, and 
so it is understandable that we should place our emphasis on 
prevention. What went wrong, and how do we avoid these problems 
in the future?
    So I look forward to working with my colleagues on 
achieving this goal, and I hand back the balance of my time.
    Mr. Stupak. Thank you, Mr. McNerney. Mr. Griffith for an 
opening statement, please.

OPENING STATEMENT OF HON. PARKER GRIFFITH, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ALABAMA

    Mr. Griffith. I would like to thank the Chairman for 
calling this important hearing today. Thank you also to these 
witnesses who have come before our subcommittee to discuss the 
administration's role in the recovery response of the Deepwater 
Horizon drilling disaster that has affected our Gulf States.
    It is essential that we continue to investigate why a 
disaster of this proportion took place, but more importantly we 
need to look into the agency's response to the explosion and 
the spill. As the investigation and reviews continue, I think 
that Congress must question the administration's response to 
the disaster. Bureaucracy is rarely able to facilitate a quick 
response. Even the bureaucracy, without leadership, is frozen 
in place, and this event has been yet another demonstration of 
government slowing in recovery.
    It is time to take a good hard look at the Federal 
response. It would have been wise for the administration to 
have called on all possible resources to help in the initial 
aftermath of this disaster, but this was not done. The American 
public must gain trust in their government for an appropriate 
response in times such as these. This means that the Federal 
government has to get the emergency response right. While the 
days and weeks tick by after the spill, most of us saw a lack 
of urgency in the Federal response.
    The one reaction we have seen from the government is the 
administration has shut down oil drilling and enforcing a 
moratorium in the Gulf. The Gulf of Mexico accounts for 24 
percent of our oil production. It affects roughly 170,000 jobs, 
the economy and our energy security. As Louisiana Governor 
Jindal stated, the moratorium is a second man-made disaster. If 
we enact policies that drive drilling out of U.S. waters, we 
will cease to be able to ensure that crude oil and gas 
production be done in a safe and environmentally friendly 
manner. It is the duty of Congress to find out exactly what 
happened so that we can most effectively craft policy to 
prevent future incidents like this.
    I am glad that we have witnesses here today to explain the 
questionable response of the administration to the spill. As 
Congress draws conclusions into how to prevent another spill 
from ever happening again, I hope that we can gain insight into 
why the administration's response to the spill was seen by the 
American public as slow, and at times absent.
    Thank you for being here today. We appreciate you 
volunteering to be here, and I look forward to your testimony. 
And Mr. Chairman, I yield back the balance of my time.
    Mr. Stupak. Thank you. Next, Mr. Green for an opening 
statement, please.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman, for holding the 
hearing. Again, welcome our former Secretaries, former Senator 
and Governor to our panel. And I would like my full statement 
be placed in the record. And clearly there are several 
decisions made along the way that led to a regulatory 
environment where an environmental disaster of this magnitude 
could take place, and I look forward to testimony.
    However, I want to take the use of my time today to focus 
on a separate issue that I will bring up when Secretary Salazar 
is present. I remain extremely concerned about what the 
offshore drilling moratorium means to the Gulf Coast and our 
country's future energy supply. The court--recent court 
decision to lift the--moratorium was an important step to 
keeping vulnerable oil and gas jobs in the Gulf States and 
keeping them--our economies viable. However, with the 
administration's new reissued moratorium, these job losses are 
back in play.
    I would like to ask unanimous consent to place into the 
record a letter that Congressman Kevin Brady and I, along with 
other members of Congress, sent suggesting a solution to the 
deep water ban that would put people back to work, Mr. 
Chairman.
    Mr. Stupak. Without objection.
    [The information was unavailable at the time of printing.]
    Mr. Green. It is my strong belief that a moratorium be 
allowed to continue the full 6 months or longer would 
significantly damage our already weakened economy along the 
Coast and cost tens of thousands of jobs, reduce local payrolls 
by nearly $2 billion and threaten the survival of many--related 
small business, mid-size businesses. Additionally, offshore oil 
and gas production support companies throughout the Gulf of 
Mexico engaged in shallow water drilling activities continue to 
be severely affected by the continued de facto moratorium.
    And Mr. Chairman, I would like to ask unanimous consent for 
a letter to be placed in the record--Secretary Salazar that 
Congressman Boustany and I, plus a number of members of 
Congress, sent to Secretary Salazar at the end of May.
    Mr. Stupak. Without objection.
    [The information was unavailable at the time of printing.]
    Mr. Green. We have actually issued one shallow water 
drilling permit last week. And--even though the moratorium was 
released at the end of May. As a result, 19 jack up rigs, 
representing over 35 percent of the available shallow water 
drilling rigs in the Gulf of Mexico, are now without work and 
idle, putting at risk thousands of jobs in the Gulf of Mexico 
and orderly production of domestic resources. And I would like 
to--look forward to hearing from the secretary.
    Mr. Chairman, I appreciate your patience, and we want to 
get to the bottom of what happened, but we also need to have 
domestic production of oil and natural gas in our country. So I 
yield back my time.
    Mr. Stupak. Mr. Latta, opening statement, please, 2 
minutes.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Latta. Thank you, Mr. Chairman, Mr. Burgess. Again, 
thank you for holding this subcommittee hearing on the Interior 
Department's role in the Deepwater Horizon disaster, and I also 
want to thank our witnesses for appearing today.
    Last month I had strong words for the BP CEO, Tony Hayward, 
when he testified in front of our Oversight and Investigation 
Subcommittee, and since then I have reiterated that BP needs to 
be held accountable for this disaster of epic proportions. 
However, I also have been awaiting the opportunity to hear from 
and question Department of Interior officials regarding their 
role in the Deepwater Horizon disaster, especially since 
President Obama has repeatedly said that he and his 
administration are in charge and take responsibility for the 
response effort, as the law so requires.
    Earlier this month I traveled with some of our colleagues 
to the Gulf to tour the Louisiana coast and meet with community 
leaders and residents who have been affected by the disastrous 
BP oil spill. While I was encouraged by the spirit of the hard 
working local residents, it is clear that they are frustrated 
by the Federal response and the lack of coordination amongst 
government agencies. The trip reinforced my belief that it is 
critical we find out what went wrong and how and why it 
happened. This includes a through investigation into the 
current administration's actions leading up to the incident and 
during the response.
    Furthermore, I believe the administration's moratorium on 
deep water drilling in the Gulf is devastating the region, and 
I would like to hear about the Interior's role in making this 
decision. The recent report by a nationally known--renown 
economist from LSU states that the loss of 8,000 jobs, nearly a 
half a billion dollars in wages and over 2.1 billion in 
economic activity will be triggered in just the first six 
months of this moratorium. The administration would have been 
better advised that stopping the flow of oil instead of 
focusing on imposing a drilling moratorium, this in spite of a 
Federal Judge overturning the first moratorium ban, calling it 
arbitrary and capricious.
    Mr. Chairman, I look forward to hearing the testimony 
today, and I yield back.
    [The prepared statement of Mr. Latta follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stupak. Thank you, Mr. Latta. Mr. Doyle, for an opening 
statement, please.

OPENING STATEMENT OF HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. Thank you, Mr. Chairman, for holding this 
hearing on the role of the Interior Department in the Deepwater 
Horizon disaster. I am grateful for the excellent work this 
committee has done on investigating the causes of the Deepwater 
Horizon accident and addressing them through legislation.
    You know, if there is any silver lining to this tragedy, I 
hope it is a renewed effort to engage in intelligent 
regulations of the industries that operate in our waters and 
our lands. Like most of you, I am frustrated to learn that 
permits were granted for deep water drilling, and Macondo well 
specifically, without proper safety requirements or oil spill 
response plans that included the ability to cap a leak should 
the infallible blowout preventer fail. It is even more 
frustrating to learn that required environmental impact 
statements were waived so that drilling the Macondo well could 
commence more quickly.
    Unfortunately, that seemed to set the tone for drilling 
operations on the Deepwater Horizon. As this committee's 
investigation has proven, BP cut corners every step of the way, 
and the least protective measures were taken to speed up 
production of the well. It resulted in one of the worst 
environmental tragedies we have ever seen and further economic 
hardship in communities along the Gulf.
    Mr. Chairman, today I am not interested in assigning blame. 
I think there is enough to go around. Instead I hope we 
recognize what a great opportunity we have with the Secretaries 
of the Interior from the last 10 years before us. I look 
forward to hearing from Secretary Salazar, and I want to thank 
Secretaries Norton and Kempthorne for your willingness to be 
here today.
    While the recent reforms at the Mineral Management Service 
are a good start, there is still much more to do. If we are 
going to continue accessing the oil and gas resources in the 
Gulf of Mexico, we need smarter and more sufficient regulations 
of the industry. This tragedy has proved that blowout preventer 
is not a failsafe tool of the last resort. We are working in 
this Congress to bring about better research and development 
and technologies that can ensure the safety of offshore 
drilling. In fact, much of this R&D is being done in my 
hometown of Pittsburgh, at the National Energy Technology 
Laboratory. I know firsthand that, given the resources of the 
scientists and engineers at NETL, we are entirely capable of 
producing technologies that bring us into the 21st century of 
energy development.
    So, Mr. Chairman, I thank you and look forward to the 
testimony today.
    Mr. Stupak. Thank you, Mr. Doyle. Mr. Gingrey, opening 
statement.

  OPENING STATEMENT OF HON. PHIL GINGREY, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Gingrey. Mr. Chairman, thank you for calling today's 
hearing. Even though recent efforts have hopefully halted major 
oil leaks, it is critically important that we get to the bottom 
of the cause of the Deepwater Horizon accident that has 
severely devastated the Gulf Coast.
    As a member of the O&I Subcommittee, I was present at the 
hearing in which we hade the opportunity to pose questions to 
BP CEO Tony Hayward. At the outset of that hearing I, along 
with a number of my Republican colleagues, raised concerns as 
to why we were not also hearing from the administration to 
discuss its oversight role to help avoid future accidents of 
this nature. Mr. Chairman, despite these efforts and the 
economic and environmental destruction that has resulted from 
the Deepwater Horizon explosion, I am disappointed that it has 
taken the Committee three months to the day of the accident to 
hear from the Secretary of the Interior. There are several 
important questions that the administration needs to answer to 
help us find the best way to move forward.
    What was the role of Interior leading up to and in the 
aftermath of the explosion on April 20? Have the reorganization 
efforts of the Minerals Management Service in any way impeded 
Interior from being able to properly investigate and respond to 
the crisis? In fact, what is the purpose of renaming MMS to the 
Bureau of Ocean Energy Management Regulation and Enforcement, 
BOOEMRAE? Does that only create confusion for the public, 
media, members of Congress, the agency responding to the 
crisis? Lastly, what impact will the administration's decision 
to impose a six month moratorium have on the Gulf Coast's 
ability to create jobs and make us less dependent on foreign 
oil?
    Mr. Chairman, although I am pleased that we are finally 
hearing from the administration on the Deepwater Horizon 
disaster, I hope that we do not use this hearing to simply 
score political points, as some of my colleagues have said. 
Today we have the opportunity to move forward with answers and 
ideas for reform. We owe it to the families who lost loved ones 
on April the 20th. We owe it to the Gulf Coast region that has 
continued to struggle economically as a result of this 
disaster, and finally we owe it to our country, as we continue 
to compete successfully, hopefully, in an energy dependent 
global economy.
    And I yield back, Mr. Chairman.
    Mr. Stupak. Ms. Capps for an opening statement.

   OPENING STATEMENT OF HON. LOIS CAPPS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Capps. Thank you, Mr. Chairman, and welcome to our 
honorable witnesses. It is painfully clear that BP's oil spill 
dwarfs any environmental disaster in our nation's history. The 
first steps, of course, are to stop this leak, contain the 
spill and attend to its devastating consequences. President 
Obama and his administration swiftly responded to the BP 
disaster from day one, mobilizing resources to minimize harm to 
the health, economy and environment of the Gulf Coast.
    The President established an independent commission, 
modeled on legislation I introduced with Chairman Markey, to 
investigate the cause, the response and the impact of BP's 
spill. The President announced tougher safety requirements for 
offshore drilling and a strong inspection regime, and he took 
appropriate steps to ban new deep water wells and other 
exploratory drilling in sensitive areas.
    While we need immediate regulatory reform to make existing 
offshore oil development safer, we must also be bold and 
forward thinking in our response. The legacy of a safer, 
cleaner energy policy is the only possible silver lining to be 
found in this unthinkable catastrophe, and it is from what many 
of us on this side of the aisle had been pushing for years. The 
good news is there are lots and lots of ideas and proposals we 
can draw from.
    Unlike its predecessor, the Obama Administration has made 
immediately--immediate investments in efficiency, renewables 
and alternatives. The best way to protect the environment is 
simply to use less energy. Increases in efficiency and 
renewables can also create jobs and provide a boost to our 
domestic economy. Most importantly, these advances can be 
implemented now, with immediate benefits and results. Finally 
freeing ourselves from our costly oil addiction would be a 
fitting tribute to the terrible tragedy being borne by the 
people of the Gulf.
    I applaud the Committee's efforts for continuing to shine 
the spotlight on this tragedy and for laying out the steps that 
we must take to keep situations from--like this from happening 
in the first place.
    I yield back.
    Mr. Stupak. Thank you, Ms. Capps. Mr. Pitts, your opening 
statement, please?

OPENING STATEMENT OF HON. JOSEPH R. PITTS, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Pitts. Thank you, Mr. Chairman. Thank you for holding 
this hearing on the role of the Department of Interior in the 
Deepwater Horizon disaster. I would like to welcome Secretary 
Kempthorne and Secretary Norton.
    The oil spill is indeed a tragedy in the history of our 
country. Not only have lives been lost, but massive amounts of 
oil have been leaked into the ocean, causing horrific effects, 
environmental and economic. It is imperative that we thoroughly 
understand what happened aboard Deepwater Horizon before, 
during and after the explosion so that it never happens again. 
Indeed, it is of the utmost importance that due diligence be 
done by those investigating the root causes of the Deepwater 
Horizon blowout explosion, and I am anxious to read the reports 
that have been commissioned, once they are finished.
    I do have several questions for our witnesses today which 
focus on the offshore drilling moratorium and the re-
organization of MMS. I would like to know whether the change up 
in MMS has helped or hindered MMS's ability to investigate and 
respond to the current crisis.
    Regarding the moratorium, I was struck by Governor Jindal's 
editorial in the ``Washington Post'' this weekend where he 
categorized the moratorium as ill-advised and ill-considered. 
In addition, he said, ``The moratorium will do nothing to clean 
up the Gulf of Mexico, and it already is doing great harm to 
many hard working citizens.'' I am interested to hear the 
administration's rationale for the original moratorium and 
their rationale for continuing to pursue this policy, even 
after it has been struck down in the courts. Louisiana and the 
coastal States are already facing a horrific disaster, and we 
should make sure this moratorium does not worsen the blow.
    I look forward to hearing from our witnesses today, and I 
yield back.
    Mr. Stupak. Thank you, Mr. Pitts. Mr. Melancon, opening 
statement, please. Two minutes.

OPENING STATEMENT OF HON. CHARLIE MELANCON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Melancon. Thank you, Mr. Chairman, for holding this 
hearing today. I want to note that it has been 91 days since 
this disaster began, and Congress has held many hearings, and 
in recent weeks we have also started to move several pieces of 
relevant legislation. It was, and remains, important to ensure 
that the families of those 11 men have died on this rig have 
appropriate recourse and means to move on with their lives. It 
is impossible to say that they can ever be made whole again, 
and that is why I believe it is important for our work in 
Congress to focus on making sure an event like this never 
happens again.
    I thank the Chairman for holding this hearing today. We had 
been drilling in the Gulf of Mexico for decades, and our 
coastal States are home to the most sophisticated energy 
exploration and production technologies in the world. But this 
tragedy has shown us that occasionally our innovation to 
produce can outpace our innovation to prevent and to respond to 
blowouts or other such accidents in the Gulf or any other 
waters.
    The Minerals Management Service, MMS, or Bureau of Ocean 
Energy Management, as is now called, should play an important 
oversight role in the Gulf and other U.S. waters. It is the 
Department's responsibility to protect our people and the 
environment that we all call home. It has become painfully 
apparent that this function was performed inadequately in the 
lead-up to the Deepwater Horizon. Those deficiencies in the 
Department were deep-seated, and I applaud the Secretary and 
current employees of the agency for recognizing these 
weaknesses and working hard to correct them. I support the 
Secretary's request for an increase in the number of inspectors 
available to ensure that safety requirements are adhered to in 
the Gulf. These inspectors can work with the leading minds in 
offshore production to make certain that we still supply the 
country with a safe stable source of domestic energy.
    But in closing, I would like to say that while Louisiana 
and other states face the ever encroaching tide of oil, I 
intend to make sure that another wave of economic devastation 
does not deliver a second strike to my state. The current deep 
water moratorium and de facto shallow water moratorium have 
already led to hundreds, if not thousands, of lost jobs, and 
threaten to decimate the rest of the economy along coastal 
Louisiana, at least whatever economy there is left after the 
oil spill has done its damage.
    These moratoriums are ill-advised, and in some cases could 
even add more risk to the environment than allowing the 
existing wells to be finished according to plan. Abandoning a 
well in the middle of the process has its own unique risks, and 
I believe that we must ask ourselves, does this moratorium make 
us any safer, and what is the real cost to our economy?
    I thank you again for holding this hearing, and I look 
forward to discussing the issue of the moratorium and the 
drilling and cleanup in the Gulf of Mexico, and I yield back 
the balance of my time.
    Mr. Stupak. Thank you. Mr. Sullivan, opening statement, 
please.

 OPENING STATEMENT OF HON. JOHN SULLIVAN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF OKLAHOMA

    Mr. Sullivan. Thank you. Chairman Markey and Chairman 
Stupak, thank you for holding this hearing today to address the 
Department of Interior's actions regarding the Deepwater 
Horizon incident. I welcome Secretary Salazar to this hearing, 
as well as two previous Department of Interior Secretaries, 
Gale Norton and Dirk Kempthorne.
    There is no question that the BP oil spill is a tragedy. In 
fact, it is the worst environmental disaster in our nation's 
history. I believe we must do everything in our power to find 
out what caused to explosion and to ensure nothing like this 
ever happens again.
    Unfortunately, the administration is prematurely acting on 
this tragedy from a regulatory angle while the investigation to 
the disaster is not complete, which is why I am furious that 
the Department of Interior issued a new ill-advised moratorium 
on responsible offshore drilling after their previous two 
efforts failed in Federal Court. A Federal Judge even called 
the Obama Administration's efforts arbitrary and capricious 
before throwing out their moratorium.
    This new moratorium risks killing between 20,000 and 50,000 
jobs, and will increase our reliance on foreign oil at a time 
when our nation's economy can least afford it. During this 
hearing and the continuing investigation, it is important that 
we do not lose sight of the fact that 30 percent of the total 
U.S. production of crude oil comes from offshore. If we were to 
ban or restrict offshore drilling, we would simply increase our 
national dependence on foreign oil, which makes our nation less 
secure, and in the short term and long term it increases the 
cost of energy.
    I am pleased to see Secretary Salazar before us today. 
Given the integral role of the Federal oversight in offshore 
drilling operations, it is critically important to get his take 
on what safety lapses occurred, and if any regulatory 
breakdowns happened that may have contributed to this terrible 
accident. I am also interested in hearing Secretary Salazar's 
justification for the continued moratorium on deep water 
drilling and permitting.
    I look forward to the hearing and testimony of our 
witnesses, and I yield back the balance of my time.
    Mr. Stupak. Thank you, Mr. Sullivan. Mr. Gonzalez, opening 
statement.
    Mr. Gonzalez. Waive opening.
    Mr. Stupak. Mrs. Christensen, opening statement.
    Mrs. Christensen. Thank you, Mr. Chairman. I too waive my 
opening statement. I would just like to welcome Secretary 
Norton and Secretary Kempthorne.
    Mr. Stupak. Ms. Harman, opening statement.

  OPENING STATEMENT OF HON. JANE HARMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Harman. Thank you, Mr. Chairman, and welcome our 
witnesses.
    When then Senator Kempthorne was in the Senate, he served 
on the Senate Intelligence Committee. I served on the House 
Intelligence Committee for eight years, and remember well the 
times we collaborated on bipartisan sensible policy to 
hopefully add to our intelligence capability in the effort to 
keep our country safe. I would like to think that if Senator 
Kempthorne were back in the Senate, or were to do something 
astonishing and become a House member and sit on this panel, he 
would want us to work on a bipartisan bicameral basis to solve 
this problem. And he is nodding his head, so he would. I 
welcome that, and I am delighted to see you again.
    This is not about, or should not be about, the blame game, 
as many have said on both sides. I don't see it that way. I see 
this as a clear disaster, both in environmental and human 
terms, but one that we should come together to fix. This 
Committee has a long record of fixing tough problems and 
crafting regulatory schemes that work. And so, Mr. Chairman, I 
welcome the testimony of our witnesses, and I welcome Senator, 
Governor, Secretary, private citizen Kempthorne, and our other 
former Interior Secretary, to help us solve this problem.
    Thank you, Mr. Chairman. I yield back.
    Mr. Stupak. Thank you. Mr. Hall for an opening statement, 
please.

 OPENING STATEMENT OF HON. RALPH M. HALL, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Hall. Thank you, Mr. Chairman. I am pleased that we are 
having this hearing today. I would also like to thank Honorable 
Gale Norton and Honorable Kempthorne. They are--and, of course, 
Secretary Ken Salazar.
    After three full months we are still trying to figure out 
what the precise causes is of what happened on the Deepwater 
Horizon on April the 20th. The sun came up on April the 20th, 
May the 20th, June the 20th and now it is--today it is exactly, 
time-wise, July the 20th. And I know--I have in my area a 
friend whose twin brother's boy was one of the 11 that were 
lost there, so we felt the loss even down into the Northeast 
part of Texas.
    But what really kind of unnerves me and gives me really 
problems is the President's first statements about this, when 
he said, have we come to this? An event that he is using to 
trash all energy thrusts. Not trying to redistribute the 
wealth, but apparently trying to destroy the wealth if it is 
involved in the energy business. Not to give light to the 
situation, but to turn off the lights all over our nation. We 
need to be producing our own energy through the bill that was 
passed several years ago that included not just drilling, but 
all of the above as answers to disasters like the Deepwater 
Horizon tragedy that we have.
    These unanswered questions should serve to advise against 
the temptations to overreact to the disaster, especially given 
the importance of the offshore oil and gas industry to the Gulf 
Coast economy and America's energy dependence goals. I am 
troubled by the rush to pass legislation on these. These bills 
will not solve the ongoing problems in the Gulf.
    I do believe we need to re-evaluate the safety procedures 
and drilling procedures we have in place now to fix what went 
wrong and make sure it doesn't happen again, but that is what I 
am told these investigations are doing as we speak. And only 
once we know exactly what happened can we address the problem. 
We need to re-learn to prevent overreaction and over-regulating 
the oil industry before we know what went wrong.
    It makes sense to continue pursuing improvements to safe 
and environmentally responsible drilling operations, as well as 
effective spill response systems, but to impose a drilling 
moratorium is just a knee jerk reaction that will not solve the 
problem, will not clean up the spill, and amplifies a lack of 
employment in the Gulf region. We should lift the moratorium 
immediately and get these folks back to work.
    I thank you, Mr. Chairman, yield back my time.
    Mr. Stupak. Thank you. Mr. Butterfield, opening statement, 
please.

OPENING STATEMENT OF HON. G.K. BUTTERFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Butterfield. Thank you, Mr. Chairman, for convening 
this very important hearing, and I certainly thank the two 
witnesses for their testimony.
    Mr. Chairman, news of the BP well may be improving, and the 
American people may be feeling better about this. The fact 
remains that the damage is done. While much of our attention 
has centered on the environmental impacts, let us not forget 
that the explosion killed 11 American citizens. As the facts 
continue to come into clear view, it appears that the company's 
bottom line--yes, its bottom line, not safety, not concern over 
its employees or environmental risk--was the primary concern. 
And so strong bipartisan regulations are necessary to ensure 
the public's trust, the ocean and everything beneath it, belong 
to the American people, not private corporations.
    The agreement between the people and these corporations to 
permit offshore drilling is meant to guarantee the safety and 
security of these irreplaceable resources while furthering 
commerce. Unfortunately, the technology of deep sea drilling 
has far outpaced the rulemaking and oversight needed to provide 
the public with security and certainty. We must use today's 
hearing to clarify the policy choices made within the Minerals 
Management Service.
    Without proper understanding of the guiding principles that 
took us to this point, we cannot be expected to write better 
policy for the future. This is an enormous tragedy that 
necessitates a thorough review, and, yes, overhaul of our 
regulatory strategy. Such an overhaul will once again allow the 
commerce to thrive, and environmental security to be secured 
for the trust of the American people.
    Thank you, Mr. Chairman, and I yield back.
    Mr. Stupak. Thank you, Mr. Butterfield. Mr. Shadegg for 
opening statement.

OPENING STATEMENT OF HON. JOHN B. SHADEGG, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Shadegg. Thank you, Mr. Chairman. I want to thank you 
for holding this important hearing. I want to thank all of our 
witnesses for appearing today, and especially Secretary Norton 
and Secretary Kempthorne.
    It is critical to the nation, and critical both for 
environmental reasons and also for energy reasons, that we find 
out what went wrong. Some want to blame the lack of regulatory 
structure, the lack of laws, the lack of regulations. Others 
want to blame the lack of enforcement and concerns in that 
area. In fact, there may have been blatant violations of the 
law. Indeed, most of the evidence we have heard so far in this 
Committee has indicated that BP was a bad actor, that, in the 
drilling of this well and its construction and its operation, 
it ignored warnings time and time again and cut corners. We 
need to find out exactly what happened in this instance, and we 
need to make sure that no bad actors can ever engage in that 
kind of conduct again. That is essential not only for the 
protection of our environment, but also for the protection of 
our economy.
    I think it is very important to point out that this is a 
process that is necessary for the sake of our future. It is 
not, and should not be, a blame gaming--or a blame assigning 
task. I agree with my colleague Mr. Doyle when he says there is 
plenty of blame to go around. That should not be the purpose of 
these hearings. We do not need to engage in finger pointing. 
What we need to do is to find out what went wrong. 
Unfortunately, some want to view this just as a crisis to be 
exploited. I believe it is a crisis to be addressed and 
resolved and to ensure that it never happens again.
    I am deeply concerned about the moratorium that has been 
enacted, and I share the comments of many of my colleagues, Mr. 
Green, Mr. Melancon, and others on both sides of the aisle who 
are concerned about the moratorium which the administration has 
imposed. I believe that that moratorium was ill-advised, and I 
find it not surprising that it was rejected both by United 
States District Court and then by United States Circuit Court 
of Appeals. I am disappointed that the administration acted in 
enacting that initial moratorium on a report which Secretary 
Salazar apparently changed after he received recommendations 
from the scientists who wrote it. Indeed I have here a letter, 
which I will later put into the record, in which eight of the 
15 scientists who work on the report say that it misrepresents 
their views.
    While a moratorium of some sort may indeed have been 
necessary, it seems to me we should have been looking at a 
narrow moratorium, one that only looked at bad actors, one that 
was not open ended in time, one that was focused on what things 
we knew then were wrong. And I look forward to the testimony of 
our witnesses so that we can try to discern what action we need 
to take to ensure this never happens again.
    Mr. Stupak. Thank you, Mr. Shadegg. Ms. Matsui, opening 
statement, please.

OPENING STATEMENT OF HON. DORIS O. MATSUI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Matsui. Thank you, Mr. Chairman, for calling today's 
hearing. I would like to thank Secretary Salazar and former 
Secretaries Kempthorne and Norton for appearing before us as 
witnesses today.
    I think we can all agree that the BP oil spill reminds us 
of the dangers of offshore drilling, as well as the severe 
environmental and economic impacts when something goes wrong. 
As this unprecedented disaster continues to unfold, it has 
raised significant questions about industry practices and 
regulatory standards relating to oil and gas drilling. In our 
ongoing investigations about the causes of this catastrophe, we 
learned that BP ignored important safety precautions and 
largely dismissed industry's best practices related to well 
design and other infrastructure that could have prevented such 
an accident.
    We now know that there were issues with MMS and its 
oversight of offshore drilling activities. It is for these 
reasons that I have been pleased to see the Interior 
Department's recent overhaul of Federal regulations relating to 
oil drilling and exploration activities. And BP and the 
government need to ensure that the well is both properly and 
permanently plugged. Moreover, with the cost of the debacle now 
approaching $4 billion, not including lives lost, livelihoods 
in peril and environmental depredation yet to be measured, we 
must make sure that nothing like this ever happens again. And 
within that context, Congress must continue to examine the 
Interior Department's role now and in the past in regards to 
the oversight and management of these critical regulatory 
bodies.
    Thank you, Mr. Chairman, for calling today's hearing. I 
look forward to the testimonies of the witnesses before us, and 
I yield back the balance of my time.
    Mr. Stupak. Thanks, Ms. Matsui. Ms. Blackburn for opening 
statement, please.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman. You know, as we 
have another of our hearings on what happened with the 
Deepwater Horizon, I think it is so important that we all 
remember and express our sympathies to the families that are in 
the Gulf region that have been so deeply impacted with this. I 
grew up in South Mississippi, and every time I call home, or I 
am talking with friends from college, or friends that I grew up 
with, or family members, I am again reminded of the very deep 
and personal impact, whether it is the loss of life, the loss 
of jobs, the loss of faith in the institutions that we have, 
the loss of faith in an employer, the frustration with 
government agencies, the frustration with the slow response 
times.
    I--there really is many lessons to be learned, and we need 
to be respectful of that process, so I thank you all for being 
here with us today as we continue to work through this process. 
And as you have heard from my colleagues, this is something we 
want to review. Not place blame, but get it right, and make 
certain that a steadfast process is in place.
    Three questions I am going to have for the Secretary and 
for the two former Secretaries, whom we welcome. I want to get 
the--your thoughts on the new moratorium. What do you think 
this is going to do to save the jobs? How do you think this is 
going to help business investment? I see that as a bit 
counterintuitive when I am talking to those in the Gulf, so I 
want to look at that decision process and the expectations of 
that.
    Secondly, I want to hear from the Secretary on why this 
Department has failed to comply with numerous requests by 
members of Congress for documents in response to the spill and 
the cleanup operations. And I say this because, due to the 
frustration with BP and with government agencies and with the--
this administration, people have come to their member of 
Congress and have not received--we have not been able to get 
the information that need.
    And third, I want to know, from the Secretary, how they 
think the new Department of--Bureau of Ocean Energy is going to 
police waste, fraud and abuse of Federal funds and actually 
conduct regulatory oversight.
    Mr. Chairman, I thank you. I yield back.
    Mr. Stupak. Thank you. Ms. Schakowsky, opening statement, 
please.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you very much, Mr. Chairman, and I 
will be brief.
    In the face of this unprecedented disaster, every branch of 
government must be part of the solution, cleaning up the mess, 
ending the flow, compensating adequately the people, and, of 
course, preventing this from happening again. And, of course, 
we have to understand what happened, and that is the focus of 
this hearing. And I appreciate so much the witnesses that are 
here today so we can look at the Department of Interior.
    But I have to say, I haven't heard much about the 
responsibility of this Congress and this Committee. After all, 
we all did hear about the Inspector General's report September 
8, 2008 about the staff at the--at MMS and the gifts and the 
gratuities, et cetera. We knew about that, and hindsight, of 
course, is 20/20, but the failures at BP were knowable as well. 
We had hearings about the refinery fire. And we also could have 
known that between 1985 to today the number of inspectors at 
MMS has risen only from 55 people in 1985 to 60 today, while 
the number of wells has increased from 65 to 602. So clearly we 
are going to have to have more inspectors, our Committee's 
going to have to be more involved on an ongoing basis in 
oversight, and we are going to have to have the proper systems 
and the proper resources in place to get the job done. So this 
is clearly part of that investigation, but we have to see 
ourselves as an integral part of that--of the solution as well. 
And I thank you, Mr. Chairman, for making sure that that is the 
case.
    I yield back.
    Mr. Stupak. Thank you. Mr. Scalise, opening statement. Two 
minutes please.

 OPENING STATEMENT OF HON. STEVE SCALISE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Scalise. Thank you, Mr. Chairman. No other state has 
been more affected by the BP disaster than my home state of 
Louisiana, and we battle the effects of the oil each and every 
day. But make no mistake. The effect of this disaster is 
reaching far beyond the Louisiana state line. The offshore jobs 
being lost right now are American jobs. In the marshlands where 
the oil continues to infiltrate, those are America's wetlands 
and our first line of defense against hurricanes and gulf 
storms.
    We know that MMS, the federal regulator responsible for 
reviewing and approving offshore operations, just weeks before 
the explosion certified that the rig and the blowout preventer 
met the safety and environmental requirements and allowed the 
Deepwater Horizon to continue operating.
    I have said for months now if the blowout preventer was 
intended to be the last line of defense, then President Obama's 
regulating agency was established as the first line of defense, 
and we should fully understand the role that they played in 
this disaster. As the people of Louisiana continue to fight the 
oil each day, President Obama and his administration are taking 
what is already a human and environmental tragedy and turning 
it into an economic tragedy by continuing to pursue a reckless 
and harmful moratorium on offshore drilling.
    This drilling ban will result in the loss of over 40,000 
high-paying Louisiana jobs and will leave America more 
dependent on Middle Eastern oil. Some suggest we have to choose 
between safety and jobs. This is a false choice. We can and 
must preserve the jobs while demanding safe energy exploration. 
The two can and should peacefully coexist.
    Make no mistake. This ban has nothing to do with ensuring 
safety. Instead, it exploits this disaster in an effort to 
pursue a political agenda. As a matter of fact, a majority of 
the experts hand-picked by this administration to do an initial 
30-day offshore safety report opposed this moratorium and have 
said that six-month drilling moratorium will actually reduce 
long-term safety.
    While some might claim that a pause on drilling is a 
reasonable step to take, make no mistake. There is no such 
thing as hitting some magical pause button on offshore drilling 
by issuing a reckless moratorium. If this happens, you will 
reduce safety in the gulf because the most technologically 
advanced and safest rigs will leave first. And the most 
experienced crews that work on these rigs who have decades of 
industry experience will be the first to leave, seeking work 
elsewhere. And since our country's demand for oil has not 
dropped, more oil will be imported on tankers, which account 
for 70 percent of all oil spills.
    In conclusion, instead of exploiting this disaster, the 
President must work with us to fight the oil, improve the 
safety of offshore drilling and put a halt to further 
consideration of a moratorium that will reduce safety, kill 
jobs, and leave us more dependent on foreign oil. Thank you, 
and I yield back.
    Mr. Stupak. Ms. Sutton, opening statement please.

  OPENING STATEMENT OF HON. BETTY SUTTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Ms. Sutton. Thank you, Chairman Stupak and Chairman Markey, 
for holding this hearing. The explosion on Deepwater Horizon 
resulted in the deaths of 11 workers and injured many 
additional workers. And since that time, we have witnessed the 
worst environmental disaster in our nation's history.
    Recent news reports state that BP had the Deepwater Horizon 
rigs failed blowout preventer was modified in China, and other 
shortcuts were taken to maximize profits at the expense of 
safety.
    And the costs have been great. BP set aside $20 billion for 
compensation, and the federal government has billed BP hundreds 
of millions of dollars for cleanup costs. And according to the 
administration, approximately 40,000 personnel are involved in 
the cleanup and the protection of the shoreline and the 
wildlife.
    Over 6,400 vessels are assisting with the cleanup, and 
while the cleanup continues, approximately 84,000 square miles 
of federal waters in the Gulf of Mexico remain closed. 
Hardworking Americans are out of work and applying for 
compensation at BP. And three months later, a cap on the oil 
well is finally in place. Although leaks and seepage have been 
detected.
    The costs have been great indeed and have highlighted the 
costly need to ensure that offshore drilling operations are 
safe. We cannot afford an additional oil spill disaster. 
Significant steps have been taken, including dividing the 
Mineral Management Service into three separate organizations to 
prevent conflicts of interest going forward.
    But as we have witnessed over the last three months, the 
costs of the status quo have been far too great, and we must 
take appropriate action to make sure that this type of tragedy 
and its aftermath do not happen again. So thank you for being 
here.
    Mr. Stupak. Thank you, Ms. Sutton. Our last opening 
statement, Mr. Braley of Iowa please.
    Mr. Braley. Thank you, Mr. Chairman. I will waive my 
opening.
    Mr. Stupak. OK, that concludes the opening statement by all 
members of our Oversight Investigation Subcommittee and the 
Energy and Environment Subcommittee. We have our first panel of 
witnesses before us. We thank them for being here. We have the 
Honorable Gail Norton, who was the Secretary of Interior from 
2001 through 2006. And we have the Honorable Dirk Kempthorne, 
who was Secretary of the Interior from 2006 to 2009. Thank you 
for being here.
    Secretary Norton and Secretary Kempthorne, we appreciate 
you being here, and you have appeared here voluntarily. And 
once again we appreciate that. It is the policy of this 
subcommittee to take all testimony under oath. Please be 
advised that you have the right under the rules of the House to 
be advised by counsel during your testimony. Do either of you 
wish to be represented by counsel? Secretary Norton? Secretary 
Kempthorne? OK, both indicate no. Let the record reflect the 
witnesses replied in the affirmative. You are now under oath. 
We begin with 5-minute opening statements. And, Secretary, if 
you don't mind, we will start with you. Secretary Norton, 
opening statement please.
    [Witnesses sworn.]

   TESTIMONY OF THE HONORABLE GALE NORTON, SECRETARY OF THE 
    INTERIOR, 2001-2006; AND THE HONORABLE DICK KEMPTHORNE, 
              SECRETARY OF THE INTERIOR, 2006-2009

                    TESTIMONY OF GALE NORTON

    Ms. Norton. Thank you. Mr. Chairman and members of the 
committee, I am deeply saddened and appalled by the Deepwater 
Horizon disaster. It is vitally important that Americans 
determine the causes of the accident and that we take steps to 
ensure that offshore production can continue safely. The 
explosion and the oil spill have been a tragic disaster with 
unprecedented impact on the affected families, communities, and 
ecosystems.
    It is disturbing to watch the damage unfold, and my 
thoughts have been with the people of the gulf region. As I 
consider the Deepwater Horizon disaster, I am constantly 
reminded of my earliest exposure to accident investigation. My 
father who devoted his career to aviation was occasionally 
involved in investigating the causes of crashes of small 
planes. I learned about the National Transportation Safety 
Board and its process for unraveling accident causation, then 
feeding that information back to manufacturers and pilots.
    As with the devastating aircraft crash, we need to 
objectively seek the truth of what happened in the Gulf of 
Mexico so we can learn lessons that may prevent future 
tragedies. All those affected deserve an objective systematic 
analysis of the problems. Emotional and hasty reactions should 
not form the basis for long-term policy, whether we are talking 
about flying in airplanes or tapping offshore resources. 
Getting the balance right between risks and benefits requires 
knowledge and professional inquiry.
    It has been nine years since I took the helm at the 
Department of the Interior. I am not as conversant about 
offshore issues as I once was, and I will only mention a few 
things in my experience at this point in time.
    The importance of domestic energy production was brought 
shockingly into focus by the terrorist attacks of September 11, 
2001. Until then, it has been risky to rely on unfriendly 
nations as the source of so much of our oil supply. But the 
attacks transformed that risk into a matter of grave national 
security. Offshore petroleum's role as the source for roughly a 
third of American production gave it an important focus.
    Without question, the most powerful OCS experience for me 
was the 2005 hurricane season. Over 4,000 offshore platforms 
were operating in the Gulf of Mexico when Hurricanes Rita and 
Katrina pummeled the area. Safety and spill prevention measures 
were put to a severe test. Amazingly, despite two category-five 
hurricanes, the amount of oil spilled from wells and platforms 
was small. The shutoff valves located at the sea floor operated 
as intended. They prevented oil from leaking into the ocean 
floor when the platforms were destroyed.
    There was one weakness in that industry's strong hurricane 
performance. The hurricanes dislodged 19 mobile drilling rigs 
from their moorings. Once cut loose, they drifted for miles, 
dragging pipelines behind them and endangering other platforms 
with which they might collide.
    The amount of oil released was relatively small, and a 
significant problem had been revealed. I brought MMS and 
industry together to figure out a solution. After my departure 
from Interior, MMS completed this process and strengthened its 
mooring standards. We found out about the problem, and we 
solved it.
    There has been a great deal of media attention to the 
ethics of the Minerals Management Service. It pains me to see 
the vilification of MMS and its employees. I want to speak in 
defense of the vast majority of hard-working and professional 
men and women in the Minerals Management Service.
    As revealed by inspector general reports after I left the 
department, a handful of employees blatantly violated conflict 
of interest requirements. Their actions were wrong and 
unacceptable, but MMS has over 1,700 employees. The very few 
misbehaving employees have been blown out of proportion to 
create a public image of the MMS as a merry band of rogue 
employees seeking favor from industry. The public servants I 
encountered were entirely different.
    I will never forget a meeting with the MMS employees after 
Hurricanes Rita and Katrina. They were in temporary 
headquarters because their New Orleans headquarters was no 
longer available. They were crammed into a couple of rooms, 
makeshift desks, working hard to keep up with all of the 
demands that were coming through at that time, approving 
pipeline repairs, addressing environmental and safety issues, 
expediting all of the requests, trying to regulate with common 
sense in incredibly difficult circumstances.
    These employees coped with submerged homes, families who 
were in limbo and essentially homeless, but they were working 
out of dedication, serving their country, serving their gulf 
coast communities. These are the people who represent the 
Minerals Management Service to me.
    Industry and offshore energy supporters were always 
conscious of the political reaction and industry setbacks 
occasioned by the 1969 Santa Barbara oil spill and reinforced 
by the Exxon Valdez. No one wanted to repeat those failures, so 
industry had an incentive to maintain strong environmental 
protections. That, coupled with regulation, encouraged careful 
planning and adequate safety precautions. That formula worked 
well.
    Three months ago and for the many years proceeding, the 
regulatory and response structure was based on a past history 
of success. Since 1980, the largest spill from a blowout in 
federal waters was only 800 barrels. All of the plans in both 
Republican and Democratic administrations were adopted against 
this backdrop of safety.
    Unfortunately, now the federal government must establish 
future policies in the aftermath of a worst-case scenario 
beyond anything most people contemplated.
    I hope Congress will follow the process that has served us 
so well in the aviation field, study what caused the accident 
and then adopt new or additional procedures on that basis.
    Offshore regulators need to have a good working 
relationship with industry to understand what they are 
regulating and to avoid imposing one-size-fits-all rules that 
ultimately decrease safety. For half a century, the Gulf of 
Mexico has produced a third of our nation's oil, a huge 
economic benefit to America with an impressive safety record.
    The federal government should not throw out a system that 
was so successful for so long without understanding where the 
problems really are. Thank you.
    [The prepared statement of Ms. Norton follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stupak. Thank you. Secretary Kempthorne, opening 
statement please.

                  TESTIMONY OF DIRK KEMPTHORNE

    Mr. Kempthorne. Mr. Chairman, thank you very much to all 
members of the committee. I am Dirk Kempthorne, and I have 
testified before Congress as a United States senator, as the 
governor of Idaho, as a cabinet member. This is my first time 
testifying that I have been in the elevated position as a 
private citizen.
    My responsibilities as secretary ended at the Department of 
Interior 449 days ago. Ninety days ago, the BP oil spill 
exploded into the nation's consciousness. The accident of BP's 
Deepwater Horizon oil rig caused 11 families to bury their 
sons, husbands, and fathers. The accident injured 17 workers. 
It forced fishermen and others to lose their livelihoods. It 
engulfed the Gulf of Mexico with oil slicks that now are close 
to beaches and marshes in the bayou.
    Out of respect for Congress where I served for six years 
and out of respect for these two committees, I accepted your 
request that I talk with you about the tragic oil spill. In 
light of leaving Interior 18 months ago and without access to 
Interior staff or briefing documents, I preface all of my 
remarks with the understandable caveat, as I recall. Until now, 
I have declined multiple media requests to comment in the 
belief America was best served by letting those in charge to 
stay focused on job number one of stopping the oil spill.
    As you can appreciate, I cannot provide any insight about 
the exploration plan and the many dimensions of the application 
for the permit to drill which culminated in the Deepwater 
Horizon accident because these were evaluated and approved 
after I left Interior.
    For 40 years prior to this accident, the Interior 
Department and the industry it regulated had a remarkable 
record of success in safely developing and producing energy 
from oil platforms and drilling rigs.
    Secretary Norton and I took note of this remarkable safety 
record and so did our successor, Secretary Salazar. Before the 
BP oil spill, Secretary Salazar on March 31 of 2010 announced 
he had revised the 2007/2012 five-year plan. This plan called 
for developing oil and gas resources in new areas while 
protecting other areas. On the issue of safety, Secretary 
Salazar said, and I quote, ``Gulf of Mexico oil and gas 
activities provide an important spur to technological 
innovation, and industry has proven that it can conduct its 
activities safely.'' That statement, Mr. Chairman, is 
consistent with my own impressions while serving as the 
secretary of the Interior.
    By requesting me to attend, you are asking about the record 
of the Bush administration on offshore energy development. I 
offer these perspectives from my experience as secretary. This 
hearing gives me an opportunity to address an issue about the 
ethical culture at the Minerals Management Service. Let me 
address the issue of ethics head on.
    Shortly before leaving office, I was summoned to Congress 
to testify on inspector general reports about unethical conduct 
within the Minerals Management Service. On September 18, 2008, 
I unequivocally told Congress that the conduct disgusted me and 
there would be prompt personnel action. Because that action was 
underway, I was advised by lawyers at the Department of 
Interior that I could not discuss it in detail. Now I can, 
including the fact that we fired people.
    It should be part of this hearing record that Johnny 
Burton, who had been director of MMS during Secretary Norton's 
tenure, has publically stated upon hearing about this conduct, 
that she personally requested the IG to investigate. It should 
also be part of this hearing record that those involved were 
fired, retired, demoted, or disciplined to the maximum extent 
permissible.
    The facts are that all of these actions were taken before I 
left office. I would add a statement that Inspector General 
Earl Devaney said in a testimony before the House Natural 
Resources Committee on September 18, 2008, and I quote, ``I 
believe that the environment of MMS today is decidedly 
different than that described in our reports.'' And I agree 
with the IG that 99.9 percent of DOI employees are ethical, 
hard-working, and well-intentioned.
    Mr. Chairman, members of the committee, they are part of 
your team. There are good people there.
    I received another report critical of the MMS Service 
Royalty program. Again I took action. The current 
administration puts stock in the Don Carey report reviewing 
MMS. I would like the record to note that I personally called 
former senators Jake Garn, a Republican, and Senator Bob Carey, 
a Democrat, and asked them to conduct a bipartisan, independent 
and thorough examination of this program with no preconceived 
outcomes. They did with other talented experts.
    They issued a report that recommended 110 actions to 
improve the program, including, as I recall, 20 recommendations 
directly from the inspector general's office. We methodically 
implemented all of the recommendations that could be done while 
we were still in office, which, as I recall, was about 70.
    Mr. Chairman, I would ask that the testimony of Inspector 
General Earl Devaney and I gave to Congress in September of 
2008 be made part of the record as well as the Don Carey 
report.
    Mr. Stupak. Without objection, it will be.
    [The information appears at the conclusion of the hearing.]
    Mr. Kempthorne. Also, while I was Secretary of the Interior 
not once but twice increased royalty rates companies paid for 
energy produced for deepwater offshore leases. In 2007, we 
increased the royalty rate from 12.5 percent to 16.67 percent. 
In 2008, the royalty rate was again increased to 18.75 percent. 
This is a 50 percent increase in royalty rates paid by oil 
companies for the right to produce oil and gas from federal 
waters.
    I can report to you that these increases came as a result 
of a conversation I had with President George Bush. He believed 
and I agreed that a 12.5 percent royalty rate was too low. I 
would also note that not once but twice budgets that I 
submitted called for Congress to repeal sections of the 2005 
Energy Policy Act that provided additional price incentives for 
deepwater oil and gas development.
    As secretary, I was required by the Outer Continental Shelf 
Lands Act to issue a five-year plan covering the years 2007 to 
2012 for offshore oil and gas development. Once we finished 
that plan, it was required by law to be submitted to Congress 
for a 60-day review. Congress had the power to reject that 
plan. Congress did not. In fact, as I recall, I don't think any 
legislation was introduced calling for the plan to be rejected. 
The plan is here.
    This plan was developed after extensive consultation with 
members of Congress, state and local official, industry, and 
environmental organizations. We received comments from more 
than 100,000 interested citizens. 75 percent of the comments 
received from the public supported some level of increased 
access to the domestic energy resources of the outer 
continental shelf.
    My five-year plan, Mr. Chairman, was met with both draft 
and final environmental impact statements. A relevant fact is 
that these EISs, along with environmental assessments and oil 
spill response plans, were based on the probability that a 
significant oil spill was small. The environmental impact 
statement used historical information and models. When the 2007 
and 2012 five-year plan was written, there had not been a major 
oil spill in 40 years. One very real consequence of the 
Deepwater Horizon accident is that these historical assumptions 
will be forever changed.
    An additional significant development was taking steps to 
implement congressional direction and further the work that 
Secretary Norton set in motion to development offshore wind, 
wave, and ocean current strategies.
    Mr. Chairman, I would conclude with two thoughts. One, as 
you appropriately deal with this issue, and I appreciate the 
tone which has been set by so many of the members of this 
committee, that this is an opportunity to bring out issues that 
are before us, to find out what worked, what did not work, and 
what is the path forward.
    But I would encourage all officials working on this to keep 
in mind the great resources that you have with the states with 
the governors in those gulf coast states, proven leaders who 
are pragmatic and want to be partners. They also have solutions 
to this.
    And second, the consequence of the Deepwater Horizon 
accident is that it will forever change the offshore energy 
industry. Never again will a cabinet secretary take office and 
be told that more oil seeps from the seabed than has been spilt 
from drilling operations in U.S. waters. Never again will 
decision makers not include planning for events that might be 
low probability events but which in the unlikely event they 
occurred, would be catastrophic. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Kempthorne follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stupak. Let me thank both secretaries for your 
testimony and thank you again for voluntarily appearing. 
Caution to members. We have 34 members here, and if we all take 
five minutes each, that is going to bring us pretty close to 
the three-hour limit. So I am going to be going to push members 
to keep your questions within that five-minute range. Otherwise 
we will have a runaway committee as opposed to a runaway well. 
And we will try to keep some control of it.
    Let us begin with Chairman Waxman for questions please.
    Mr. Waxman. Thank you very much, Mr. Chairman. I will abide 
by your admonition on the time. Secretaries Norton and 
Kempthorne, I have some questions about the goals of the Bush 
Administration's national energy policy. President Bush and 
Vice President Cheney's energy task force suggested several 
ways to boost offshore production of oil and gas.
    The Cheney task force recommended that the Interior 
Department offer new economic incentives to encourage industry 
to pursue offshore oil and gas development. These incentives 
included a proposal to reduce the royalties private companies 
have to pay the American people when they take oil and gas from 
public land. The task force also recommended that the Interior 
Department identify and reduce impediments to exploration and 
production both onshore and offshore.
    Secretary Norton, were those components of the Bush energy 
plan?
    Ms. Norton. To the best of my recollection, Congressman, as 
to economic incentives, we employed the economic incentives on 
royalty relief that were put in place by----
    Mr. Waxman. My question is the general statement of that 
energy plan was to provide incentives and to reduce impediments 
in order to develop more energy supplies. Wasn't that what the 
plan was all about?
    Ms. Norton. We were facing a very serious energy crisis at 
that point in time.
    Mr. Waxman. I am not asking for justification. There is 
nothing wrong with that.
    Ms. Norton. We were looking to increase the energy 
production.
    Mr. Waxman. Now, immediately after the task force released 
its report, the President issued two executive orders. Now, 
this task force that Vice President Cheney chaired was a 
subject that I know a lot about because I was trying to just 
find out who he met with, and we never even got the list of the 
executives from industry that he met with. I don't know what 
the secret was all about, but I had to go to the Supreme Court 
to try to get that information.
    So the task force released its report. Then the President 
issued two executive orders intended to increase energy 
production. One of these orders required agencies to compile 
every rule making and analysis of whether the rule would 
adversely affect energy supply.
    The other order directed agencies to expedite a review of 
energy exploration permit and accelerate the completion of 
energy-related projects. Secretary Norton, in August of 2001, 
Stephen Guiles, your deputy secretary, wrote a memo to the 
Council on Environmental Quality stating that the department 
``is fully committed to playing a role in this effort.'' 
Secretary Norton, during your tenure, did the Department of the 
Interior support President Bush's policy of expediting drilling 
on the Outer Continental Shelf?
    Ms. Norton. We took many actions looking at what could be 
done to make sure that the permitting in place and so forth was 
done in----
    Mr. Waxman. You were trying to----
    Ms. Norton. It really was not----
    Mr. Waxman [continuing]. Comply with the policy of the 
administration, weren't you?
    Ms. Norton. There was really not much change as to the OCS. 
We worked primarily at on-shore areas and the permitting 
process in those areas.
    Mr. Waxman. OK, I have a limited time, but the answer is 
yes. You were trying to do this within your purview.
    Secretary Kempthorne, when you lead the department, isn't 
it true that the Bush Administration plan and the resulting 
Energy Policy Act of 2005 specifically encouraged deepwater and 
ultra deepwater drilling in the Outer Continental Shelf.
    Mr. Kempthorne. That was so.
    Mr. Waxman. OK, what concerns me is that in the task force 
report and the President's executive orders, I have no problems 
with those reports in themselves. But I don't see any 
consideration for the importance of improving drilling safety 
while we encouraged more exploration. Committee staff reviewed 
your testimony each of you gave to the Congress when you were 
secretary and found no discussion of strengthening safety 
standards for blowout preventers, no discussion of best 
practices for well design, and no discussion of how we assure 
that industry can respond to a large oil spill.
    Both of your testimonies talk about the safety record of 
offshore drilling, but it seems to me that one of the things we 
have learned is that deepwater and ultra deepwater drilling 
might involve different risks than shallow water drilling and 
it wasn't appropriate to rely on assurances based on shallow 
water drilling experiences.
    I am not trying to lay the Deepwater Horizon disaster at 
the feet of the Bush Administration. In fact, I look forward to 
hearing from Secretary Salazar on some of these same questions. 
But I am trying to understand how we got here today, how 
Congress and the regulators accepted the industry's promises of 
safety as we press full steam again into the deepest waters of 
the Gulf of Mexico without verifying that industry could 
deliver on its promises.
    It is as if we said we are going to raise the speed limit 
to 100 miles an hour without thinking twice about how to 
strengthen seatbelts or improve airbags. The American people 
deserve these answers. They deserve an energy policy that 
considers the need for better safety rules as industry takes 
greater risks to find oil and gas.
    Thank you, Mr. Chairman.
    Mr. Stupak. Thank you, Mr. Chairman. Mr. Barton for 
questions please.
    Mr. Barton. Thank you, Mr. Chairman. I am going to try to 
hold it to the five minutes just as Chairman Waxman did. I 
might point out that if we had followed regular procedure and 
had the incumbent Cabinet secretary here first where most of 
the questions are, we wouldn't take up as much time with two 
prior Cabinet secretaries who have no official standing, but 
that is just me kind of saying we ought to use the regular 
order instead of this unusual order.
    But having said that, we are glad you folks are here. As we 
all know, the Jones Act requires U.S. flag ships with U.S. 
crews to operate in the Gulf of Mexico, but we do have existing 
statutory authority that the President can waive that in times 
of emergency. We had a lot of international equipment that was 
available to come help us with the oil spill that wasn't 
allowed to come because the Obama Administration wouldn't waive 
the Jones Act.
    Do either of you have a comment on that?
    Ms. Norton. While this was not anything that I dealt with 
directly, I do know that the situations that occurred with 
large oil spills in recent history had been in other countries. 
And so other countries have learned from those experiences. And 
it makes sense to me to take advantage of the equipment and the 
personnel that are available. I do know that President Bush 
waived the Jones Act as quickly as possible after Hurricanes 
Rita and Katrina so that we could bring in assistance from 
other countries.
    Mr. Barton. Secretary Kempthorne.
    Mr. Kempthorne. Mr. Barton, the magnitude of this 
catastrophe would suggest that you should be able to array all 
assets made available to you, and I do not believe that was 
what occurred.
    Mr. Barton. OK, we have also given authority to waive 
certain EPA environmental review requirements in times of 
emergency. This authority was used in Katrina. Several 
governors of the gulf coast, the governor of Louisiana, I 
believe the governor of Mississippi, asked for such a waiver. 
As of yet, that waiver has not been implemented, and so you had 
the ironic situation where the Coast Guard was attempting to 
facilitate the creation of berms to prevent known oil from 
reaching the beaches, and yet the EPA was refusing to grant a 
waiver so that--because of some potential impact that was 
unknown at the time.
    Do either of you have a comment on why the Obama 
Administration wouldn't listen to and work with the affected 
governors of the states on this issue?
    Ms. Norton. Once again, drawing from the Rita and Katrina 
experiences, we tried to do everything we could to move ahead 
as quickly as possible with common sense. And I really cannot 
comment about all the aspects of the current administration's 
decision-making. I am not there. I don't know the details.
    Mr. Kempthorne. Mr. Barton, if I may add, I referenced in 
my comments that we need to utilize these governors, very 
talented people. When I was governor of Idaho and we had 
Katrina and Rita, I was in continual telephone communication 
with Governor Barber, Governor Blankill, Governor Perry. On a 
moment's notice, they would say the needs that they might have, 
and I could implement the Idaho National Guard. C130 it would 
leave, a variety of things, a convoy that would go because they 
would run out of diesel fuel for first line responders.
    We moved faster than the federal bureaucracy was moving. We 
are still the United States of America, and this working 
together with the states, I think, can yield great results. And 
so again I just urge the partnership with those that are down 
in the gulf coast region.
    Mr. Barton. There is one more question I want to ask in the 
last one minute. Much is made by some of my friends on the 
majority of the fact that when we passed the Energy Policy Act, 
we put in some ultra deep language, and when that language was 
implemented, the Clinton Administration made the decision not 
to require a price trigger for royalties, but we did provide a 
volumetric trigger.
    Those were put in place when oil per barrel was below $30 a 
barrel. I think it was even below $20 a barrel. Obviously now 
it is $70 or $80 a barrel. It makes no sense not to have some 
sort of a price royalty trigger. But it was the Clinton 
Administration that made that decision initially, not the Bush 
Administration. Isn't that correct?
    Ms. Norton. Yes, Congressman. We found that the Clinton 
Administration had omitted price thresholds from some of the 
leases that were issued. My administration put in place price 
thresholds on all of the leases that went forward.
    Mr. Barton. The new leases.
    Ms. Norton. On the new leases.
    Mr. Barton. OK.
    Ms. Norton. There has been a lot of litigation about that, 
and I won't go through the history of----
    Mr. Barton. Well, in hindsight, you know, we should have 
had a price trigger, but a contract is a contract. So we put 
them in place for future. But since the Clinton Administration 
didn't have them in place at the time when prices were so low, 
those contracts have been honored.
    With that, Mr. Chairman, I know my time is expired. And I 
thank you, and I thank our two witnesses for being here today.
    Mr. Stupak. Thank you, Mr. Barton. Secretary Kempthorne, 
you were secretary when the lease sale for 206, which included 
the BP's McCondill well was let. Is that correct?
    Mr. Kempthorne. That is correct.
    Mr. Stupak. And I believe you said that it was a big sale 
record. $3.7 billion was the lease sale for 206 including $34 
million for the block containing the McCondill well. And you 
indicated that we had won the championship. We had won the 
championship, but one of the things we have been struggling 
with is a bad actor policy. For instance, British Petroleum has 
760 violations, egregious willful violations in a five-year 
period, where the next biggest oil company has only eight.
    Was there anything that you could have done as secretary 
and said thank you for your bid of $34 million, but we are not 
going to let you drill in this area based on your past record? 
Is there any authority for you to do that?
    Mr. Kempthorne. Mr. Stupak, I don't believe that that is 
part of the current matrix.
    Mr. Stupak. If it is not, should it be? Should the 
secretary be able to say thank you for the bid. Even though we 
are the highest bidder and we have to give you this lease, we 
are not going to because of your past history?
    Mr. Kempthorne. Mr. Chairman, many of us in our daily lives 
and decisions we have to make have to do due diligence. If that 
could be part of the matrix, I think, is certainly a very fair 
question.
    I would also, if I may, Mr. Chairman, with regard to 
winning the championship, we were there in the big dome of the 
New Orleans Saints, and it was an atmosphere of New Orleans 
trying to come back. And so it was in that context.
    Mr. Stupak. Well, they did win the big championship.
    Ms. Norton. Mr. Chairman, if I could just add a quick 
comment on----
    Mr. Stupak. Sure.
    Ms. Norton [continuing]. The substance of your question. I 
think it makes sense to have a bad actor set prohibition 
against participating. I do think there are some problems with 
entering into subjective aspects of the decision making about 
who wins the highest bid. I think having a clear high bid and 
awarding on that basis is something that provides a lot of 
protection against manipulation of the system.
    Mr. Stupak. Well, right now the law requires you if it is 
the high bid, you have to accept it, right?
    Ms. Norton. That is right.
    Mr. Stupak. No matter what the history is.
    Ms. Norton. Having a separate bad actor provision makes a 
lot of sense.
    Mr. Stupak. Let me ask you this, Secretary Norton. 
Throughout our investigation, we have learned that Deepwater 
Horizon explosion was caused by a series of shortcuts that BP 
took in the final hours and days before the explosion. The 
final step in the disaster was the failure of the blowout 
preventer to cut the pipe, stop the blowout, and seal the well.
    BP's CEO Tony Hayward called this device a failsafe and 
indicated that he and British BP officials were shocked when it 
failed. Frankly, I am surprised that anyone would be surprised 
given the mounting evidence that BOPs weren't failsafe at all
    In 2001, MMS received a report that concluded that all Sub-
C BOP stacks should have two blind shear rams to reduce the 
likelihood of a blowout. Blind shear rams are used to--used as 
a last resort in emergency to cut through the drill pipe and 
close an out-of-control well.
    So, Secretary Norton, after receiving this report, did the 
Department of Interior require two blind shear rams on Sub C 
BOPs?
    Ms. Norton. The Department of the Interior looked at the 
issue and addressed it with a regulation saying that blind 
shear rams must be capable of shearing the drill pipe and that 
they have to be sufficient for the----
    Mr. Stupak. But you didn't require two as was recommended?
    Ms. Norton. We required four types of blowout preventers be 
present on each of the wells.
    Mr. Stupak. That was above the surface.
    Ms. Norton. We have a quintuple.
    Mr. Stupak. I am talking about subsurface. The ones that 
you required was surface BOPs, which are easily accessible. We 
are not dealing with a mile down. I am talking about Sub C, and 
the report dealt with Sub C.
    Ms. Norton. In order to--our regulation required that there 
be a blind shear ram that was sufficient to address the 
situation.
    Mr. Stupak. But the recommendation was two so we had a 
backup redundancy so we could have a failsafe system. And do I 
understand you didn't require the two then?
    Ms. Norton. Regulations do not require two. That is 
something that can be looked at in the future.
    Mr. Stupak. Right, you issued a regulation in 2003, and you 
didn't make it part of it.
    Ms. Norton. The experts in MMS looked at that issue and 
determined that what needed to be addressed was having----
    Mr. Stupak. That they should be able to do it, but they 
recommended two.
    Ms. Norton. They set in play----
    Mr. Stupak. Let me ask you this though.
    Ms. Norton [continuing]. That said they had to be able to 
address----
    Mr. Stupak. My time is just about up. MMS received another 
report that painted, and I quote, ``a grim picture of the 
ability of the BOPs to cut pipe when necessary.'' In response, 
MMS took one minor step. The agency began requiring each well 
operator to provide information showing that the BOP blind 
shear ram was capable of shearing the drill pipe, as you said. 
But it is unclear to what extent this information was reviewed.
    Frank Patent, the New Orleans district drilling engineer 
for MMS, testified before the Marine Board of the investigation 
on this Deepwater Horizon and said that he was never told to 
look for this information when reviewing drilling applications.
    So my question is how do you explain Mr. Patent's 
testimony? He was the New Orleans drilling engineer, and yet 
even he seemed to be unaware of requirement that companies 
demonstrate that blowout preventers could even cut the pipe?
    Ms. Norton. The regulations are there. They are very clear 
about the need to have blowout prevention devices that are 
going to function in the circumstances. They have to be 
maintained. They have to be checked, and I can't address what 
happened several years after my watch and why he may not have 
had that information.
    Mr. Stupak. But when you did the final regulation, you had 
about three reports to your agency and you issued a final rule 
in 2003. You just had verification that companies were supposed 
to verify that they had ram shear, not two, just one ram shear, 
correct?
    Ms. Norton. If you look at Secretary Salazar's 30-day 
report to the President following the Deepwater Horizon 
disaster, they looked at those studies and found that those 
studies reinforced the regulation as it was written.
    Mr. Stupak. I am looking at the federal register which 
would be your rule that you submitted, and it was absent of all 
that. You left it to the discretion of the oil companies.
    Ms. Norton. We put in place a requirement that they had to 
have sufficient blowout prevention devices to maintain control 
of the well.
    Mr. Stupak. Mr. Burgess, questions?
    Mr. Burgess. Thank you, Mr. Chairman. We have heard some 
references--and Secretary Kempthorne, I really appreciate you 
bringing up the role of the states in the response to what has 
happened in the gulf. And it seemed like what should be all 
hands on deck all the time isn't exactly what is happening. We 
have heard it referenced here a couple of times in the Q and A 
period.
    We have taken now--I have taken three trips down to the 
gulf. Governor Jindal very much publicized recommendation that 
he be able to build sand berms to the east of the Chandelier 
Islands to protect those areas. Our last trip down there, we 
heard about the placement of some rocks, building rock berms in 
some of the--near some of the barrier islands, near Grand Isle, 
Louisiana because if the oil enters through the cuts in the 
barrier island, then getting into that very sensitive area of 
the interior will--the recovery period could be quite, quite 
prolonged.
    So the mayors and the parish commissioners are desperate to 
be able to put the rocks in place. They are desperate--BP has 
provided the rocks. They are sitting on barges in the 
Mississippi. They can't sit there forever. Sooner or later, 
they are either going to have to be used or sent back, and it 
is this type of tension between the folks on the ground, 
secretary of interior, the Environmental Protection Agency.
    Do either of you recall--you have dealt with some pretty 
big disasters between Rita and Katrina, and, Secretary 
Kempthorne, I think you had some big forest fires that went on 
during your tenure. Do you ever recall having this type of 
tension between the various federal agencies that are 
responsible for controlling the disaster, the cleanup 
thereafter, and the overseeing the effects on the environment? 
Can any of you recall this type of scenario?
    Mr. Kempthorne. Congressman Burgess, again it is 
catastrophic in its sheer magnitude. Yes, it is going to be 
stressful for everybody involved, but I like your adage of all 
hands on deck. I think if you can create an atmosphere of 
collaboration, of utilizing the resources that you have, 
identifying what is the major hurdle that we have currently 
facing us? What can we do? What are the assets that could be 
deployed? Where might we have flexibility? Where might we be 
able to go and utilize some practices that, based on past 
practices, we think would have a benefit?
    The barrier islands is a project that has been reviewed for 
some years because you, in essence, have lost the barrier 
islands. There does need to be the restoration of those. I 
think the term was to the 1917 topographic area. It is 
something that the governor has been fully engaged on. I was 
engaged on as secretary of the interior, and, yes, I do think 
we should be moving in that direction. And I do think that you 
can have waivers so that you can do the pragmatic without 
causing long-term adverse consequences.
    Mr. Burgess. But this is really troubling, and the problem 
is that everybody sits in a room. Someone at some level says 
no, and then that's the end of the discussion. And there should 
be--I think there is under the whole pollution act, one guy who 
sits at the other end of Pennsylvania Avenue who is able to cut 
through all that and get this stuff done, who has that 
flexibility. And it is the nonengagement of the White House 
right now in some of these things that is so frustrating.
    Mr. Kempthorne. Congressman Burgess, when I was secretary 
of the interior, we had a water crisis down in southeast part 
of the country, Alabama, Georgia, and Florida, and it was 
escalating. And I was told after a cabinet meeting I was going 
to southeast United States. And I said why am I going? Because 
the President wants you to step into this and see what we can 
do to resolve it. By getting all the principals in one room 
with the assets with the authority, you are able to calm and 
have a path forward with the proper decisions made.
    Mr. Burgess. Seems in this case, we get everybody in the 
room, and then someone says no. And then we have got two more 
weeks to go to get another answer. Let me just ask a question 
to either one of you. How difficult--Secretary Kempthorne, you 
referenced that the people were let go from MMS after some of 
the difficulties.
    How difficult is it to fire someone from a federal agency 
like MMS?
    Mr. Kempthorne. There is due process. You have to protect 
the rights of the individual, of the employee. You can imagine 
how difficult it was for me in that particular hearing knowing 
that we were issuing letters to employees that they are going 
to be dismissed, but there is a 30-day clock that is running to 
see if they are going to contest it. And then what due process 
do we have?
    So it is the law that has been implemented by this body 
that we adhere to, and it is proper because you protect the 
rights of the individuals.
    Mr. Burgess. But let me just ask are these individuals 
covered by union contracts?
    Mr. Kempthorne. I don't know, sir.
    Mr. Burgess. Is MMS part of a federal union, a federal 
employees' union?
    Ms. Norton. I am not aware that it is, but I really don't 
know. There may be some employees, but I am not sure how they 
are affected.
    Mr. Burgess. Mr. Chairman, I will yield back.
    Mr. Stupak. Thank you, Mr. Burgess. Mr. Inslee for seven 
minutes for questions.
    Mr. Inslee. Thank you. Thank the witnesses for being here. 
We are going to ask some questions today. I want to make sure 
you understand the purpose of my questions is to try to figure 
out how we move forward, not to make you feel uncomfortable. 
Although this is an uncomfortable situation.
    While the Cheney energy task force was going forward, it 
was secret. Many of us tried to obtain information about it. It 
was very frustrating that we could not. I think it is 
unfortunate now that that secret of the secret task force has 
been revealed, which was that the administration, that 
administration pursued a policy of a very, very large expansion 
of offshore drilling with no, as far as I can tell, commitment 
expansion of safety regulations.
    So I want to ask you why that is and how that occurred so 
we can see that that does not happen in the future. I want to 
follow up on some of Mr. Stupak's questions about the blowout 
preventer. It is really stunning to me that these blowout 
preventers were apparently considered a failsafe device, but 
all the information available to the department even then was 
that they were repeatedly failing.
    The study in December 2002 by West and Gerring, given to 
the department. It showed that 50 percent, at best, of them 
functioned when tested. And later on, we now know at 2009 that 
only 45 percent of them worldwide have been shown to work under 
real-world conditions. And yet, as far as I can tell, there 
weren't actions taken to improve their performance despite the 
department's known information about this.
    For instance, in 2003, MMS received a report concluding 
that oil and gas companies should ensure that critical backup 
systems, such as deadman's switches and remotely controlled 
operator vehicles, actually worked. This seems like common 
sense. And we know on this particular rig, the deadman's switch 
did not work.
    So I could ask you, Secretary Norton, after receiving the 
report requiring or suggesting that we ensure the performance 
of critical backup systems, did the department require testing 
of backup systems or ensure that Sub C BOPs had backup systems?
    Ms. Norton. First of all, I have not had access to people 
in the Minerals Management Service to be able to describe and 
discuss what those procedures were exactly. I do know that we 
adopted a regulation that was a strong regulation requiring 
blowout prevention devices, and that was--some of that was done 
over the objection of industry. And we went further than 
industry asked to get regulations in place in 2003.
    Studies were done at the request of the department, and we 
looked at the results of those studies. And as reflected in 
Secretary Salazar's report to the President, those studies and 
their results were incorporated in the regulations that were 
adopted by my department.
    Mr. Inslee. Well, let me----
    Ms. Norton. If I can----
    Mr. Inslee. Go ahead.
    Ms. Norton [continuing]. Point out that, you know, based on 
what we have seen and what has been reported in the media, it 
appears that BP violated all of those regulations that were on 
the books throughout the administrations.
    Mr. Inslee. Thank you, and let me help you. Our research 
has shown that, in fact, you did not issue a regulation 
requiring performance standards for critical backup systems. 
You did not issue such regulation on deep sea subsurface 
blowout preventers, and this may have been one of the reasons 
this whole thing happened.
    I want to ask you about the cementing failure. One of the 
failures in this particular instance was in centralizing the 
pipe. You may have heard that essentially BP decided not to use 
the recommended number of centralizers, did not do a cement 
bond lock, did not use a lockup sleeve to keep the casing in 
place if pressure built up.
    So I would like to know during your term, Secretary Norton, 
were there any specific regulations put in place that would 
have required BP to adequately centralize the casing?
    Ms. Norton. I have to admit, Congressman, I don't know what 
centralizing casing means.
    Mr. Inslee. What it means is----
    Ms. Norton. However, I can say that our regulation required 
that a company used pressure--they had to pressure test the 
casing shoe, run a temperature survey, run a cement bond log, 
or use a combination of those techniques if there was any 
indication of an inadequate cement job.
    Mr. Inslee. Well, let me help you out. I know that in June 
2000, MMS proposed a new rule regarding cementing that raised 
the question whether to require industry best practices be 
forward. In other words, MMS suggested or at least considered 
at one time requiring prescriptive cementing practice 
requirements.
    After listening to industry, and as far as we can tell only 
industry, the agency apparently did not adopt those 
requirements. Are you aware of any independent studies 
commissioned by MMS to identify best cementing practices? Or 
did the department depend just on industry input in that 
decision?
    Ms. Norton. I believe that the 2000 reference you are 
referring to was only as to producing wells and so would not 
have applied to the Deepwater Horizon situation. This is an 
issue that certainly needs to be looked at and considered based 
on the information that comes from what went wrong in the 
Deepwater Horizon situation. Obviously, there has to be a look 
at, you know, what regulations are necessary going forward.
    My general understanding is that we looked at the studies 
that were done and incorporated those requirements to the best 
estimate of the Minerals Management Service experts.
    Mr. Inslee. Well, this was a consideration of cementing in 
the original drilling. That is when you do the cementing, and 
we have been told--our research has shown in June it was 
suggested only comments were received from the industry, and, 
as far as we can tell, you did not take any action regarding 
requiring specific practices in cementing. I just ask you just 
specifically. Did you require anything that required cement 
bond log tests?
    Ms. Norton. Congressman, I am not an expert on cement 
bonds, and I really would have to get back to you with 
additional information because I do not know that level of 
detail. And as secretary, we did not look at that level of 
detail. We relied on the experts, really the ones who 
understand.
    Mr. Inslee. Let me ask you a broader question. After the 
administration following the secret Cheney energy task force 
decided to greatly expand offshore deep water drilling, did you 
take actions to, in any significant way, improve the safety of 
deep water drilling?
    Ms. Norton. We had a very strong safety program that was 
recognized internationally, and I personally attended a meeting 
of the International Offshore Safety Regulators, the equivalent 
of MMS from around the world. And the MMS program was very 
highly regarded in my discussions with people.
    Mr. Inslee. I must----
    Ms. Norton. And I had----
    Mr. Inslee [continuing]. Regret to say--I am running out of 
time. I am sorry for the time. I would just like to close by 
saying we regret that experience did not prove your observation 
correct. Thank you.
    Mr. Stupak. Mr. Griffith, for questions please, five 
minutes.
    Mr. Griffith. Thank you, Mr. Chairman. I think sometimes we 
get, or at least in my opinion, somewhat off the subject. I 
think we know the military axiom that after the first shot is 
fired, the battle plan goes to hell.
    So we can talk about cement. We can talk about regulations. 
We can talk about pressure gauges. We can talk about pounds per 
square inch, but the fact of the matter is that after this 
disaster occurred, did we recognize it? And after that first 
shot was fired or after that first blowout occurred, where was 
the leadership for the crisis? It was not to go back to the 
book and see who missed a pounds per square inch or who missed 
a sentence of a regulation. But as it occurred and as we 
watched it occur and unfold, did leadership recognize the 
significance of it and provide the leadership to correct it?
    That is really what this is all about. There will never be 
a document 10 feet high on the regulation of offshore drilling 
that will be foolproof and will protect us from this disaster. 
The question in my mind is who in the administration, in the 
executive branch, had the ability to call EPA, the Coast Guard, 
the governors, put them in a room, say to them this is a 
national tragedy and a disaster. Fix it. Where was George 
Patton during this disaster, or was there a George Patton 
there? I would like to hear that answer from either one of you.
    Mr. Kempthorne. Congressman Griffith, I appreciate the 
analogy. I believe that our examples where that is exactly the 
type of process that must occur for results to be achieved. Did 
it or did it not? I am not in a position to comment, nor am I 
today going to sit here in criticism of my successor who has a 
very tough job and an unenviable position with the terrible 
thing that has happened.
    So again that is why I decline many media opportunities 
because I think the team on the field has to have running room. 
But I will tell you, Congressman, that that is the formula, and 
I have seen it time and time again. I believe unfortunately 
that when you have seen comments made that are contradictory of 
other comments within the same administration, it would suggest 
they are not in that same room. And that is something that I 
think is worth noting.
    Mr. Griffith. Thank you, and I would like to yield the 
balance of my time to the ranking member, Congressman Burgess.
    Mr. Burgess. I thank the gentleman for yielding. Mr. 
Chairman, I want to make a unanimous consent request. I have a 
report from the Department of the Interior dated May 27, 2010, 
``Increased Safety Measures for Energy Development on the Outer 
Continental Shelf.'' Part three details existing well control 
studies, and they talk about the technical assessment and 
research program and list almost 25 studies of the funded well 
control research from 1990 through 2010. The bottom line reads 
``The results of this study confirmed that the regulatory 
decision to require operators to submit documentation that 
shows the shear rams are capable of shearing the pipe in the 
hole under maximum anticipated surface pressures.'' There is no 
notation as to the number of shear rams that should be 
required. This is Secretary Salazar's report, and again I think 
it answers some of the questions that were put to Secretary 
Norton during the previous lines of questioning.
    And then since I do have a few extra moments, let me just 
opine that one of the concerns that I have had with the current 
administration is the lack of transparency, that we keep 
hearing about the lack of transparency in the -- with the 
Cheney energy task force. That certainly preceded my time, but 
I hope the chairman will help me when we make requests of the 
administration. I would like to know who was around the 
President's table when perhaps he was advised by the energy 
czar, Carol Browner, when he was advised by Secretary Chu about 
what the response should be to control this well. The President 
said he had been assured that there were no real dangers in 
offshore drilling when he gave his speech earlier in the year. 
Who was involved in that?
    So I hope the chairman will join with me in an effort to 
gain more transparency from the administration when we request 
this documentation, and I will yield back the balance of my 
time.
    Mr. Stupak. Gentleman's time has expired. Mr. McNerney from 
California. Questions please, five minutes.
    Mr. McNerney. Thank you, Mr. Chairman. Secretary Norton, 
Secretary Kempthorne, I certainly appreciate your thoughtful 
opening comments, and I appreciate your defense of the 
employees of the department. I haven't been here that long, but 
my staff and the staff of all the committees, they work very 
hard. And they are committed, and they are patriotic. So I 
certainly appreciate most employees are very commendable.
    Now, I have a question. It is a simple question. Was there 
a philosophy during your tenure that there should be less or 
minimal oversight of offshore drilling and that the drilling 
operators were capable of policing themselves? So it is sort of 
an open-ended, philosophical question. You can go first, 
Secretary Norton.
    Ms. Norton. Congressman, I believe there was an attitude, 
and frankly it was not one that we created by something we did, 
but it was a longstanding attitude of mutual problem solving, 
of really, you know--while MMS certainly had a regulatory and 
oversight role and they, in my experience, were diligent about 
that, they also wanted to work with the expertise that industry 
had.
    Industry was at the cutting edge, coming up with new 
technologies every day, and you can't just sit back and be 
distant from that and still be able to have the proper 
regulatory and oversight law.
    Mr. McNerney. Well, I mean the sort of thing I am thinking 
of is during, partly during your tenure, there was a drastic 
reduction in the ratio of inspectors to deep water wells, and 
that sort of reflects on, I think, the philosophy that I am 
trying to get at here.
    Ms. Norton. I would be happy to provide additional 
information, but we requested a number of years increases in 
resources for the Minerals Management Service in order to keep 
pace with rising workloads.
    Mr. McNerney. OK, I would like to follow up and ask a 
question about the exemption the Department of the Interior 
gave leasees during the Gulf of Mexico--or in 2003. Before 
2003, leasees had to provide a blowout scenario with their 
exploration, development, and production plans. The scenario 
was supposed to estimate what might happen in a blowout at the 
well site and include the flow rate, overall amount, and the 
duration of an oil leak from a potential blowout. In addition, 
leasees were supposed to provide information about their 
ability to secure rig, drill a relief well, and how long that 
drilling might take place. That sounds like a good idea. Do you 
agree that that would be a good thing to have?
    Ms. Norton. We have looked at that particular issue that 
you raised and tried to determine exactly what some of those 
documents meant. My best reading of it is that that information 
was viewed as having been provided in a different set of 
documents with a broader application. And the document you are 
referencing is simply saying it did not have to be duplicated 
in other documents.
    Mr. Kempthorne. Congressman, may I respond to your first 
question----
    Mr. McNerney. Sure.
    Mr. Kempthorne [continuing]. So that I am on record. The 
question whether or not there was an effort or philosophy to 
have less or minimal oversight.
    Mr. McNerney. Correct.
    Mr. Kempthorne. And I would say absolutely not. Absolutely 
not. Repeatedly, the atmosphere and the philosophy was that we 
achieve the highest of environmental standards, that we do 
protect the environment. We do know that there is a need for 
the well-being of the families so that we have fuels so that 
they can have an economy, so that they can have warmth, so that 
they can produce food. But that you do not do that at the risk 
of jeopardizing the overall environment.
    I would also just note that MMS's civil criminal penalties 
program pursued from 2001 to 2008 280 cases of noncompliance 
with MMS regulations, and the last three years was the highest 
area where that was pursued.
    Mr. McNerney. OK, I am not sure that the results of those 
years, in my mind, line up with what you are saying or align 
with what you are saying. It appears in my mind that there is 
more reliance on industry to clean itself up and to police 
itself. And that is basically what happened with BP. They 
weren't given enough oversight, and I was going to follow up 
again with Secretary Norton.
    Then in 2003, the Department of Interior created an 
exemption for the blowout scenario requirement that I mentioned 
earlier. And in my mind, that exemplifies that philosophy of 
less oversight and more reliance on industry. It appears that 
my time is up. So I yield back.
    Mr. Stupak. Thank you. Mr. Shimkus for questions, five 
minutes.
    Mr. Shimkus. Thank you, Mr. Chairman. Again I appreciate 
you all coming, and in my opening statement, you know, I talked 
about command changes and taking responsibility. First question 
is when you were both sitting secretaries, do you remember a 
hearing where the previous secretaries going back to the 
Clinton Administration were asked to testify on the same day 
that you were testifying? Secretary Norton, did that ever 
happen?
    Ms. Norton. No, that did not.
    Mr. Shimkus. Secretary Kempthorne.
    Mr. Kempthorne. No, sir.
    Mr. Shimkus. Thank you. You know my good friend from 
Illinois, Congressman LaHood, Secretary of Transportation now. 
And I don't think he has had any testimony coming up here where 
he has had Secretary Peters or Secretary Minez. So it is just 
interesting that we are doing in this light, but having said 
that, what I have been--we know it is a catastrophe. We are 
hoping the cap holds. We are doing the cleanup. BP should be 
held responsible. I think we are all in, you know, on that 
message and focus on helping, you know, the gulf coast states 
recover.
    And the issue is how do we decrease our reliance on 
imported crude oil. And, I think, Secretary Norton, you kind of 
talked about the change after September 11, understanding that 
we have to really get away, and I am an all-of-the-above energy 
guy. Nuclear, solar, wind, coal-to-liquid, OCS expansion.
    In fact, I did mention in my opening statement President 
Obama talking about a new, green--moving on a carbon bill would 
include opening up more OCS. I mean that was a week before this 
disaster happened. So do you think--and I rely a lot on my 
friend and colleague and roommate, Steve Scalise, on some 
information on gulf issues. Is a moratorium an appropriate 
response, stopping operating wells that are, you know, 
operating in line right now? Is that a proper response? I 
understand doing research on the disaster, but a moratorium, 
Secretary Norton?
    Ms. Norton. In my mind, to go back to my aircraft analogy, 
you don't ground all of the airplanes because there was one 
problem. You have to look and, as they did, do a complete up-
and-down inspection of the existing rigs and make sure that 
that problem doesn't exist. There might be other steps that 
should have been taken. Maybe they were, and maybe they 
weren't. But the important thing is to address the issues, not 
send the drilling rigs overseas where they may not return for 
many years and not send the jobs to other countries in order to 
resolve the issue.
    Mr. Shimkus. Secretary Kempthorne.
    Mr. Kempthorne. Yes, Congressman, I believe that the action 
was taken which was a safety review immediately after where 
they look at, in the deep water, some 30 different drill rigs. 
After that review, I think there was only one area of 
noncompliance. Everything else was being adhered to with regard 
to the regulations that are on the books. That was appropriate.
    The gulf coast is being devastated, and all of us are for 
safety. But I believe, Congressman, the result, if a moratorium 
is put in place, is the only absolute is that you will further 
cause disruption to the economy of the gulf coast states when 
really they need to have an opportunity for recovery.
    Mr. Shimkus. And just let me--and I will end on this. In my 
opening statement, I talked about the Diamond Offshore 
announced Friday it is an Ocean Endeavor drilling rig was 
moving. This was July 9. I have Brazil sees silver lining, more 
rigs. Three deep water drilling rigs to be moved from sites 
south of Cameron Parish.
    If they are in the process of moving, as some are, do they 
come back, Secretary Norton?
    Ms. Norton. In my experience, those are long-term 
contracts, and once they are moved, once you go through the 
trouble and expense of moving them away, then they tend to stay 
in those locations. And it is going to be very hard for that 
industry to be rebuilt.
    Mr. Shimkus. Secretary Kempthorne.
    Mr. Kempthorne. I agree with that statement, Congressman. 
In the big picture, how far are we away from having another 
situation that may see us at $4 a gallon gasoline? We are too 
reliant upon foreign sources of our energy. We are too reliant, 
and so if we now pursue a policy that continues to diminish our 
own development here within our own shores on our own land, I 
do not think it bodes well for the country.
    Mr. Shimkus. Thank you, Mr. Chairman.
    Mr. Stupak. Thank you, Mr. Shimkus. Mr. Melancon for 
questions. Five minutes, sir.
    Mr. Melancon. Thank you, Mr. Chairman. Secretary Kempthorne 
and Norton, thank you all for being here today. First, let me 
just say that I agree with the analogy of the rank-and-file MMS 
employees. I think the morale particularly in Louisiana is very 
down. The harsh criticism for people that are trying to do the 
right thing. My concern is that they don't want to do anything 
for fear of being criticized, and that is going the wrong 
direction. So I understand, I think I understand human nature.
    During your period, Secretary Norton, do you recall how 
many times that you may have had any oversight hearing that you 
participated in that dealt with OCS drilling or any of the 
rules or regulations or legislation that was going forward? Do 
we have a reauthorization in there anywhere?
    Ms. Norton. We dealt issues usually as one small part of 
the discussion of the overall especially Energy Policy Act of 
2005.
    Mr. Melancon. Was there anything, any legislation that came 
forward that addressed OCS in '01 or '03?
    Ms. Norton. Ordinarily what we dealt with and what you 
dealt with were questions about where, you know, what areas 
should be open for exploration and production as opposed to the 
specifics. There were also, of course, issues as to incentives 
and whether those should exist or not. That is my main 
recollection.
    Mr. Melancon. And where I am--what I am trying to 
understand, and this goes back to, I guess, the first hearing 
that we had here since the Deepwater Horizon incident, and Mr. 
Dingell brought up the subject of the waiver of Neepa, waiver 
of the Environmental Impact Statement. And my appreciation and 
understanding is that somewhere along the line the law or rules 
were changed that provided that you had to be able to do the 
EIS within 30 days or the department got the option of waiving 
the EIS.
    Ms. Norton. I think what we see overall, The Outer 
Continental Shelf Lands Act creates a structure of five-year 
planning, and there are various stages in that process where 
extensive environmental analysis is done. And each of the 
subsequent steps relies on the blotter analysis and the more 
in-depth analysis. It is done on this regularly scheduled 
basis.
    The categorical exclusion issue that has been discussed is 
one that really goes back to procedure in place since the 1980s 
and was not changed, as far as I know, within my administration 
as to the offshore activities that we have been talking about. 
That is the best of my recollection.
    Mr. Melancon. Now, because I guess some of the concern that 
I have is that, the difficulty I have is understanding how do 
you waive the law and who gets that authority? After Katrina, I 
couldn't get people to waive rule, much less an idea that might 
have been good or bad. And so if there was, you know, a law--
and this is one of the things I have not investigated to a 
large extent. NEEPA was there. EIS was required. Would it had 
to have been law to change the--give a waiver?
    Ms. Norton. If I can understand the key issue here, there 
is in NEEPA a provision for what they call categorical 
exclusions, and we did put some of those in place for 
everything from fuels treatments for forest fire prevention to 
some of the energy issues. And when we did that, we did that by 
looking in depth at, you know, what the analysis had shown in 
the past, how the process worked, and how that particular issue 
fit in with our environmental decision making.
    And so some of--and we had to go through the Council on 
Environmental Quality that has to approve the categorical 
exclusions. And so while I know we did that process on some 
things, I don't think we changed anything on the offshore 
issues.
    Mr. Melancon. If I were secretary and I wanted to find out 
if somebody--if there were a person in the department that I 
could go and ask the question of can you tell me how this 
waiver came about, who would I be able to go and ask that, 
would have the institutional knowledge or would be able to 
maybe answer that question for me?
    Ms. Norton. We can get back to you with some answers.
    Mr. Melancon. I mean I am not--I am just trying to figure 
out how we got to that point, and--because I can't seem to get 
anybody to give me a concise answer of how that waiver came 
about. And particularly if it is, in fact, so, how several 
states got no waivers and you had to go through the EIS--and my 
time has run out--and some, to waive it, it couldn't be done in 
30 days. But that is, I think, the time, and thank you for 
being here and yield back.
    Mr. Stupak. Thank you, Mr. Melancon. Mr. Latta for 
questions please. Five minutes.
    Mr. Latta. Thank you, Mr. Chairman. And again to our 
witnesses, thanks very much for appearing before the committee 
today. Really appreciate your testimony and your time, and lots 
of questions to ask in five minutes. But we are not going to 
get to them all.
    But, Madame Secretary, I was interested on page four of 
your testimony, that if I could just repeat a little bit of it. 
You said ``without question the most powerful OCS experience 
for me was the 2005 hurricane season. Over 4,000 offshore 
platforms were operating in the Gulf of Mexico when Hurricanes 
Rita and Katrina pummeled the area. Safety and spill prevention 
managers were put to a severe test.'' Going on, you said ``a 
number of the mostly older platforms were destroyed by the 
storms fury. Amazingly despite the strength of the hurricane, 
the amount of oil spilled from the wells and platforms was 
quite small. The shutoff valves located at the sea floor 
operated as intended. They prevented oil from leaking into the 
ocean even when the platforms were severely damaged. The spill 
prevention techniques upon which the industry and government 
relied on passed the hurricane test.''
    And this is kind of where you had to look in that giant 
crystal ball. We had testimony recently from--pardon me--from 
BP, Mr. Hayward. And listening to the testimony, a lot of us 
were looking and thinking, you know, was this a lot of human 
error? Because if, you know, again if we are talking about 
4,000 rigs that were out there at the time and they were put to 
that supreme test, what happened here? If you could just maybe 
hypothesize about that.
    Ms. Norton. Obviously we really need to have the answers 
from the scientific inquiry before any of us can say exactly 
what happened. You know based on the reports that I have read, 
it certainly looks like there were a number of decisions made 
in those last few days and hours that need to be called into 
question and may show us that there were violations of the 
standards that should have been applied.
    Everybody involved with the offshore industry has always 
understood that this is a very challenging environment, and it 
is one where there have to be very high performance standards. 
And the performance that we saw in the hurricanes met those 
standards and really gave me a great deal of confidence that we 
had systems in place that worked and could work well.
    Mr. Latta. Please follow up then. As your experience as 
secretary at the department, you said just now that maybe 
something was occurring just prior to this accident. How often 
would someone from MMS or the Department of Interior be seeing 
what was going on on this rig or any changes that would have 
occurred that maybe something here on the federal side would 
say maybe you shouldn't be doing that?
    Ms. Norton. It is my understanding there would be fairly 
regular communication. Have to have a helicopter to fly out to 
the rig to actually have an inspector there, and that--the 
frequency of that depends on a lot of different factors: the 
weather, the timing of being able to do monthly visits and so 
forth. But there was very frequent communication by telephone 
and so forth between people in the MMS and the offshore 
platforms as I understand it.
    Mr. Latta. Thank you. And, Secretary Kempthorne, first I 
want to respect you not wanting to second guess the folks who 
have come after you, but some of us were down at the coast 
earlier in July, this month. And again we talked to a lot of 
those local officials, and, you know, we were just confounded 
as to, you know, the lack of getting back and forth from the 
local side and back up through the chain of command on the 
federal side.
    And, you know, I also noticed in your testimony that as you 
read it that, you know, you were talking about the governors 
down in--always second guessing the folks down there. Now, and 
I know you just said you don't want to second guess, but, you 
know, from what you have seen, could the local officials on the 
ground actually have been right on some of these decisions that 
they have seen since they were there but they are being again 
overruled by the federal government?
    Mr. Kempthorne. I would be surprised if they are not 
correct on a number of the issues that they have raised because 
they live there. I have a background in local government, state 
government, and federal. The perspective I have been able to 
pull upon from local and state, it is pragmatic. It is on-the-
ground. It is--you must deal with things hour by hour, and so I 
really do think they are a tremendous resource of ideas, 
resources that they can bring to bear with sheer manpower and a 
variety of innovations. And you want to create that atmosphere 
so that they feel that they are a part of a partnership in 
solving this problem.
    Mr. Latta. Well, I thank you for that, and I thank you 
again for both being before us. And I yield back. Thank you.
    Mr. Stupak. Mr. Green for questions please.
    Mr. Green. Mr. Gonzalez. I will pass, Mr. Chairman.
    Mr. Stupak. Mr. Gonzalez, and it is up to you for seven 
minutes. You have seven minutes since you waived your opening. 
Seven minutes.
    Mr. Gonzalez. I appreciate it. Thank you, Mr. Chairman, and 
welcome to the witnesses. We really appreciate your presence 
here today. Secretary Norton, you have indicated the analogy 
that has been used on the floor and elsewhere is if you have 
one plane crash you don't suspend all air service and such, but 
isn't it the truth that we do have recalls and we take 
everything off the road or out of the air if it is a specific 
model, for instance, that has maybe a structural defect? So if 
we were able to identify, let us say, 747's had a structural 
defect, a couple of crashes or just one, the result would be we 
would bring them all in and it would be examined and we would 
remedy the problem so we would have that particular scenario 
play out, would we not?
    Ms. Norton. And I think that is consistent with the idea of 
having a safety review and checking and inspecting those 
aircraft and then getting them back into service as quickly as 
possible.
    Mr. Gonzalez. But your frame of reference is to existing 
regulations that basically have failed that didn't stop this 
particular occurrence from happening. Now what I am saying is I 
disagree with the Administration on one size fits all 
moratorium, and I think we are going to get some specificity 
and such, but the question really comes down to the following. 
We had all of the major players that are involved in deep water 
exploration production here. None of them said--now they all 
disagreed with the way BP conducted itself and the way they 
were trying to plug the hole and such, but none of them said 
that if there was a blow out at that depth that they could 
really guarantee that their blow out preventers would have in 
fact worked, point one. Point two was none of them, none of 
them, said that their plan for containment and clean up was any 
different than BP's.
    So are we really at a point right now where we can make 
these determinations as to the adequacy and sufficiency of what 
we have out there that would be applied to these rigs? Now I am 
going to agree with you that different points of production, 
exploration and such, I think you can have certain rules and 
continue the activity out there, but how do you guard against a 
similar situation when everybody from the industry pretty well 
agrees and maybe my colleagues would disagree with my 
representation, but that is the way I remember the testimony. 
No one is saying that the blow out preventer if activated, if 
property activated, would have remedied the situation, and no 
one is disagreeing that the containment policy and plans are 
any different from one producer to another.
    So a moratorium seems the proper thing to do. As I said, 
one size fits all, I don't agree with that. But wouldn't you 
agree that is a prudent thing for the Administration to have 
done?
    Ms. Norton. One concern with a moratorium is--certainly our 
experience with offshore is they tend to stay in effect and 
once--we certainly have seen that with the history of moratoria 
in our country, and things that were put in place for a few 
years have extended on and on and on for many years. I think 
given the delicate state of our economy right now, I think 
given the number of jobs that are at stake, given the 
devastation of the economy in the Gulf Coast, we really need--
--
    Mr. Gonzalez. Madam Secretary, I understand the economic 
consequences, and with the greatest respect and admiration for 
my colleagues from Louisiana, I am from Texas. I sort of 
understand the economic impact of these things. However, I 
think even former Secretary Kempthorne indicated that you need 
to move forward, have the economic considerations, but not in 
total denial of the realities of what might be in jeopardy. 
That is all I am saying, and I think the Administration is 
going to fine tune and tweak it. Now this Administration is 
never going to satisfy some of those that believe there should 
be some sort of ceremony on changing of command and we don't 
have a General Patton, but you are not going to see President 
Obama parachute onto an oil rig with a mission accomplished 
sign. It is not going to happen, and I am grateful that that is 
not going to happen because it is meaningless.
    Now let me ask you, former Secretary Kempthorne. You seem 
to be indicating that this Administration and the Secretary of 
Interior is dismissing out of hand any suggestion or 
recommendation being made by any of the governors or local 
officials. Is that a fact?
    Mr. Kempthorne. Congressman, no, I don't believe I used any 
of those particular words, and also would reiterate that I did 
not come today in any way to be a critic of my successor. He is 
in a tough situation. I applauded his nomination. Mr. Salazar 
and I are friends. But I do believe, Congressman, you do have 
to create an atmosphere so that the local officials and the 
state officials do feel that they are part of this, and all I 
can do because I am not privy, I am not privy to the 
information, the data that Secretary Salazar is receiving, but 
I do see as an observer reports and reactions of the media of 
local and state officials which would suggest we have not yet 
reached that crescendo----
    Mr. Gonzalez. But isn't that a product of the frustration 
that these officials are feeling because of the magnitude of 
what is happening to their economies, what is happening to 
their shorelines. I mean I understand the frustration, but I 
think you just said something that is very important, and that 
is none of us is privy to what is going on in those rooms when 
those suggestions and recommendations are being made. Now would 
you say that any recommendation or suggestion that is being 
made by either a governor or a local official should be 
adopted?
    Mr. Kempthorne. Not just because they made it but I believe 
again based on my experience that often it is backed up with 
pragmatism, with actual realities and results, and they should 
be very, very carefully considered with a view towards seeing 
what is practical and can we, in fact, implement it because 
just as you said, Congressman, the devastation in the Gulf 
Coast, they are all feeling it, and they would like to be part 
of the solution, and I think they do have----
    Mr. Gonzalez. Is there any reason for you to believe that 
they are not carefully being weighed and analyzed and evaluated 
because I think that is an assumption that has been made by 
many, which I don't think is true.
    Mr. Kempthorne. Congressman, I don't believe I am in a 
position to judge that.
    Mr. Gonzalez. Well, I appreciate that. Thank you very much 
for your testimony today. Yield back, Mr. Chairman.
    Mr. Stupak. Thank you, Mr. Gonzalez. We have a pending 
motion by Mr. Burgess who wants the May 27, 2010, report, the 
30-day safety report, and he read from page 8, to be made part 
of the record. The 30-day safety report acknowledges existing 
regulations as it must. It notes that these are the minimum 
requirements for the safe operation, and it recommends two 
blind share rams. This is the point of what we have learned. 
Minimum requirements may not be sufficient. That is why I say 
when there is no serious enforcement, that is why I am glad 
this committee reached a bipartisan agreement on the Blowout 
Prevention Act, which would mandate redundancy that the 
department failed to put in place way back in 2003. So without 
objection, the May 27 report of the Department of Interior is 
made part of the record. Ms. Blackburn, questions?
    Mrs. Blackburn. Thank you, Mr. Chairman. I thought we were 
still on the motion there. I do have a couple of questions. 
Before coming to Energy and Commerce, I was on the Government 
Oversight and Reform--Government Reform Committee and of course 
on Government Oversight and Investigations here. And I have sat 
through hearing after hearing. Those in front of us will talk 
about how resistant to change the agencies are, and how 
difficult change and reform comes, so I would like to hear from 
each of you, when you look at Secretary Salazar's desire to 
institute some changes, what do you think the institutional 
resistance is going to be, how much of it is going to be there. 
I would also like for you to address how you think he best 
dealt with the ethical problems that are DOI and at MMS, and 
how you confront that.
    And then the third thing, and, Secretary Norton, I think 
that you are going to be in the best place to address this, if 
you could just articulate a little bit about how during your 
tenure you worked in the aftermath of Katrina with your state 
and local officials to get the information going forward with 
them. So those are the 3 things that I would love to touch on. 
And, Madam Secretary, if you will go first and then Secretary 
Kempthorne, if you would answer after her.
    Ms. Norton. Thank you, Congresswoman, for that question. 
The issue of ethical changes is one that I think Secretary 
Kempthorne can go into because he really dealt with that during 
his time. It was in my administration that I think people 
became aware of that, the leadership of MMS either right before 
or right after I left office went to the Inspector General 
having heard these rumors and initiated the process that led to 
the changes that Secretary Kempthorne brought about. I think we 
need to look at what is the end result we want to achieve 
because, yes, you certainly want to have employees adhering to 
ethical standards, but if you let the idea of having a strong 
separation between industry and employees go too far, you cut 
off the lines of communication. I think the important issues 
right now are capabilities, our skills, our expertise, our 
resources that are available for the oversight process, the 
regulatory process. I tend to think of this as having been 8 
years as an attorney general as a community policing kind of 
issue.
    We used to have police that would ride around in their cop 
cars and have their windows rolled up and enforce the laws as 
someone who was imposing and who was us versus them kind of 
atmosphere with the community. And we learned that it was much 
more effective to have police who were out in the community 
working with people who would get tips about what the problems 
were, who understood the nuances of that neighborhood and what 
its problems were. And so I think you have to have a happy 
medium. You have to have very high ethical standards but you 
can't go so far that you only hire people who have no 
experience and no real understanding and expertise about what 
decisions need to be made.
    Mrs. Blackburn. Thank you. And then could you speak to 
Katrina, the aftermath of Katrina, and how you worked with the 
local and state?
    Ms. Norton. My primary role in Katrina was dealing with the 
offshore energy and so that really was more a state--excuse me, 
a purely federal program. But we certainly did have interaction 
throughout the administration with the state and local 
officials. And I know I was very proud of people in my 
department who really even as federal agencies lent their 
efforts to lots of local recovery efforts, at emergency 
response efforts, at just----
    Mrs. Blackburn. Let me interject here again. So you 
responded to the requests you got directly and giving the 
information needed?
    Ms. Norton. Yes, we did.
    Mrs. Blackburn. OK.
    Ms. Norton. What we tried to do was empower people to make 
those decisions and to be cooperative and do that right away.
    Mrs. Blackburn. Thank you. Yes, sir.
    Mr. Kempthorne. Congresswoman Blackburn, my tenure at the 
Department of Interior, I will tell you was a period in my life 
that I was very proud to serve with those people, dedicated 
public servants. It is a large organization, 73,000 people, but 
I will tell you that I was impressed, day in and day out, with 
their attitude. Yes, at times they were down in the mouth about 
certain things.
    I remember, too, at my confirmation hearing there were a 
number of issues that were brought forward, some of which that 
had been there for years, and I made it a to-do list to try and 
go down and resolve some of these issues. On one occasion I 
brought in a group of the employees, including those from the 
region that was affected. I said you need to tell me about this 
issue, because I don't understand it yet. They began by saying, 
well, we have been working on it for 15 years, and I said, all 
right, I have to stop you because I don't have 15 years. We may 
not reach perfection but we will reach a decision, so let us 
discuss it. We did, thorough discussion. That afternoon, I said 
here is my recommendation. Can you all live by this? We got 
through it, and the attitude was hallelujah, we have a decision 
and will go forward.
    You referenced about the ethics that is there. I will tell 
you that I worked closely with Inspector General Bill Devaney 
on a continual basis, and that is why I wanted his testimony as 
part of this record. I believe that the seeds for what is 
bringing about the positive opportunities in MMS were planted 
by the actions while still in office that we took concerning 
the royalty in kind program, the calling of Senator Kerrey and 
Senator Garn and asking them personally if they would head up a 
talented group of people to do so. That has been pointed to by 
the current Administration that it is good substance. They are 
adhering to that. Seventy some suggestions were implemented 
before we left.
    You asked about change. All of us, all of us, have an 
inclination perhaps to be resistant to change, but I have to 
say that in the proper atmosphere I was impressed on different 
occasions how nimble that the Department of Interior could be 
if given a direction and a purpose. The concern I would raise 
is simply that in this atmosphere where there have been sharp 
comments made regarding MMS, I think it can have a demoralizing 
effect on very good people. And as Inspector General Devaney 
said, 99.9 percent of people at DOI are good, hard-working, 
ethical people. I am afraid that with the sharp criticism even 
coming from their own leaders it doesn't create a team 
atmosphere and so their concern-- and they may not be making 
decisions that they should be making as part of the 
responsibility because they are worried about the 
repercussions. So I think that there needs to be concern given 
toward the atmosphere of leading a department in the right 
direction on behalf of the people of the country.
    Mrs. Blackburn. Thank you. Yield back.
    Mr. Stupak. Mr. Markey for questions, please.
    Mr. Markey. Thank you. Mr. Chairman. Secretary Norton, in 
your responses to Chairman Waxman, you denied that changes in 
OCS drilling policy were undertaken as part of the Interior 
Department's efforts to implement the Cheney Energy Task Force 
plan. In 2001, in reality the Department of Interior under your 
all leadership stopped even considering the possibility of a 
worst case oil spill when it was evaluating the potential 
environmental impacts of deep water oil and gas production 
activities. Secretary Norton, do you agree that it was wrong 
for you to ignore the potential for a worst case oil spill for 
deep water oil and gas production activities?
    Ms. Norton. Congressman, I am sorry, I do not know the 
documents to which you are referring. I don't know exactly what 
it is that you are referring to in that decision. I apologize. 
I don't recall.
    Mr. Markey. Well, it is true that you--and I have the 
document right here in my hand and I will give it to you so 
that you can review it later, but I will just summarize it for 
you that you stopped considering the possibility of a worst 
case scenario spill in 2001. Your 2001 strategy for post-
release ANEBA compliance in deep water areas of the Gulf of 
Mexico did, in fact, change the manner in which the Interior 
Department evaluated worst case impacts. Let me read to you 
what the Interior Department staff informed our staff about 
these changes in 2001. These analyses ``do not include oil 
spills as part of the review.'' In other words, environmental 
assessments no longer had to include the worst case spill 
scenarios that had been used previously by the Clinton 
Administration.
    Madam Secretary, you chose to replace a real world worst 
case analysis with a paper exercise that was not at all 
realistic. As the Interior staff had some qualms, my staff, 
``The belief at the time was that blowouts were such a low 
probability event that the time and effort being expended on 
analyzing them for site-specific environmental assessment was 
not worth the effort.'' Do you agree, Madam Secretary, that 
that decision was a mistake?
    Ms. Norton. I think going forward you are going to have to 
grapple with the aftermath----
    Mr. Markey. Do you agree that the decision that you made at 
that time was a mistake?
    Ms. Norton. You can't stop all drilling in the future----
    Mr. Markey. I am not asking for any stopping--no one here 
wants to stop all drilling in the future. No one, so stop 
putting the red herrings out here. Did you make a mistake in 
2001?
    Ms. Norton. I don't know the document you are referring to. 
I haven't had the chance to look at it. It seems to me that you 
have to have a reasonable analysis and that is both today----
    Mr. Markey. Was it reasonable to not do a worst case 
scenario analysis for a spill? Yes or no.
    Ms. Norton. It was reasonable to take into account what the 
history had been. The history was----
    Mr. Markey. So you don't any longer----
    Ms. Norton. There were very few large spills.
    Mr. Markey. OK. Let me go on to the second question.
    Ms. Norton. I think we now have seen a very different 
change.
    Mr. Markey. In 2003, Madam Secretary, the Department of 
Interior also under your leadership actually exempted most Gulf 
of Mexico lessees from including blowout scenarios in their oil 
and gas exploration or production plans. They were also 
exempted from a requirement to provide information about how 
long it would take to drill a relief well and how a blowout 
could be contained by capping the well or by other means. This 
policy was reiterated in both 2006 and 2008. As a result, BP 
didn't include any of these blowout scenarios or relief well 
plans in its plans for the Macondo. In retrospect, do you 
think, Madam Secretary, that this exemption was a good idea?
    Ms. Norton. My understanding is that under the Outer 
Continental Shelf Lands Act there is a process of looking at 
things on a broad scale that really ought to focus on----
    Mr. Markey. Do you think it was a mistake to create those 
exemptions in retrospect?
    Ms. Norton. But it is appropriate to deal with those kinds 
of issues in an offshore situation by looking at those in the 
big scale basis and then for the individual wells, individual 
plans of exploration, you focus on those things that apply to 
that----
    Mr. Markey. Madam Secretary, again----
    Ms. Norton. And so you have things on a broad scale basis--
--
    Mr. Markey. Madam Secretary, there was a D regulatory 
ticking time bomb that was set while you were Secretary that 
has now exploded in terms of this blowout preventer and other 
devices not having been properly regulated. Do you believe in 
retrospect if was a mistake to create those exemptions?
    Ms. Norton. I haven't seen anything that would indicate 
that there is a cause and effect relationship between the 
Deepwater Horizon decisions that were made by BP and what this 
analysis is that you are talking about.
    Mr. Markey. A climate, Madam Secretary, of complacency was 
created by boosterism, which has now led to a catastrophe and 
that boosterism, that complacency, was this deregulatory 
environment which was created during that 8-year period. It 
affected blowout preventers. It affected the spill response 
plans that needed to be put in place. It, in fact, dealt with 
all aspects of what it is that we are now dealing with as a 
consequence of those decisions. Mr. Chairman, thank you.
    Mr. Stupak. Mr. Scalise for questions, please, 5 minutes.
    Mr. Scalise. Thank you. Mr. Chairman. Starting with the 
moratorium that has been discussed a lot. I want to go back to 
the 30-day safety report. And the President and Secretary 
Salazar had put together a commission and they brought in 
experts, scientists, engineers that were recommended that came 
together and did a 30-day report. And in it they actually 
recommended some safety changes that should be made which I 
think were very reasonable recommendations but afterwards when 
the moratorium, the 6-month moratorium, was issued it was 
alluded that the 30-day commission supported the moratorium. 
They had to come out the next day and correct that and make it 
clear that they actually were against the moratorium, and they 
gave some really good safety reasons.
    And I want to ask your opinion on this because it hasn't 
really been discussed a lot nationally when you talk about this 
moratorium that is going on that potentially has a greater 
devastating impact on our state long term than the spill itself 
because of the negative impact on jobs, and some people are 
trying to make this a choice between jobs and safety. But, in 
fact, the scientists that the President himself recommended, 
not our scientists, it is the President's scientists, they said 
you would reduce safety in four different areas if you have a 
moratorium because, number one, your most experienced rigs 
would leave first, the rigs that are the newest and the most 
technologically superior, your most experienced crew members. 
They cannot put some kind of mysterious 6-month pause on their 
life. They are not going to just sit idle and collect 
unemployment as the President suggested to them. They are going 
to have to go do something else to earn a living for their 
families so you lose those most experienced crew members.
    There are high risks involved with stopping and starting 
operations, and then the final point is our country's 
dependence on oil hasn't decreased, so as you take maybe 20 
percent of the oil supply that the nation consumes away that is 
going to have to come from somewhere else and that is going to 
be imported by Middle Eastern countries, many of whom don't 
like us, but it is going to be imported by tankers, and 70 
percent of all the spills come from tankers, so you actually 
increase the likelihood of spills and you reduce safety by 
getting rid of that experienced work force and those vital and 
scarce resources in those rigs.
    So with all of that said, I haven't seen a lot of 
discussion on the other side about the decrease in safety 
associated with this moratorium that the federal judge said 
should go forward. I want to get your take on that. Ms. Norton.
    Ms. Norton. I think there is some legitimate concern about 
losing the most sophisticated of the rigs to other countries 
and to making sure that we are not losing all the personnel 
that are most experienced to other places, all of those good 
jobs. I also think you have raised a very good point with the 
tanker safety because you are absolutely right that in our past 
experience before we got to the Deepwater Horizon experience, 
it had been tankers that were the largest source of oil from 
the industry overall as opposed to from the platforms.
    Mr. Scalise. Mr. Kempthorne.
    Mr. Kempthorne. Yes. Congressman, you raise very valid 
points, many of which I happen to agree with. And I think 
included in yours is the fact that this it not mutually 
exclusive. We can have a safety record and in 40 years we did. 
There is a question as to what caused this current tragedy of 
90 days ago. Was it the regulations that for 40 years or a 
number of years were on the books and we did not see this 
catastrophe or was it decisions made, human decisions made, in 
the implementation after the application for the drilling 
permit was granted. I cannot comment with regard to the safety 
group and how a letter may have surfaced where they felt that 
they were being misrepresented. I cannot do that, and I think--
--
    Mr. Scalise. And that has been entered into the record.
    Mr. Kempthorne. Yes, and that will be something that your 
next guest will have the opportunity to address, I would 
imagine. But again it was appropriate to go and look at the 
safety. Had you found that there were a number of problems that 
surfaced immediately then you would have consideration of what 
else to do but you did not. I think there was only one concern 
that was identified.
    Mr. Scalise. And I think if you go back and you look a lot 
of the rigs that are operating in deeper waters because this 
disaster occurred at 35,000 feet. There are people out there in 
8,000, 9,000, 10,000 feet that follow a different set of safety 
standards and don't have these kind of problems because they 
play by the rules and, in fact, we saw, unfortunately, this was 
an avoidable tragedy because of the things that weren't 
followed. But hopefully we can get into more of that later. But 
I also want to touch on another point and that is this chain of 
command issue. Clearly, when I talk to leaders on the ground 
their biggest frustration is that they are spending more time 
battling the federal government than the oil because you don't 
have that all hands on deck urgency approach taken by the 
federal government that needs to start now. Unfortunately, we 
are 3 months in and we still don't have it. But, finally, Mr. 
Kempthorne, what were federal revenues for offshore drilling 
that would come into the federal treasury in your last year as 
secretary?
    Mr. Kempthorne. Approximately $23 billion.
    Mr. Scalise. Clearly, that would be in jeopardy in a 
moratorium.
    Mr. Stupak. The gentleman's time.
    Mr. Scalise. Thank you. I yield back.
    Mr. Stupak. You answered the last one, Mr. Secretary, 23 
billion, you said?
    Mr. Kempthorne. Yes, sir.
    Mr. Stupak. Mr. Braley for questions.
    Mr. Braley. Thank you, Mr. Chairman. I would like to begin 
by offering the Congressional Research Service report for 
Congress titled the 2010 Oil Spill Minerals Management Service 
and National Environmental Policy Act dated June 1, 2010.
    Mr. Stupak. Yes, we will take a look at it. We will hold it 
in abeyance for now. Go ahead.
    Mr. Braley. One of the things that this report identifies 
is that there are four different stages of the review process 
that are supposed to take place on every oil lease in the Outer 
Continental Shelf. The first is the development of a 5-year 
program, then a plan for a specific lease sale, then approval 
of the exploration plan, and then approval of a development and 
production plan. Would both of you agree with that?
    Ms. Norton. Yes.
    Mr. Braley. And these four stages are based on the Outer 
Continental Shelf Liability Act. That is your understanding of 
the statutory basis for those requirements?
    Ms. Norton. The Outer Continental Shelf lands, yes.
    Mr. Braley. Yes. You have to say yes so that it is part of 
the--yes. And one of the things that the courts interpreting 
that act have concluded is that one of the basic premises of 
this review process is a tiered environmental review assuming 
that the level of scrutiny increases as a lease moves toward 
approval of the development and production plan. Would you both 
agree with that?
    Ms. Norton. Yes.
    Mr. Kempthorne. Yes.
    Mr. Braley. One of the things that disturbs me about this 
report and about the circumstances that led up to this disaster 
is that the requirements for blowout scenario differ depending 
upon which part of the Gulf is affected. Are you both aware of 
that?
    Ms. Norton. Yes and no because the flow of currents might 
be different. The terrain that is on the shoreline might be 
different. But in many ways the impacts are going to be the 
same. Whether the Deepwater Horizon was 10 miles one way or the 
other would not have the same impact as it would on shore----
    Mr. Braley. Madam Secretary, I am not talking about those 
issues. I am talking about the regulatory framework itself that 
requires blowout prevention scenarios to be part of this review 
process. Can you explain to me, for example, when the State of 
Florida is the affected state, which is the eastern Gulf, there 
is a mandatory requirement for a blowout scenario, and yet when 
the State of Texas is the affected state, the western Gulf 
region or the central Gulf region which is the part most 
devastated by this disaster there is not a mandatory 
requirement for a blowout scenario under the regulation?
    Ms. Norton. That is something that I have not been able to 
trace exactly what the rationale was behind that. I don't have 
access to the people within the Minerals Management Service to 
ask exactly what the thinking was on that. I think it could 
either have been because those things in areas to which you 
refer, those are already handled in other documents and through 
other analyses that are done routinely.
    Mr. Braley. My review of the regulation makes it clear that 
there are specific preferences given to individual states, and 
can you think of any legitimate reason why the residents of the 
central Gulf would have less interest in extensive 
environmental review than residents of the State of Florida?
    Ms. Norton. There is something called the Coastal Zone 
Management Act that has a significant impact on offshore 
development, and it does require the federal government to take 
into account the plans of the various states as decisions are 
being made offshore.
    Mr. Braley. Do you agree that the impact of devastation is 
the same regardless of where that blowout would occur?
    Ms. Norton. It certainly has shown to be a different 
devastation here and a terrific impact.
    Mr. Braley. Now, Mr. Kempthorne, part of the other 
information included on page 13 of this report is an indication 
that while MMS regulations require disclosure of a blowout 
scenario and exploration plans, MMS provided an exception in a 
2008 notice to lessees on this particular lease, which would 
have been during your tenure, is that correct?
    Mr. Kempthorne. That would be during my tenure.
    Mr. Braley. And the exception exempted OCS actions in the 
Gulf from blowout scenario requirements under certain 
conditions, and those are the exact conditions I am referring 
to which did not require a mandatory blowout scenario for the 
central Gulf. Were you aware of that?
    Mr. Kempthorne. Congressman, there is a longstanding 
provision that allows a regional director to limit information 
that needs to be submitted.
    Ms. Norton. I think why we are both struggling----
    Mr. Braley. Excuse me. I only have 2 minutes left. Here is 
the problem I am having. BP submitted information to Minerals 
Management Service at the earlier stages of this lease 
indicating there was a 99 percent chance of a blowout over the 
40-year period of the lease, a 99 percent probability, and that 
the most likely scenario would be a 10,000 barrel release as 
part of that blowout, and BP had also discussed a worst case 
scenario response in its initial exploration plan and it 
considered a worst case scenario to be a blowout at the 
exploratory stage leading to a spill of 3857 barrels of crude 
per day.
    And even with that information, MMS approved BP's spill 
response plan for worst case scenario, and despite all that 
information that was in the leasing record BP sought and 
received a categorical exclusion from an environmental impact 
duty at the later phases of this process. And given what you 
admitted to me earlier about the intention being a more strict 
scrutiny of the environmental impact as a lease progresses 
toward production can either of you explain to me why that 
happened?
    Ms. Norton. I don't know the specific details you are 
citing but the categorical exclusion for those kinds of things 
has been part of the Outer Continental Shelf Lands Management 
since the 1980s, and so it is the way in which those things 
have been handled throughout basically the existence of the 
program.
    Mr. Braley. This report raised the disturbing scenario that 
the approval process of the categorical exclusion eliminating 
the need for an environmental impact statement later on in the 
development of this lease turned the expected level of scrutiny 
on its head so that instead of having a stricter scrutiny of 
that environmental impact at the later stages moving towards 
development and production a waiver was granted rather than 
requiring a more intense level of review, and that makes no 
sense.
    Ms. Norton. Well, you need to look more into the details of 
the specific proposal as you move closer to that specific 
proposal. The concept of the Outer Continental Shelf Lands Act 
is that you look at those large scale issues on a large scale 
basis.
    Mr. Braley. And I understand that, and my time is running 
out, so let me just close with this. Do you not agree that in 
light of what we know now that policy of giving categorical 
exclusions which seems to be the opposite of the intended 
stricter scrutiny as you get closer to production should be re-
evaluated by MMS?
    Ms. Norton. I certainly do think you need to look at these 
things going forward and look at your overall process, so I do 
think you need to look at how those things need to relate in 
the future and especially as you are talking about how 
something that is a very catastrophic event but has a very 
small probability of actually happening.
    Mr. Braley. Well, this had a 99 percent probability of 
happening in a 40-year lease.
    Ms. Norton. I frankly question that. I think that may not 
have been a correct reading.
    Mr. Braley. Well, I am reading from the report, and I yield 
back.
    Mr. Stupak. And, Mr. Braley, would you provide a copy of 
that report so the minority can look at it?
    Mr. Braley. Absolutely.
    Mr. Stupak. So your motion is still pending on whether or 
not it will be accepted. Secretaries, can you go 20, 25 more 
minutes?
    Mr. Kempthorne. You are anxious for your next guest to join 
you.
    Mr. Stupak. We are anxious to have him too. A few more 
questions, if you may. Let us start myself, Mr. Burgess, and 
whoever else will go and attempt to cut if off. OK. How is 
that? Fair enough? Let me ask this. It seems like we have the 
energy task force in 2001 saying let us get our energy going, 
and we have a couple executive orders to expand offshore 
drilling, get things rolling. It seems like throughout all of 
our hearings we developed a technology to drill deeper and in 
more sensitive areas, and hopefully we do it in a safe manner, 
but we never developed the technology to have a clean up. Is 
that fair to say? We are using the same technologies from the 
1920's, booms and trying to skim it and burn it off. Fair to 
say?
    So let me ask this question. In the government models, we 
always talk about worst case scenarios, government models, the 
last time they were updated was 2004, and they dealt with 
surface spills, nothing deep water. In 2005, MMS modeling team 
recommended that the spill plans need to be upgraded to deal 
with deep water releases. Any reason why that was not done? 
Madam Secretary, it was 2005, you were still there. Do you 
remember their report recommending doing some deep water 
modeling because that is what we based everything upon.
    Ms. Norton. Congressman, I do not recollect that report.
    Mr. Stupak. I will ask Secretary Salazar the same thing. 
Mr. Kempthorne, any idea that we had that request there that 
was never done?
    Mr. Kempthorne. No, Mr. Chairman, I do not.
    Mr. Stupak. OK. Let me ask this. You both mentioned the 
history of no spills and internationally, I think, Secretary 
Norton, you mentioned we were looked at favorably. I am looking 
at a report here, SINTEF. It is dated July 24, 2001, and SINTEF 
is actually out of Norway, and they were asked to do a report 
from Minerals Management Service. And in there they are talking 
about the study of the BOPs, blowout preventers, and what goes 
wrong and kicks in the wells. And I thought it was very 
interesting of the 83 wells drilled in deep waters ranging from 
1,300 feet to 6,500 feet there were a total of on these 83 
wells 117 BOP failures and 48 well kicks. This is off 26 
different rigs. So if you take a look at that, we have 117 BOP 
failures, 48 well kicks. That would be two incidents per well 
or 6 incidents per rig, and this report goes on and says an 
alternative BOP configuration and a BOP test procedure that 
will improve safety availability and save costly rig time has 
been proposed. Do you know whatever happened to this report, 
Madam Secretary?
    Ms. Norton. I don't recall ever seeing it.
    Mr. Stupak. OK. And when you did the 2003 rulemaking, you 
didn't take this into consideration then because you don't 
remember seeing it?
    Ms. Norton. I would imagine that someone in the Minerals 
Management Service who had responsibility and who had the 
technical expertise to evaluate that did so but I as secretary 
did not see that.
    Mr. Stupak. It was interesting that we hired a Norwegian--
MMS hired a Norwegian company to do it and they relied--you 
know, Gulf of Mexico versus Norway because they are up in the 
North Sea and they found that we had more kick backs, we had 
more problems with pressure, which actually were the issues 
that led to the problems with Deepwater Horizon. I will 
conclude my questions right there. I will turn to Mr. Burgess 
for 5 minutes for questions.
    Mr. Burgess. Mr. Chairman, if Secretary Salazar is here, I 
am perfectly prepared for him to come and ask to begin the 
second panel.
    Mr. Stupak. Are you waiving?
    Mr. Burgess. If the Secretary is here. Are you ready to 
start the second panel?
    Mr. Stupak. No. We will be starting at 2:00.
    Mr. Burgess. At 2:00. Is the Secretary here?
    Mr. Stupak. No.
    Mr. Burgess. OK. Has he been----
    Mr. Stupak. So have you waived?
    Mr. Burgess. No, I am not going to waive. Has he been 
watching this on C-SPAN as you said he might be?
    Mr. Stupak. That is a good question. You should ask him.
    Mr. Burgess. I mean I am offended that we have been here 
all day. People have been asking good questions and making 
reasonable statements and----
    Mr. Stupak. Mr. Burgess, you know darn well that the 
Secretary has his staff here and he may very well be watching 
it but I haven't had----
    Mr. Burgess. The Secretary has so little interest that he 
wouldn't even notice that we were winding down and that the 
committee had dwindled to a less than critical mass. Let us 
do----
    Mr. Stupak. Well, if you have no further questions.
    Mr. Burgess. I do have some questions.
    Mr. Stupak. OK.
    Mr. Burgess. Let us visit for just a minute some of the 
questions that Mr. Markey was asking and not really allowing 
for a response. Secretary Norton, when you became secretary and 
you inherited the agency from Secretary Babbitt, were there 
specific regulations relating to deep water drilling that had 
been proposed by the previous administration?
    Ms. Norton. Yes, there were some regulations as to blowout 
preventers and cementing and so forth that had been proposed in 
2000.
    Mr. Burgess. And what was the result of that? Did you 
proceed with the implementation of those regulations or did you 
shut them off because it was a new administration?
    Ms. Norton. They were proposed in the previous 
administration in 2000. They were finalized in my 
administration. There were very few changes that took place 
between the proposed and the final. The one key thing that we 
added in to that was a requirement that the companies look at 
the deep water technology and how they were using stronger 
pipes and needed to have stronger shear rams in order to deal 
with those kinds of more hardened pipes. And so we put in place 
a new requirement that had not been in the previous proposal 
that required industry to do that. We put in place several 
requirements in those regulations over the objection of 
industry.
    Mr. Burgess. So if that is a deregulatory ticking time bomb 
that was set in motion that really doesn't compute then, does 
it?
    Ms. Norton. No.
    Mr. Burgess. Was the deregulatory ticking time bomb then 
started during the Clinton Administration or is in fact the 
deregulatory ticking time bomb simply a straw dog or a red 
herring as the chairman put it to you? He said it is just a red 
herring that he is throwing out. There is no question. I got a 
list here. I referenced earlier some 23 or 25 studies that were 
done by the Technology and Assessment Research Program. Someone 
has been kind enough to provide me what must be 100 or 150 such 
studies--600. I beg your pardon, 600 studies that have been 
done. Not every one of these studies will lead to a new 
regulation but the studies are done for good reason to address 
problems that are out there, but then they become part of the 
investigatory process that leads to the rulemaking that 
eventually then governs the rules. It would be very difficult 
to run any industry--my background is in medicine but if 
somebody came and sat down 600 new regulations, oh, wait, we 
may do that.
    But, nevertheless, it becomes very, very difficult to run 
anything with having this level of regulation but at the same 
time your agency, both of you, was charged with looking at 
these things putting what you thought was out for reasonable 
proposed rulemaking and then setting the regulations and 
setting the rules, is that not correct?
    Ms. Norton. Yes, and there is also behind that a whole set 
of industry standards, some of which were adopted by MMS and 
some of which remained industry best practices. And that also 
took into account--those things were changed much more 
frequently than the regulations to take into account advances 
in learning from all these various studies.
    Mr. Burgess. You know, we had one hearing here where we had 
5 or 6 executives from the big oil exploration companies, and 
one of the things that really struck me that morning, of 
course, 5 to 1 said they wouldn't have done what BP did as far 
as the drilling practices. But from the individuals who were 
here that actually worked had worked their way up in their 
companies and started on the offshore rigs, a lot of 
sensitivity to the fact that you sometimes would have to shut 
down a well. You sometimes would not be able to bring a well in 
because it was simply too dangerous. And one of the executives 
even made the comment in response to one of the Democrat's 
questions that if you start going too fast you are going to get 
someone killed.
    It is important to have people who worked in the industry 
as part of the process so the fact that it could be done in 
some sort of vacuum without taking into account the people who 
actually know how to run the business on the face of it is 
preposterous. Mr. Chairman, you have been kind. I will yield 
back the balance of my time, and we have others who want to 
fill the void that Secretary Salazar has left.
    Mr. Stupak. It should be noted that you are over your time, 
but that is all right. Mr. Markey, questions, please.
    Mr. Markey. Thank you, Mr. Chairman, very much. Secretary 
Kempthorne, you heard me question Secretary Norton earlier on 
the 2003 decision by the Interior Department to exempt Gulf of 
Mexico lessees from actually including a blowout scenario in 
their oil and gas exploration plans, but this policy was also 
continued in both 2006 and 2008 when decisions about the BP 
Macondo well were being made on your watch. In retrospect, Mr. 
Secretary, wasn't your decision wrong? Shouldn't there have 
been, in fact, planning for a blowout scenario?
    Mr. Kempthorne. Congressman Markey, I have a great deal of 
faith in the professionals there at MMS that deal with this, 
the different levels, the regional directors, et cetera. And, 
again, based upon what had been a 40-year record----
    Mr. Markey. In retrospect, do you believe that decision was 
wrong informed by what has happened?
    Mr. Kempthorne. Again, based on what had been a 40-year 
history, I believe they took the appropriate action----
    Mr. Markey. Was the advice they gave you wrong?
    Mr. Kempthorne. They gave me the best advice----
    Mr. Markey. Was the advice wrong?
    Mr. Kempthorne. I will just repeat my answer.
    Mr. Markey. You are not willing to say the advice you got 
was wrong?
    Mr. Kempthorne. Again, based on the 40 years----
    Mr. Markey. And I am asking you in retrospect now was the 
advice wrong?
    Mr. Kempthorne. The advice that I was given based on a 40-
year----
    Mr. Markey. The advice you were given with regard to 
whether or not there should in fact be a closer inspection of a 
potential for a blowout scenario, was it right or wrong, the 
advice you got?
    Mr. Kempthorne. At the time with the knowledge that they 
had----
    Mr. Markey. No, today. Today was it--as you look back, are 
you willing to say the advice you received was wrong and the 
policy should have been changed back in 2006 or 2008?
    Mr. Kempthorne. Mr. Markey, I don't think we have that 
hindsight.
    Mr. Markey. You have the hindsight. We are looking for 
wisdom. We are trying to pass legislation. Should that decision 
have been made given what you know today?
    Mr. Kempthorne. I think it is something that can be 
evaluated.
    Mr. Markey. I think that honestly that is a completely 
unacceptable answer. The American people want to know that the 
people who are making the decisions at the time understand that 
it was wrong, that a blowout could occur, that a spill could 
occur that would be catastrophic, and until you are willing to 
say it was a mistake then I think it is going to be very hard 
for the American people to accept that we are going to be able 
to move forward without the likelihood that we will ever see 
this kind of an accident again if there is a Republican 
administration that comes back into office again.
    Mr. Kempthorne. Well, Mr. Chairman and Mr. Chairman, I 
think in the atmosphere that this committee was called, the 
fact that we came here voluntarily, that this assignment of 
blame is not something that----
    Mr. Markey. I am not asking you to blame--I am asking you 
if in retrospect you still believe that it was the right 
decision or the wrong decision. I am absolutely not asking for 
you to say anything other than that. Was the decision wrong?
    Mr. Kempthorne. And, Congressman, all I will say is based 
upon a record and based upon the expertise of the professionals 
at the time that is the reality.
    Mr. Markey. I know it is the reality but it would be 
helpful if you could say we were wrong, we made a mistake. And 
I understand you don't want to do that, but it is obvious that 
that was the case. Secretary Kempthorne, the environmental 
impact statement for drilling in the Gulf of Mexico that was 
prepared by the Interior Department in April of 2007 under your 
leadership concluded that since blowouts are rare events and 
are of short duration the potential impacts to marine water 
quality are not expected to be significant, and the most likely 
size of a spill would be a total of 4,600 barrels total. In 
retrospect, don't you think that the department's analysis of 
the impacts of a blowout were inadequate? Wouldn't you agree 
that that conclusion was wrong?
    Mr. Kempthorne. Congressman, I would reference back what I 
said in my opening comments, and that is that even though we 
had a 40-year track record that because of the catastrophe that 
happened 90 days ago it has re-evaluated everything. I will 
also note that in the current Administration's preliminary 
revised program for OCS 2007-2012, it also uses those same 
assumptions.
    Mr. Markey. Secretary Norton, back in 2004 in terms of 
spill response your assumption was in the model you used that 
there would only be 1,000 barrels of oil that would be spilled. 
It assumes that the spill will happen on the surface of the 
ocean and doesn't include any deep water analysis and it 
doesn't include the use of dispersants and doesn't even 
contemplate a blowout that takes days, let alone months, to 
stop. Do you agree now that such a plan was completely 
inadequate?
    Ms. Norton. That statement was based on information 
available at the time. We don't have access to go back to the 
people who made those recommendations, did that modeling, did 
all of that----
    Mr. Markey. In retrospect, were the recommendations wrong?
    Ms. Norton. I have no idea of the context in which that was 
made. I have no idea what it applied to. I have no idea what 
was the decision that you are talking about so I can't say 
whether--I don't have any information which----
    Mr. Stupak. Point of order. Time has expired. Mr. Gingrey 
for questions, please.
    Mr. Gingrey. Mr. Chairman, thank you. Secretary Norton and 
Secretary Kempthorne, I didn't do this in my opening statement 
but I would certainly like to take a brief moment to thank both 
of you. You are here today at the request of the subcommittee 
to discuss your time at the helm of the Department of Interior 
during the Bush Administration. You are here as private 
citizens and you are doing it voluntarily, and I am deeply 
appreciate of that, and I think most members of the committee 
feel the same way. Both of you had interest and experience with 
MMS during your tenure. Secretary Norton, you witnessed 
firsthand the devastation that was caused by Katrina and Rita 
in 2005 and you had the opportunity to see up close and 
personal how MMS was able to respond to what could have been an 
ecological disaster. And, Secretary Kempthorne, in your 
testimony I think you mentioned the issues that arose with some 
individuals who were summarily dismissed from their position at 
MMS due to unethical conduct, I think was what you said.
    Therefore, both of you had very unique experiences with MMS 
and that leads me to finally have a question. Based on the 
structures that you had in place at MMS during your tenure, I 
would like to ask both of you to respond to this, if you will, 
had this accident occurred on your watch, this Deepwater 
Horizon tragedy, would you have used that as a means to 
reorganized MMS like it was done here recently?
    Ms. Norton. The new structure doesn't differ that much from 
the previous structures because previously the revenue aspects 
of it and the regulatory aspects have always been in separate 
divisions of MMS. And, no, I don't think I would have used it 
as an opportunity or as an occasion for reorganization. That is 
something that is within the purview of an existing secretary.
    Mr. Gingrey. Certainly. And, Secretary Kempthorne.
    Mr. Kempthorne. Congressman, first of all, I want to thank 
you for your comments concerning our being here today. It is 
the purview of the incumbent secretary to organize as deemed 
appropriate. I think you are raising the question of timing and 
in that catastrophe when those are your human resources, when 
you need everybody pulling together, I think you want to have 
as much of an atmosphere that you will work together cohesively 
instead of having concerns about who may be singled out next, 
and so it is a question of timing and the creation of a proper 
atmosphere.
    Mr. Gingrey. And I appreciate both former secretaries, Mr. 
Chairman, in their response and I certainly feel the same way. 
I mean, you know, you go through all this dancing around 
changing the--rearranging as the old expression goes the deck 
chairs on the Titanic, and you come up with a new name which 
sounds like--reminds me of vegetarian vegetables soup that I 
remembered as a kid and you got a whole new name but have you 
really done anything. And, more importantly than that though is 
the distraction of trying to do that when the focus really 
needs to be on the clean up and the response and it just 
doesn't--I think there is a lot of posturing in my humble 
opinion, and I think really your response sort of reinforces my 
suspicion in regard to that.
    I got a little bit more time left so as a follow-up for 
both of you, can you please comment on the nature of how long--
on the nature of how a long-term moratorium on offshore energy 
exploration would negatively impact the economy of the Gulf 
Coast and based on your experience how it would make us more 
dependent on foreign sources of energy. I realize that may have 
already been asked but I wasn't here and I would love to hear 
your response to that. First you, Secretary Norton, and then 
Secretary Kempthorne.
    Ms. Norton. One thing I don't think we have said before is 
that when companies make decisions for offshore oil wells, a 
platform is a multi-billon dollar decision. You need to have 
some long-term predictability. There are years of planning that 
go into that kind of thing. And so to have all the drilling 
rigs be off in other countries because of the moratorium is 
going to have repercussions far beyond the 6 months. It is not 
that you reach the end of 6 months and then everything goes 
right back into gear. There are many, many, many years of delay 
of impact of moving jobs away that are potentially involved.
    Mr. Stupak. Yes. Secretary Kempthorne has a right to 
respond to that question.
    Mr. Kempthorne. Mr. Chairman, thank you very much. 
Congressman Gingrey, I would preface it by saying I felt it was 
an extremely appropriate step to do a safety review. They did 
so. And with regard to--as I recall, it is approximately some 
30 drill rigs in the deep water. Of those that were reviewed it 
was found that perhaps it was only one situation where there 
was a noncompliance of some element but the vast majority of 
all of the specifics of adherence to the regulations were in 
place. It was good to pause. It was good to take a look at 
that. But we also need to consider the big picture which is the 
energy security of the country. I believe we are too reliant 
upon foreign source of energy. I also believe that this 
devastation, which has been horrible by every imagination 
including the 11 families that grieve and what it has done to 
the environment there, but a moratorium will compound the 
devastation by the economic devastation that will continue by 
the loss of jobs. And the Gulf Coast region needs an 
opportunity to recover and not have further devastation.
    Mr. Gingrey. Thank you. And, Mr. Chairman, thank you for 
your indulgence.
    Mr. Stupak. Before we go to Mr. Scalise, Mr. Braley, we 
have a matter pending with Mr. Braley. He asked for the 2010 
Oil Spill Minerals Management Service and the National 
Environment Policy Act June 4 CRS report be entered in the 
record. Without objection, that will be done. Also, myself, Mr. 
Waxman and Chairman Markey, we all referred to different 
studies, the shear ram capability study September, 2004, by 
West Engineering, another report by West Engineering, 
evaluation of secondary invention methods and well control, 
again March, 2003, a mini shear study again by West 
Engineering, December, 2002, and the SINTEF report of July 24, 
2001. Without objection, those will all be made part of the 
record.
    Mr. Burgess. Mr. Chairman.
    Mr. Stupak. Yes, Mr. Burgess.
    Mr. Burgess. Also, I would ask that Governor Jindal's op ed 
from the Washington Post from last Saturday be made part of the 
record.
    Mr. Stupak. Without objection, it will be made part of the 
record.
    [The information appears at the conclusion of the hearing.]
    Mr. Stupak. Mr. Scalise, I think we have about 3 minutes 
left if you want to ask questions for 3 minutes.
    Mr. Scalise. Thank you, Mr. Chairman. I will ask both of 
you, did either of you issue the permit for the Macondo well, 
for BP to drill the Macondo well? Ms. Norton.
    Ms. Norton. Definitely not.
    Mr. Kempthorne. No, sir, we did not.
    Mr. Scalise. I am just saying that to point something out. 
I mean there are a lot of people in this Administration that 
seem to want to run around and blame other people for things. 
They issued it. There is no doubt in the time line. It is even 
submitted in the committee report. It was issued on May 22, 
2009, and neither of you were there. I think what is really 
amazing to me is that it seems like every time there is a 
problem this Administration wants to try to find somebody else 
to blame instead of trying to just roll up their sleeves and do 
their job and help solve the problem. And I think we wouldn't 
have so many of these issues that we are dealing with, 
especially the issues that my local leaders are facing today, 3 
months later, if the Administration was just willing to say let 
us do our job. Let everybody get in a room, and when there is a 
problem whether it is sand berm which took over 3 weeks to 
issue--Governor Jindal could have protected 10 miles of our 
marsh in the period of time it took to get that permit issued 
and still to this day they are waiting to get an answer back on 
a rock barrier plan to provide protection to some of these 
other real fragile ecosystems where you got pelican nests and 
other very vital resources.
    And instead of getting everybody in the room the approach 
would be sit in that room and nobody leaves until you figure 
out a way to get it done, and if this plan on the table is not 
the way to do it, and there is no perfect plan right now, but 
whoever's plan is better, let us do it, but your answer can't 
just be we are denying your plan and everybody leaves and 
nothing gets done and more oil gets into marshes that didn't 
have oil the day before. And that is the problem we are facing. 
So maybe they don't want to own up to the fact that they issued 
the permit and they are trying to blame other people, but the 
bottom line is we just want to get these problems solved and we 
want the attention of this Administration focused on doing 
their job under the law. The Oil Pollution Act says it is the 
President's job to protect the coast. Unfortunately, he is not 
doing that. Our local leaders are trying to do it and they are 
being blocked by the federal government. There is no excuse for 
that.
    Getting back to the moratorium. While there is a moratorium 
that even though the federal courts have said is arbitrary and 
capricious and the Administration doesn't have the legal 
authority to issue a moratorium they are saying that there is 
not a shallow water moratorium but, in fact, there are over 40 
permits pending for new drilling in shallow waters which 
haven't been issued so there is a de facto moratorium on 
shallow water drilling. Can you talk about the differences 
between shallow and deep water drilling and the consequences of 
having the shallow water moratorium, which is causing even more 
job losses that even though this Administration says there is 
no moratorium they are not allowing any people being laid off.
    Ms. Norton. There are often different drilling rigs that 
are involved in different areas but whether the moratorium is 
in shallow water de facto or in deep water if you are actually 
going to have projects moving ahead and actually going to have 
the jobs that come from those projects, you need to have 
predictability and so there needs to be overall predictability, 
a focus on safety but also a focus on solving the real problems 
and letting the things that are dependable move ahead.
    Mr. Scalise. Mr. Kempthorne.
    Mr. Kempthorne. I really can't add anything to that, 
Congressman. I appreciate that.
    Mr. Scalise. OK. And I know you both touched on it a little 
bit, but I want to get back to this concept of a 6-month pause. 
When Secretary Salazar says I just want to hold my finger on 
the pause button for 6 months and then at the end of 6 months 
maybe let it go and start things up again as if magically 
everybody just sits around waiting for 6 months and you start 
it up again. We are already seeing that some of those deep 
water rigs are leaving. Some have already signed contracts to 
leave the country and take those good jobs with it and the 
energy producing capabilities with it, and many others are 
already in negotiations, and at some point soon they are going 
to be signing their contracts too. But if you waited for 6 
months--I just want to address that because I do think it is 
disingenuous for people to go around and say there is just a 6-
month pause and then we will start everything up again.
    If you really do want to halt drilling for a long period of 
time, that is a policy decision and we can debate that, but I 
don't think it is fair to the American people to insinuate that 
you can just stop everything for 6 months and then start it 
back up again magically and everything will work just fine. If 
you could both address this. At what point down the road do you 
severely limit the ability for an industry to come back in a 
short period of time and, in fact, maybe years?
    Ms. Norton. I know from our hurricane experience with Rita 
and Katrina that, yes, there was a lot of damage that had to be 
repaired but it took far----
    Mr. Scalise. I commend you on your work in getting those 
issues addressed quickly.
    Mr. Stupak. Your time has quickly evaporated, Steve.
    Ms. Norton. We just found it took a whole lot longer for 
the industry to recover, for the energy production to recover 
than we would have expected.
    Mr. Stupak. Secretary Kempthorne, did you want to add 
something?
    Mr. Kempthorne. Very brief, if I may. Businesses need to 
have business plans. They need to have predictability as long 
as you put this question as to whether or not and when they 
might be able to come back. Also, we need to put it into human 
terms. The employees that draw their livelihood from the drill 
rigs and that entire industry, what do they do for 6 months 
during the pause? How do they derive their income for their 
families?
    Mr. Scalise. Thank you, Mr. Chairman.
    Mr. Stupak. Well, that concludes all time for this panel. I 
want to once again thank Secretary Kempthorne and Secretary 
Norton who voluntarily came here and gave of their time to help 
us with this problem, this disaster that our country is facing, 
and we thank you for your insight and the answers to all of our 
questions. With that, this hearing will be in recess until 
2:05. We will take a 10-minute break. We will be right back 
with the next panel. We are in recess.
    [Recess.]
    Mr. Markey [presiding]. We welcome everyone back. Again, 
this is a joint subcommittee hearing of the Oversight and 
Investigations Subcommittee of the Energy and Commerce 
Committee, and the Energy and Environment Subcommittee. We have 
been conducting this investigation jointly for 90 days, and we 
will continue to do so today. Our sole witness on our second 
panel is the Secretary of Interior, Ken Salazar, who was 
confirmed as Secretary of Interior on January 20, 2009. Prior 
to that service, he served in the United States Senate, 
representing the State of Colorado and before that he served 
Colorado as its Attorney General. So we welcome you, Mr. 
Secretary. It is the policy of this committee to take all 
testimony under oath and please be advised that you have the 
right under the rules of the House to be advised by counsel 
during your testimony. Do you wish to be represented by 
counsel?
    Secretary Salazar. No.
    Mr. Markey. Then would you please rise and raise your right 
hand to take the oath?
    [Witness sworn.]
    Mr. Markey. Let the record reflect that the witness replied 
in the affirmative. You are now under oath. So now we will 
welcome you again, Mr. Secretary. Whenever you feel 
comfortable, we ask you to please begin your testimony.

   TESTIMONY OF THE HONORABLE KEN SALAZAR, SECRETARY OF THE 
                            INTERIOR

    Secretary Salazar. Thank you very much, Chairman Markey and 
Chairman Stupak, and Ranking Members Upton and Burgess for this 
opportunity to come and testify in front of this committee 
concerning the Deepwater Horizon tragedy and what it has meant 
for this country and for this government and for the Department 
of Interior. Let me at the outset say that from April 20 until 
today, including this morning, we have continued a nonstop and 
relentless effort to kill the well to stop the oil from leaking 
from the well, and to do everything we can to keep the oil from 
coming on shore. It has been a coordinated effort on the part 
and at the direction of President Obama that has included the 
whole of government and putting every resource that we have and 
that the President has directed. We will not rest until we have 
this problem fully under control.
    The status of the well today, since I thought it might be 
of interest to the committee, is that it continues under shut 
in having pressure of approximately 6800 psi. There is an 
intensive monitoring program which we have directed BP to 
implement so that we can monitor seeps and any other kind of 
changes as the well integrity test continues. The essence of 
the regime that we are under right now is a 24-hour license 
that BP is given every 24 hours and based on the review of the 
seismic, acoustic, sonar and other information that we are 
getting then we make a decision about whether they can move 
forward for another 24 hours. The rationale for that intensive 
surveillance program is that it is important for us that this 
well maintained well integrity so that we don't have a 
catastrophe with the well bore essentially blowing out and then 
having all the contents of the reservoir blowing out into the 
sea.
    So we continue to spend a great amount of time. In fact, 
this morning as this hearing was going on, that is what I was 
working on. I did listen to parts of the testimony, including 
parts of the testimony from my predecessor, Secretary 
Kempthorne and Secretary Norton. Let me at the outset say that 
this is a tragedy because 11 people have been killed, and there 
has been environmental devastation in the Gulf of Mexico which 
we are dealing with now. And will continue to deal with into 
the future. There is a tendency to blame everybody who is 
involved and in my point of view there is a shared 
responsibility, a collective responsibility, for how we respond 
to this issue. I would suggest to all of you that based on your 
investigations and based on preliminary investigations from BP 
as well as preliminary investigations that I have seen that 
indicate that there were corners that were cut by BP as it 
moved forward with respect to this well construction.
    You are as a committee very aware of what some of those are 
and you have reported on some of your findings. I would also 
say that prior administrations and this Administration have not 
done as much as we could have done relative to making sure that 
there was safer production in the Outer Continental Shelf. I 
believe that after drilling some 40,000 wells in the Gulf of 
Mexico that all of the nation, including the institutions of 
government, the Congress, as well as executive branch and 
multiple administrations were lolled into a sense of safety. 
And what the Deepwater Horizon perhaps drives home more than 
anything else is that we need to revisit that basic assumption 
with respect to safety.
    Let me say that since I came in as Secretary of the 
Interior the President and I discussed the reform agenda of the 
department and made the reform agenda a high priority of mine 
from day one. Specifically with respect to the former Minerals 
Management Service we moved forward with an ethics reform 
program in the Department of Interior to do away with the sex 
and drug scandals that we had seen in Lakewood and other 
places, and most of the activity that has been uncovered by the 
Inspector General is activity that has either been referred 
over to prosecution or appropriate actions have been taken with 
respect to the firing, suspensions or other disciplines of 
those employees who were involved. I will also say on that note 
that most of the employees at the Minerals Management Service 
continue to do their work every day. They are working very, 
very long hours now as we try to bring, for example, the 
Macondo well under control.
    We also moved forward with the reform agenda by terminating 
the Royalty-in-Kind program because the Royalty-in-Kind program 
had become essentially a magnet for the kind of corruption and 
ethics lapses that we had seen over the last 8 years, and so 
the termination of the Royalty-in-Kind program was a decision 
that I made early on to try to bring an end to the prior 
corruption. Thirdly, the Outer Continental Shelf and the plans 
that are put into place, many of you will recall that on the 
last day of the prior administration there was a new plan that 
was put forth for the OCS that essentially covered the entire 
OCS with respect to future development. We changed the OCS 
plan. There were some very extensive set of hearings and we 
were dealing with two different sets of plans, one from 2007-
2012, and the new plan that was proposed from 2010-2015, and we 
narrowed it down so that we are protecting special places in 
the Arctic, the Chukchi and Bristol Bay where we cancelled 5 
leases in that area. We took the Pacific off from drilling 
activity and proposed that we move forward in a thoughtful way 
with respect to areas in the Atlantic as well as with respect 
to the Gulf.
    Our intention was to stay away at least 125 miles from the 
shores of Florida. And, finally, as you, Mr. Chairman, with 
your advocacy, we have followed on your direction that we do 
everything that we can to stand up renewable energy in the 
offshore especially in the Atlantic. We see great hope in that 
possibility. We believe that huge amount of electricity can be 
generated from wind and that is an effort that is well 
underway. Finally, just in terms of how we have moved forward 
since April 20 and before. We had been working on moving 
forward with additional safety requirements and additional 
training for employees. We also raised the bar on industry, the 
30-day safety report, which I prepared at the direction of the 
President, set forth a number of recommendations with respect 
to blowout preventers, venting, casing, and a whole host of 
other things that should make drilling more safely.
    We have moved forward with a safety notice to lessees which 
essentially is a recall of the blowout prevention mechanisms 
and requirement responder casing and well design requirements. 
That notice to lessees has been sent and we also have sent a 
notice to lessees with respect to blowout prevention. We are 
moving forward with the reorganization of what was formerly the 
Minerals Management Service and created the Bureau of Ocean 
Energy Management, Regulation, and Enforcement. That effort is 
led by the Assistant Secretary of Land and Minerals, Wilma 
Lewis, who was a former United States Attorney and Inspector 
General with the Department of Interior, and the agency itself 
will be led by Mike Bromwich, who also was an Inspector General 
for a very long time in the Department of Justice and who has 
been involved in the organization matters within the private 
sector.
    The reorganization of the new MMS, the new Bureau of Ocean 
Energy, essentially will have 3 units. There will be an Office 
of Natural Resource Revenue, and that is to separate the 
revenue collection function from the other functions related to 
leasing the resource. A second unit will be one of Bureau of 
Ocean Energy Management unit, which will essentially make the 
decisions about where it is that we will be leasing the OCS 
resources for development. And the third unit will be one that 
will be focused exclusively on safety and environmental 
enforcement. This will not come cheap. When one looks at what 
has happened in the 1990's and through the first decade of this 
century the staffing levels at MMS have essentially remained 
static. We have made requests for additional staff in the last 
few years. The proposal that we have before the Congress and 
before OMB contemplates an additional 445 inspectors to help us 
in carrying out this very important duty for the American 
people.
    I will comment just briefly on the moratorium because I 
know many of the members of this committee are interested in 
that. It is a moratorium that I have reissued that will stay in 
place until November 30 until I am satisfied that we have 
received appropriate and adequate answers to 3 essential 
questions. First, whether or not drilling can continue in a 
safe manner. Second of all, whether or not there is an adequate 
strategy to deal with blowout containment, issues like the one 
that we are facing, and, thirdly, that there is an adequate oil 
spill response capability that is out there. In conclusion, Mr. 
Chairman, I am hopeful that working with the members of this 
committee and members of the Congress that the legacy of this 
crisis will be four fold. First, that we will move forward to 
an era of safer production of oil and gas in the Outer 
Continental Shelf. Secondly, that we will embrace a Gulf Coast 
restoration program which Secretary Mabus and the 
Administration are leading in a way that finally restores the 
Gulf Coast after a century of degradation. Third, that we can 
embrace a conservation agenda for the 21st Century across 
America. And, finally, that it will open up the great 
possibility to a new energy future that broadens the portfolio 
of energy which this country had been so dependent on with 
respect to fossil fuels to now include the power of the sun, 
the power of the sun, the power of geothermal, and the other 
parts of the energy portfolio, which the President has as part 
of his comprehensive energy plan.
    [The prepared statement of Mr. Salazar follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Markey. Thank you, Mr. Secretary, very much. The chair 
will recognize the chairman of the Oversight and Investigations 
Subcommittee, the gentleman from Michigan, Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Markey. Thank the chairman. Mr. 
Secretary, thank you for being here and thank you for all your 
work. This has not been an easy issue for any of us and 
especially your position as Secretary of Interior. You have 
been putting in a lot of hours and long days in working this, 
and we thank you for your efforts. Let me ask you this 
question. I asked both Secretary Norton and Secretary 
Kempthorne this question. The modeling we have for if an oil 
spill would work our only models deal with surface spills, not 
deep water spills. In 2005 MMS modeling team asked the 
secretary that the spill response plans need to be updated to 
deal with deep water releases. It has never been done. Were you 
aware when you took over that there was never a modeling 
program to show what would happen with a deep water spill in 
the Gulf of Mexico? Were you aware that nothing has been done?
    Secretary Salazar. The answer to that is no, I was not 
aware of that.
    Mr. Stupak. And my follow-up question then, should we 
update the model before we go back to drilling? I know we have 
this moratorium on right now but shouldn't we have some idea--
maybe we can learn something from Deepwater Horizon how 
catastrophic spills would go in the Gulf. Is that enough 
reliance or should we do modeling before we resume exploration 
and drilling in the Gulf of Mexico?
    Secretary Salazar. Chairman Stupak, I think what we need to 
do is make sure that we have adequate plans to response to the 
3 key issues that I just spoke about, and at the end of the day 
if you think about the containment program that has been 
underway since the Macondo well blew out, I think there is 
ample evidence that you have seen which I have reviewed every 
single day since April 20 and the efforts to close down the 
well that tells us that the containment efforts are simply not 
enough, and so it is an opportunity to really address all of 
the multitude of shortcomings that have become evident since 
April 20.
    Mr. Stupak. Since our investigation, I have been focusing a 
lot on the blowout preventer requirements, and as far back as 
1997 MMS cut back on testing requirements for the BOPs by 
reducing required testing frequency from every 7 days to every 
14 days because testing caused down time on the rigs. But a 
series of reports conducted between 2001 and 2004 pointed to 
even bigger problems. Over and over again these reports 
indicated that in many cases blowout preventers would not be 
able to shed drill pipe in an emergency. If the BOP cannot shed 
a pipe then it cannot seal the well to control a blowout. A 
2001 report concluded that sub-sea blowout preventers should be 
equipped with redundant shear rams to increase the chances of 
success in an emergency. A 2002 report cited, and I quote, ``a 
grim picture of the success when using BOPs in an emergency.'' 
A 2003 report identified problems with emergency activation 
systems and the need for remote undersea vehicles to operate 
all BOP functions in an emergency. The warnings from 2001 
through 2004 seem to have anticipated the very problems that 
have come to pass in the Deepwater Horizon blowout.
    Mr. Secretary, my understanding is that MMS established new 
rules for blowout preventers with rulemaking in 2003, but they 
did not require dual shear rams or other key improvements that 
the studies indicated were necessary. Is that correct?
    Secretary Salazar. That is correct. Those requirements were 
not required.
    Mr. Stupak. On the rule that was made by Secretary Norton, 
I asked her about that, and I realize it was not your decision, 
but in retrospect do you think that the 2003 federal rule based 
on these studies should have had the dual rams shearing 
capabilities in case of a blowout prevention--in case of a 
blowout of a well?
    Secretary Salazar. My own view, Chairman Stupak, is that 
there has been a lot learned with respect to these blowout 
preventers including the need to make sure that you have the 
shearing capability, and indeed some of the blowout preventers 
that are now being manufactured will require the dual capacity 
with the shear rams in case they end up closing in on a place 
where you have a pipe that they cannot get through.
    Mr. Stupak. Well, let me ask you because your 30-day report 
on the Deepwater Horizon contained a number of new 
recommendations for BOPs including the dual rams shearing as 
you indicated. Can you tell me some of the other 
recommendations and actions that the Department of Interior 
will be taking to implement safer BOPs?
    Secretary Salazar. The recommendations are many, and they 
are outlined extensively in that 30-day report as well as in 
the notice to lessees that we have issued additional rules that 
we will be making. Some of the blowout prevention enhancements 
that you will be seeing will deal with the shearing capability 
of rams but other improvements that have to be in my mind put 
into place as well include assurance that the backup actuation 
programs do, in fact, work. And we will be making those 
requirements and have made some of those requirements with 
respect to the 30-day report.
    Mr. Stupak. Well, you talked about the need to hire 445 
more inspectors. Will this enhance the certification and 
testing of these blowout preventers and other aspects that you 
have recommended in your 30-day report?
    Secretary Salazar. Absolutely, Chairman Stupak. And let me 
say that as much criticism as may be laid in terms of what has 
happened in the last 90 or 91 days since April 20, it also has 
been a great laboratory of learning. There was a conclusion 
that essentially was a conclusion that most people had that you 
could not test the blowout prevents sub-sea. We now know that 
that is not the case and so there will be additional testing 
requirements that will also be imposed with respect to blowout 
preventers.
    Mr. Stupak. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman.
    Mr. Markey. The gentleman's time has expired. The chair 
recognizes the ranking member of the Energy and Environment 
Subcommittee, the gentleman from Michigan, Mr. Upton.
    Mr. Upton. Thank you. Welcome, Mr. Salazar. Go blue, right?
    Secretary Salazar. Go blue.
    Mr. Upton. Michigan Law School, you didn't say that. I 
don't know if you have had a chance to look at the bill that 
the Full Committee reported out last week, 48 to nothing, H.R. 
5626, the Blowout Prevention Act. I know that as a number of us 
were trying to seek comments from the Department, I don't know 
if there was a clearance problem at OMB, but we really didn't 
get any comments from the Administration as it related to the 
progress of this bill.
    I don't know if you had a chance to look at it, and now 
that it has been reported out, I wondered if you might want to 
comment on certain provisions that still may be constructive as 
we look at this bill before it gets to the House Floor.
    Secretary Salazar. Congressman Upton, I first of all agree 
that this committee put its focus on one of the very key issues 
that needs to be addressed and that is blowout preventers. And 
so I appreciate the work from this committee, and the fact that 
you had that kind of a bipartisan support for that legislation 
shows that it was a well thought-out piece of legislation. We 
are currently in the process of reviewing that legislation 
along with a host of other pieces of legislation that are 
making their way through Congress, and I look forward to 
working with all of you because I do think that it is a bill 
that we can work with. And so there may be some modifications 
or changes that we will request, but we have not yet had the 
opportunity to dig into it in detail but we will.
    Mr. Upton. You indicated in your testimony that you are 
doing in essence a 24-hour license every single day with BP. 
What would happen if you actually denied them a 24-hour bill? 
Would you all take over? What would happen?
    Secretary Salazar. Essentially what would happen is they 
would have to go back into a containment mode and that is to 
essentially minimize the amount of oil that ultimately gets 
spilled out into the Gulf. And so prior to the time that the 
shut-in occurred, they were capturing on the average of about 
24,000 to 25,000 barrels of oil a day so that there would be a 
resumption of some of that oil containment capacity as well as 
a program which we required. We ordered BP to develop a program 
that put in different scenarios with different oil containment 
capacity, leading up to as much as 80,000 barrels a day of 
containment capacity.
    What would happen as you would transition though from a 
shut-in of the well over to a leak containment program is that 
during that interim period, there would be some flow of oil out 
into the Gulf.
    Mr. Upton. Former Secretary Kempthorne who was here earlier 
this morning in his testimony voiced the frustration to the 
degree that they had sought more money for inspectors, in 
essence about $2 million more than what Congress provided. You 
indicated just now that you are looking for about 445 more 
inspectors. I am just wondering if the ideas fostered within 
the Administration to perhaps go about like a user fee on the 
industry itself, like we have an escrow account now to pay, I 
hope, every dime of--or an escrow account for every dime for 
the losses--et cetera, for folks along the Gulf. Should you not 
be able to get money from the Appropriations Committee, do you 
have the authority, would you seek authority to in fact impose 
a user fee to then provide for these additional inspectors that 
you are calling for?
    Secretary Salazar. We are working closely with OMB and work 
closely with the Appropriations Committee relative to the 
additional resources that are needed and how we fund them. And 
I know everybody here agrees that we need to find ways for 
paying for some of these things, and so that is part of the 
conversation that is taking place.
    The number that I gave to you in terms of 445 inspectors is 
what we believe we would need over about a 3-year timeframe to 
be able to do an adequate job of inspecting the oil and gas 
activities in the outer Continental Shelf. As I think I heard 
some of you say this morning, it would be almost impossible, 
frankly, for 60 inspectors to be expected to go out and do the 
job when we are talking about 4,000 very complicated facilities 
that they have to inspect in the Gulf of Mexico.
    Mr. Upton. What role do you expect that the President's Oil 
Spill Commission will play in the decisions about the 
moratorium? Do you expect that commission to offer advice as it 
relates to the moratorium and how would you use it?
    Secretary Salazar. You know, we will consult with them 
relative to whether or not it is time for us to remove our hand 
from the pause button, but right now, given the dynamic 
situation in the Gulf of Mexico and the issues that I outlined 
earlier, from our point of view, it would be irresponsible to 
take off, to take our hand off the pause button, as many have 
suggested.
    And so we will be developing information in the weeks and 
months ahead, including information that is developed by the 
President's Deep Water Commission. If we are to make an 
adjustment with respect to the moratorium, it will be dependent 
on, be answering to the three fundamental questions which 
relate to drilling safety, oil containment and adequacy of oil 
spill response. And if we were to find a way of doing that 
before 6 months, then there would be a possibility of doing 
something different with the moratorium. But for right now, our 
view is that it will take until about November 30 for us to get 
that done.
    Mr. Markey. The gentleman's time has expired. The Chair 
will recognize himself for a round of questions.
    Mr. Secretary, in recent days, BP's Kent Wells said that 
the company is considering an additional technique known as a 
static kill, a bull-heading, now that the well has been capped. 
This procedure has been described as similar to the top-kill in 
which mud is introduced at the blowout preventer but may 
benefit from the current stop-flow and lower than expected 
pressure at the well. What can you tell us about this bull-head 
kill? What are the risks and the challenges of the procedure 
that is now being considered?
    Secretary Salazar. The static kill would be a decision 
essentially to try to kill the well from the top. Some have 
described it in layman's terms as a sandwich kill because 
ultimately, everyone has known that ultimately killing this 
well is going to require the relief well to kill it from the 
bottom. But in the interim, what BP has been talking about is a 
possibility of coming in from the top and essentially putting 
in mud and then cementing the well from the top. Their view is 
that it can be done easier now that you basically have a shut-
in pressure and you don't have a flowing well.
    But I think Chairman Markey exemplifies a key role that we 
in the United States have been playing with respect to these 
kinds of issues. We will not allow BP to move forward with the 
static kill option if we think that it is going to create 
greater jeopardy and compromise the integrity of the well.
    And so there is a science team which is headed by Secretary 
Chu and includes the directors of all the national labs as well 
as Director Marcia McNutt from the U.S. Geological Survey, and 
they are reviewing these plans and assessing the benefits and 
risks. And it is on their advice--we will allow the science to 
lead us to the appropriate conclusion before we stop BP or we 
green light BP on anything.
    Mr. Markey. Thank you, Mr. Secretary. If the well is 
permanently shut in or killed through a static kill, then a 
definitive determination of flow rates may be precluded, and 
that would be a success for BP in its continued attempt to 
obscure the true flow rate of the well. If, however, we do move 
to a collection strategy, then it would be possible at some 
point to collect 100 percent of the hydrocarbons from the well 
for a period of time. Why is that important? Because BP will be 
fined $4,300 per barrel for gross negligence. Each 10,000 
barrels that spill out per day for 80 days or so would be the 
equivalent of a $3.5 billion fine, 20,000 barrels per day, $7 
billion, et cetera. If it was 60,000 barrels per day, then the 
fine would be about $18 billion.
    So Mr. Secretary, can you tell us what is the likelihood 
that we can get as precise a number attached to how much oil 
has been spilled out in the Gulf of Mexico because of the 
negligence of BP? We know that BP is trying to lower their 
liability. They want the maximum amount of ambiguity in terms 
of what that number is so that the ultimate settlement will be 
lower in terms of what BP has to pay to the American taxpayers 
and to the people in the Gulf of Mexico. So can you just give 
us some sense of how precise ultimately the goal is for the 
Obama Administration to establish how much oil did go into the 
Gulf of Mexico?
    Secretary Salazar. Chairman Markey, I agree with your 
conclusion that it is absolutely imperative that we have the 
flow rate determined in a way that is absolute, and we have the 
best of scientists in the world that have been involved in 
terms of looking at these flow rates.
    The current flow rate of the U.S. Government which came 
about as a result of very extensive scientific work is between 
35,000 and 60,000. There is additional data that has come in 
relative to pressure as the well was shut in, and that will 
provide an additional opportunity in the days ahead to try to 
come up with a definitive number that will give us the rate of 
flow at the time of the shut-in. But there are other 
complicated questions, Chairman Markey, that our scientists 
will have to look at, including whether or not the amount of 
flow has changed over time from April 20 until the time of 
shut-in. But I can assure you that the premise here that BP be 
held accountable for everything that it owes to the United 
States of America relative to penalties and other kinds of 
assessments against BP is essentially imperative for us, 
requires us to make sure that we have accurate flow numbers.
    Mr. Markey. Well, again, I would just say that we know that 
BP will litigate this issue in terms of how large their fine 
is, as Exxon did after the Valdez incident. If it takes 10 
years, they will take 10 years. They will take as much time as 
they want. I think it is critical for us to establish the most 
precise number right now because ultimately the American 
taxpayers should be fully compensated for what BP did to 
America's ocean.
    We thank you, Mr. Secretary, for being here and for your 
service to our country.
    Let me turn now and recognize the gentleman from Texas, the 
Ranking Member of the Full Committee, Mr. Barton.
    Mr. Barton. Thank you. I thought you were going to go to 
Burgess, but I am ready to go.
    Mr. Markey. Mr. Burgess pointed toward you.
    Mr. Barton. Oh, he did?
    Mr. Markey. Approvingly.
    Mr. Barton. All right. He has passed the buck.
    Mr. Markey. With recognition.
    Mr. Barton. All right. Well, thank you, Dr. Burgess, and 
welcome Mr. Secretary.
    The blowout preventer that failed on April the 20th was 
supposed to be inspected every 2 weeks, and we have been told 
that this particular blowout preventer was inspected 
approximately I believe 10 days before the accident and passed 
the test. Is that correct? And can you share with the committee 
any of the results of that particular test?
    Secretary Salazar. My recollection, Representative Barton, 
is there was an inspection that did occur in early April of the 
blowout preventer and that there were multiple tests that were 
conducted after that. The inspection would have occurred, and 
then following that, there were I think tests on the blowout 
preventer April 10th, perhaps April 17th, but other days during 
that time of April.
    Mr. Barton. So is it correct that this particular blowout 
preventer that failed on April the 20th when you had the 
accident did pass the inspection earlier?
    Secretary Salazar. It did pass the last inspection that was 
conducted.
    Mr. Barton. When that inspection or any inspection of these 
ultra deep oil rigs are conducted, is there an MMS inspector 
onsite while the test is being conducted?
    Secretary Salazar. The answer to that is no. The answer to 
that is that the tests are conducted by the companies when they 
are testing the blowout preventer. When the inspections occur, 
you don't have the capacity frankly when the inspector is out 
there to get down and see and conduct the test itself while you 
are on there.
    And so you take the information that is provided, and you 
review that information as an inspector, and that is what you 
base your findings on. And that is part of the change that I 
believe needs to be made. It ought not to be a circumstance 
where essentially an inspector is taking the word of the 
company relative to the adequacy of the blowout preventer.
    Mr. Barton. So current practice has been a self-
administered test using approved protocol, and then the results 
of that test are forwarded to the appropriate official at MMS, 
is that correct?
    Secretary Salazar. As I understand it, Chairman Barton, or 
Ranking Member Barton----
    Mr. Barton. I like Chairman. That is OK.
    Secretary Salazar. Ranking Member Barton. My understanding 
is that is how the process works.
    Mr. Barton. Has your department had a chance to compare the 
test results of this particular blowout preventer to what 
happened on the accident day and the inspections that have 
occurred electronically and visually through the remote 
monitors of this blowout preventer? In other words, can you 
indicate what the anomaly was in the accident that caused the 
blowout preventer not to operate when apparently very soon 
before that, it had operated correctly? We have had 90 days as 
has been pointed out rightfully so by my friends on the 
majority. The failsafe plan was that the blowout preventers 
would never fail. Well, the blowout preventer did fail. So I 
would think a key component of the investigation would be 
compare the test results most recently tested with what 
actually happened and see what the anomaly is. Has that been 
done and if it has, can you share that information with the 
committee?
    Secretary Salazar. Congressman Barton, there are many 
pieces of evidence that need to be collected, including the 
blowout preventer. The blowout preventer is essentially the 
black box that has to be taken up from the floor of the sea, 
and none of these investigations will be able to be fully 
completed until that happens.
    The blowout preventer is now necessary in order to keep the 
integrity of the well and the well shut-in----
    Mr. Barton. I understand that.
    Secretary Salazar. So when that blowout preventer comes 
out, there will be a very extensive forensics protocol that 
will examine all of those issues and determine what went wrong. 
But it is a critical aspect of the Marine Board investigation. 
It is a critical aspect that everybody involved in any of the 
investigations is focused on, and I am sure your committee will 
be very interested in those findings as well.
    Mr. Barton. My last question, and I know I have just 
expired my time, why was the Jones Act not waived so that some 
of these international partners could send their equipment to 
assist in the skimming and the clean up immediately? Because I 
know there was a petition to do that. Why was that not granted?
    Secretary Salazar. Congressman Barton, I can only say that 
I have worked with the National Incident Commander Thad Allen 
and our entire group from day one, and the Jones Act has never 
been in the way of getting any vessel on board to deal with the 
oil spill response.
    Mr. Barton. So the international community that wanted to 
send their equipment, the fact that they wanted to send it and 
couldn't because of the Jones Act, that is just not true, they 
just didn't send it?
    Secretary Salazar. It is not true that the Jones Act was 
any barrier to bring in any of those vessels----
    Mr. Barton. Then why were they not allowed in? I was told 
it was because the Jones Act prevented it. If that is not true, 
why were they not allowed in?
    Secretary Salazar. My understanding, and I can get the 
National Incident Commander's verification on this for you, but 
the Jones Act has not been at all a reason for any of these 
vessels from coming in.
    Mr. Barton. OK. You didn't answer my last--you have 
answered the first question. You said the Jones Act was not the 
reason. What was the reason?
    Secretary Salazar. Again, it is the National Incident 
Commander Thad Allen that can respond to that. My understanding 
is that there are multiple reasons, including some of them are 
the distance that they were and a host of other reasons. But we 
can get that for you.
    Mr. Barton. Will you state that the reason is not because 
somebody in the Obama Administration said they couldn't, they 
were turned down?
    Secretary Salazar. I will----
    Mr. Barton. Can you declaratively state that they were 
turned down?
    Secretary Salazar. Congressman Barton what I will say this, 
is that no stone has been left unturned in terms of any offer 
of help that could be used, OK? And that certainly has been the 
direction that the President has given to us and that the 
National Incident Commander have been working on from day one.
    Mr. Barton. I thank the Chair's discretion.
    Mr. Stupak. Chairman Waxman for questions, please.
    Mr. Waxman. Thank you, Mr. Chairman. Secretary Salazar, 
good to see you. Our committee investigation revealed that BP 
made a series of risky decisions. When they were drilling the 
Macondo well, they used a single string of casing that provided 
only one cement barrier preventing flow of dangerous gases to 
the well head. They did not use enough centralizers during the 
cementing process. They failed to fully circulate drilling 
fluids. They failed to install a key casing lock-down sleeve. 
And they failed to conduct a cement bond log test to determine 
if the cement job had failed. Many of these decisions did not 
conform to industry best practices, but BP went ahead with them 
anyway.
    Secretary Salazar, why was BP able to design such a risky 
well? Can you describe for us the regulations on well design 
and cementing and why they failed here?
    Secretary Salazar. Chairman Waxman, the issues you have 
raised with respect to cementing, centralizing, drilling fluid, 
and the rest of the issues that you raised are I know very much 
a subject of what this committee has looked at. They are very 
much the subject of which the Marine Board is looking at right 
now. And we will have some answers with respect to what 
happened on each of those apparent deficiencies.
    In terms of the regulations of the Department, there are 
regulations of the Department with respect to each of those 
issues that you raise. Part of the investigation will determine 
whether or not those regulations were followed or whether they 
were simply broken. But that is part of what the investigation 
will look at, and with respect to MMS employees that were 
involved in the oversight of the regulations and the 
inspections, I have also asked the Inspector General to take a 
look at what exactly it was that the MMS employees were 
involved in the Deepwater Horizon knew or didn't know.
    So we are looking at all those issues, and they are all 
part of the ongoing investigation.
    Mr. Waxman. As I understand it, current regulations are 
performance-based. They essentially tell operators to make sure 
the design is safe but require no specifics on how to do so. In 
the wake of the BP disaster, you called at least for new 
regulations regarding the well design and cementing. Can you 
describe your recommendations and how you intend to implement 
them?
    Secretary Salazar. The regulations are first in terms of 
drilling safety and cementing and casing. Chairman Waxman, many 
of them are spelled out in the 30-day report that we submitted 
to the President, and those regulations in many ways are then 
reflected in the legislation which this committee acted on.
    We are implementing those recommendations through notice to 
lessees, two of them that have already gone out to cover a 
number of those recommendations and are in the process of 
moving forward with additional regulations, including a new set 
of rule-making. In addition to that, the new Director of the 
Bureau of Ocean Energy is hosting a number of public outreach 
meetings to make determinations as to whether or not additional 
changes are needed.
    So it is a dynamic situation, but we are not waiting around 
until November 30 or January 1 in terms of making changes that 
need to be made. There are many changes that are being made as 
we speak.
    Mr. Waxman. A number of the recommendations that I believe 
was the commission that you set up proposed were embodied in 
legislation that was passed by this committee called the 
Blowout Prevention Act of 2010. The legislation would not let 
BP or any other company take the same shortcuts that were taken 
on the Macondo well. This legislation requires multiple 
barriers to prevent gas flows in the well. It requires 
circulation of the fluids and adequate centralization of the 
casing. It would mandate the use of a lockdown sleeve. It would 
require cement bond log testing of key cement jobs. It would 
also require third-party certification that the well design is 
safe, making the regulator's job easier. I believe this 
proposal that came out of our committee will help you in your 
effort to improve safety of deep water drilling. The 
requirements in this legislation will go a long way toward 
preventing blowouts and making sure that regulators have the 
tools they need to keep well operators from taking dangerous 
shortcuts.
    That was the intent of our legislation. It was based on 
some of the recommendations your people had proposed, and it 
would not prevent you from revising those regulations and 
updating them as you saw necessary. But the emphasis, the shift 
in emphasis, would be that there would be things that would be 
required to be done before the drilling permit would be agreed 
to, not just simply that that company is going to say that they 
will live up to a performance standard and then when they 
failed, then we are looking after the fact as we now are 
dealing in the BP case.
    We want to work with you. We want to make sure this never 
happens again. And we hope when we pass this legislation and 
you are finished with your job, we can assure the American 
people of safety in the drilling of these wells.
    I yield back my time.
    Secretary Salazar. I agree with you very much, Chairman 
Waxman. And let me say, I appreciate the leadership of this 
committee and focusing in on what was supposed to be the 
failsafe. That failsafe essentially was what lulled the 
American public, this Congress, multiple executive branches and 
secretaries and presidents to say that this was safe. And so 
your focus on that particular issue is one that I very much 
appreciate, and we are reviewing your bill and I expect that we 
will work things out with your staff relative maybe to some 
technical issues. But the thrust of it is absolutely correct.
    Mr. Waxman. Thank you very much.
    Mr. Stupak. Mr. Burgess for questions.
    Mr. Burgess. Thank you, Mr. Chairman. Mr. Secretary, 
welcome to our committee. Who is going to be responsible for--
fast forward when the well is shut in, the blowout protector 
will be removed by someone and examined by someone. Can you 
tell us the process you intend to follow? Who will be charged 
with removal and who will be charged with the forensics on the 
blowout protector? And this is essentially a crime scene, as I 
understand it. Is that not correct?
    Secretary Salazar. Yes, interestingly, Congressman Burgess, 
we have put together an effort which I have asked Deputy 
Secretary Dave Hayes to work with the Department of Justice and 
the National Incident Commander Thad Allen to assure that the 
appropriate protocols are followed because this is Exhibit A, 
if you will, in a whole host of matters that will unfold before 
the country in the year ahead. It is the black box, and so we 
need to make sure that the right protocols are followed, and 
those are being developed.
    Mr. Burgess. Well, there is a lot of course to determine 
who is at fault and was there negligence. But then of course, 
from our perspective, we wrote a law that you just referenced 
dealing with preventing the problem from ever happening again. 
But we don't know what happened that caused the problem that we 
are dealing with now.
    So obviously it needs to proceed on two tracks, but they 
are both extremely important. One is important from settling 
criminal issues and liability issues in regards to this 
accident and one is important to settling the issues as to how 
we do proceed in the future with this type of activity. Now 
you----
    Secretary Salazar. I agree with you, and if we could we 
would be doing the forensics on it right now. The problem and 
reality is that----
    Mr. Burgess. You can't move it.
    Secretary Salazar [continuing]. It is needed to keep the 
well in control for right now.
    Mr. Burgess. Sure.
    Secretary Salazar. But as soon as it is over, I guarantee 
you, the protocol will take over. The United States is in 
charge. The United States will be in charge of the blowout 
preventer and will be in charge of the forensics and the 
evidence.
    Mr. Burgess. Will BP be the one that removes it from the 
ocean floor?
    Secretary Salazar. That will be part of the protocol, and 
it will probably be with oversight from the United States 
Government. But that will be part of the protocol that we are 
working on.
    Mr. Burgess. Let me just ask you this very briefly. You 
referenced to an answer to a question I think of Mr. Stupak, or 
maybe it was Mr. Markey's, that Secretary Chu was having some 
input into monitoring the condition of the well as it currently 
exists as to whether or not the pressures are acceptable, 
neither too high nor too low. I know Dr. Chu is a brilliant 
man, but does he have experience with well design?
    Secretary Salazar. What I will say is he is a Nobel 
laureate and my extensive work with him in the last 90 days, he 
is probably the most brilliant man on the planet. And having 
him in a position----
    Mr. Burgess. With all respect, the President is a Nobel 
laureate, but I don't know that he would be the best person for 
that job.
    Secretary Salazar. But if I may, what Secretary Chu has 
done with my assistance and my working with him is we have 
assembled the best team. You would be proud of them, 
Congressman, of scientists from around the country, from the 
Federal Department of Energy labs, Sandia Labs, Tom Hunter, 
Marcia McNutt from the United States Geological Survey. And 
they have collective petroleum----
    Mr. Burgess. But they don't design wells, with all due 
respect. All I am concerned about here is you referenced the 
fact that BP may want to do something different from what the 
Department of Interior wants. At some point, if there is a 
divergence of opinion, does BP lose any of their liability if 
the Department wants them to go in a direction that they are 
uncomfortable in going or if they said, we really just want to 
go ahead and shut this thing in with whatever you called it, 
the bull hammer approach now. Who ultimately gets to make those 
decisions and then what release of liability is there for the 
party of the first part, BP, if the wrong decision is made?
    Secretary Salazar. The United States is in charge. The 
United States working through the National Incident Commander 
will give the approvals and authority on the way forward. Those 
decisions, Representative Burgess, will be guided by the best 
of what the science community tells us, and we have the best of 
the science world involved in this issue.
    Mr. Burgess. I wish we could all be so sure. We don't even 
know about the presence of--down there or the ultimate of the 
potential for collapse of the well head. I mean, that has been 
a concern since it was raised in this committee some six weeks 
ago. So I wish I could share your certitude about that.
    I have got a number of questions related to the moratorium. 
I hope we will have the opportunity to submit questions in 
writing because I think this is important. But have you done a 
risk analysis on the likelihood of other wells failing in the 
Gulf?
    Secretary Salazar. The moratorium decision which we issued 
in a 20-plus page document laid out the factors related to my 
decision. My decision essentially was based around three key 
factors which there is tremendous evidence in the record to 
support and tremendous evidence which I know this committee has 
seen uphold before its very eyes. And those issues relate to 
drilling safety, oil containment and oil spill response. Today, 
if there was another oil spill response requirement in the Gulf 
of Mexico or somewhere else, we would not have the capacity to 
respond to it because all of the resources essentially are 
focused in on dealing with the blowout at the Macondo well.
    Mr. Burgess. Before I am gaveled down, would you supply 
that risk analysis for the committee for the record?
    Secretary Salazar. We will supply you a copy of my decision 
which essentially includes reference to a very extensive 
record.
    Mr. Burgess. Actually, the paper supporting the decision 
would be what the committee would benefit from.
    Secretary Salazar. We will work with your staff to figure 
out exactly what it is that you want, but we do--the decision 
that was made last week and communicated last week was a very 
well-thought-out decision which----
    Mr. Burgess. But based upon some set of facts, and if the 
set of facts could be----
    Mr. Stupak. The gentleman's time----
    Mr. Burgess. --provided to the committee, that is what we 
would appreciate.
    Mr. Stupak. Mr. Dingell for questions, please.
    Mr. Dingell. Mr. Chairman, thank you. Mr. Secretary, a 
pleasure to se you before the committee. Thank you for being 
here.
    Mr. Secretary, I am troubled. Where in the statute does 
NEPA allow for categorical exclusions? What is the citation in 
the statute which permits that?
    Secretary Salazar. Congressman Dingell, I think you get to 
the broader question with respect to the environmental review 
of oil and gas leasing in the outer Continental Shelf.
    Mr. Dingell. No, Mr. Secretary, this is a very specific 
question. I say this with the great affection and respect. But 
NEPA says that every single action which has a significant 
impact upon the human environment shall be accompanied by an 
environment impact statement. Nowhere in that statute--and by 
the way, Scoop Jackson and I wrote this in the late '60s and 
early '70s. Nowhere in the statute is there authority given for 
a categorical exclusion. Is it the interpretation of your 
agency that there is a categorical exclusion in this or is it 
the interpretation of the Council on Environmental Quality that 
such be so?
    Secretary Salazar. It is founded in law and it has to do 
with this. Chairman Dingell, if you, with all due respect, 
there was an environmental impact statement that was conducted 
with respect to the 2007 to 2012 plan. There was another 
environmental impact statement with respect to this 
particular----
    Mr. Dingell. Here is the way it worked, Mr. Secretary, and 
let us refresh our collective recollections. There was 
essentially a generic environmental impact statement issued for 
the entire block in which the lease existed as opposed to a 
specific lease, and I am trying to figure out what transpired 
here. I hear talk that there is some kind of a device for a 
categorical exclusion. I want to make sure that your department 
is not misinterpreting the statute or that the statute has not 
been improperly amended at any time since Scoop Jackson and I 
got it into law.
    Secretary Salazar. Let me say that the fix here is what the 
President and I have proposed to the Congress and that is there 
is a requirement in the law under--an expiration plan to be 
approved within 30-days of its submission. And so what we have 
asked is that that timeframe be extended from 30 days to 90 
days in order to be able to do the appropriate environmental 
review. So that is one of the areas that we hope to work with 
the Congress on to make sure that the way in which categorical 
exclusions have been used in the past is not the way they are 
used in the future.
    Mr. Dingell. I think, Mr. Secretary, in the interest of 
time, I would like to submit this and ask that you respond for 
the purpose of the record. Have there been any categorical 
exclusions, and if so how many granted where oil and gas 
companies got licenses to drill? If so, how many? I will permit 
that to be inserted into the record. So would you submit that 
for us, please?
    Now, Mr. Secretary, tell us about this cement bond log. No 
such test was performed on the Macondo well, is that correct?
    Secretary Salazar. Chairman Dingell, the answers to those 
questions are still a part of the investigation.
    Mr. Dingell. OK.
    Secretary Salazar. Your committee has found that----
    Mr. Dingell. Would you submit that, please, Mr. Secretary, 
for the record?
    Secretary Salazar. But Chairman Dingell----
    Mr. Dingell. But I would like you to tell me if Interior 
does not insist that such a test is performed, then how is the 
department to know that that is, rather that the law has been 
complied with and that in fact the lease is being safely and 
properly executed by the oil company?
    Secretary Salazar. Chairman Dingell, we have conducted and 
are conducting a comprehensive review of the whole regulatory 
regime relative to the drilling----
    Mr. Dingell. Mr. Secretary----
    Secretary Salazar [continuing]. On the Continental Shelf.
    Mr. Dingell [continuing]. With respect and affection again, 
I will submit this for the record and ask you to respond.
    Now, Mr. Secretary, it is my understanding the lessees are 
required to submit a blowout scenario. In 2003, all leases in 
the Gulf were exempted from this requirement unless they fell 
into four specific categories. In 2006, this was expanded to 
five. Is this correct?
    Secretary Salazar. It is correct that that is the way it 
was, as I understand it----
    Mr. Dingell. OK.
    Secretary Salazar [continuing]. Chairman Dingell, but it is 
also correct that those are some of the changes that we have 
already made as we have moved forward with the 30-day----
    Mr. Dingell. I don't want to you to feel uncomfortable----
    Secretary Salazar [continuing]. Report to the President of 
the implementation----
    Mr. Dingell [continuing]. About this, Mr. Secretary.
    Secretary Salazar [continuing]. Of the regulations.
    Mr. Dingell. I just want to gather the facts. Now, did the 
Macondo well require a blowout scenario or was it exempted from 
the blowout scenario?
    Secretary Salazar. The Macondo well had a requirement with 
respect to a blowout preventer under the regulations.
    Mr. Dingell. Again, I would like to submit that in a 
written inquiry. I thank you, Mr. Secretary.
    I ask, Mr. Chairman, that the record remain open for both 
my letter and the response of the Secretary, if you please.
    Mr. Stupak. As Chairman Dingell knows and other members 
know, the record would stay open for 10 days for additional 
questions. So we will make sure that is done.
    Mr. Dingell. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary. It is a pleasure to have you before the committee.
    Mr. Stupak. Thank you, Mr. Dingell. Mr. Shimkus for 
questions, please.
    Mr. Shimkus. Thank you, Mr. Chairman, and I, too, would 
like to submit for the record for you, Mr. Secretary, if you 
would supply the committee's staff with all risk analysis of 
another blowout that was used in determining the first 
moratorium and then obviously the second. There has got to be 
some risk analysis that was conducted, and we would like for 
you to submit that for the record.
    First of all, I want to thank you for being here, and I 
appreciate your candor to say, hey, there is enough blame to go 
around for all of us. I think the deep-sea modeling issue is 
just another one that a lot of us let slip by, things that we 
could have done. And so I think that is important that we look 
at the problem, try to resolve the problem, make BP pay and 
move forward.
    This is historical in my 14 years having a sitting 
Secretary and two previous Secretaries in one day, and as I 
noted earlier, I have not seen that ever done. I have not seen 
a Secretary of Energy brought before and then the previous 
Secretaries of Energy brought on the same day. So it is what it 
is. So we welcome you here.
    First of all, for electricity generation in this country, 
are we independent? Are we as a Nation for the most part 
independent on our energy needs for electricity generation? I 
can help you. I know you are not in the energy--the answer is 
yes. So when we talk about energy needs of this country, I like 
to break it up into electricity generation and liquid fuels for 
transportation needs and the like.
    You made a comment in your opening statement about the huge 
amounts of energy that will be able to be recovered by wind in 
the Atlantic coast. Can you define huge for me? This has got to 
be electricity generation because we don't make transportation 
fuel out of wind. I am just trying to figure out what huge is.
    Secretary Salazar. The formal evaluation as I recall from 
the National Renewable Energy Lab is that there is about 1,000 
megawatts of power available. Now, there is a----
    Mr. Shimkus. But that is intermittent, right? You can't 
totally rely on that for base-load generation.
    Secretary Salazar. Let me, Congressman, answer your 
question. There is a connect between how we use electricity and 
how we consume oil, and this President has been working for a 
long time----
    Mr. Shimkus. OK, reclaiming my time. I really am short, and 
I want to stay true to the 5 minutes.
    Secretary Salazar. Let me make my point. I want to make my 
point.
    Mr. Shimkus. Let me just say that----
    Secretary Salazar. Chairman, I would just like to make my 
point, to answer my----
    Mr. Stupak. Would you let him answer and then we will----
    Mr. Shimkus. No, I have like three more questions I need to 
go to, so I get the point. My point is there is electricity and 
liquid fuel. It is my time----
    Secretary Salazar. I can answer my question in two words, 
electricity and transportation are tied together.
    Mr. Shimkus. Maybe in the new world, but it isn't today. I 
will tell you what real power is, 1600 megawatts by a coal-
fired power plant being built. That is the equivalent of 624 
wind generators. The 624 wind generators would take 30,000 
acres of land to place. We just got to keep this--there is not 
huge. Huge is nuclear. Huge is coal. Renewable is helpful, but 
to sell the story that it is the salvation of our energy need 
is really doing a great disservice to this country.
    Let me move onto the moratorium. There are 33 rigs idle 
right now. If I said that that is 45,000 jobs and equivalent 
jobs, would that be close?
    Secretary Salazar. There have been different numbers that I 
have seen from experts.
    Mr. Shimkus. 30,000?
    Secretary Salazar. There are thousands of jobs.
    Mr. Shimkus. If I said a loss of $330 million in payroll, 
would that be close?
    Secretary Salazar. I haven't seen the number in dollars.
    Mr. Shimkus. Two billion dollars in royalties to the 
Federal Treasury is lost. Would that be close?
    Secretary Salazar. There is no doubt the moratorium has an 
economic impact.
    Mr. Shimkus. OK, the last question. I do--but this 
moratorium is killing me and it is killing jobs in a place that 
needs jobs. When you put your hand on the pause button, is 
business planning and decision making pausing? I will give you 
an example. In my opening statement, I talked about a release 
yesterday. First rig sails away over drilling ban. Diamond 
Offshore announced Friday that its Ocean Endeavor drilling rig 
will leave the Gulf of Mexico and move to Egyptian waters 
immediately, making it the first to abandon the United States 
in the wake of BP oil spill and a ban on deep-water drilling. 
That is in the time when we need jobs and the economy and 
energy is important, we pray that you have some concern about 
the jobs of this country and of Louisiana.
    Thank you, Mr. Chairman. I yield back.
    Secretary Salazar. Congressman, if I may? Mr. Chairman, I 
would like to just respond very briefly----
    Mr. Stupak. Yes.
    Secretary Salazar [continuing]. In this sense. First, we 
are aware of the economic impacts of the moratorium. We also 
believe that it would be irresponsible to take our hand off the 
pause button given the current circumstances. Second of all, 
with respect to electricity, we do believe that the future of 
it is huge and it is going to be part of the future energy 
portfolio of the United States. So I respectfully disagree with 
you, Congressman.
    Mr. Stupak. Mr. Green for questions.
    Mr. Green. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary for being here, and I am going to ask my staff--I 
talked with you earlier about a letter the Congressman Kevin 
Brady and I sent in on June 24 that a number of our colleagues 
signed onto outlining hopefully an interim solution to lift the 
deep-water drilling ban on a small scale, and like my 
colleagues, I represent a very urban district in Houston. It 
has refineries, chemical plants. We do everything energy 
including--I have constituents who work offshore and 
historically families who have worked offshore. So the 
moratorium is a very big issue.
    The letter we are asking about that several of my 
colleagues propose lying low-risk development and appraisal 
wells to be drilled while the Department of Interior continues 
the assessment on deep-water exploratory wells. These type of 
wells offer the reassurance of smaller, minimal risk because of 
delineation and sidetrack drilling that accompanies these wells 
merely just serves to define the parameters of then-known 
reservoir. If your department agreed to this modification--
hopefully it is under consideration for almost the last month. 
If it addressed the Administration's call for safe and secure 
drilling and protect estimated about 75 percent of those jobs 
you heard earlier that would be lost under the moratorium if we 
go forward with the full 6 months. And it would also help 
prevent future energy supply shortages in 2011 and 2012 because 
these wells don't come in immediately, particular deep water. 
It takes a long effort to get there.
    Now, the new moratorium focuses on drilling configurations 
and technology rather than drilling depth, and since the whole 
basis of my proposal stems from the specific drilling 
configurations and assuming we quickly get the blowout 
preventer and rig equipment inspected by Interior and third-
party certifier, would that prevent you from exempting these 
wells from the moratorium? And again, these are not actually 
production wells, these are actually just delineating the 
reservoir and are much less riskier than the Horizon. So I know 
you have a copy of the letter now, and we sent it like I said 
on June the 24th, but I appreciate you seriously and the 
Interior seeing if we can moderate that 6 months where we can 
get 75 percent of these folks actually back working. That way 
we wouldn't have these rigs sailing off to somewhere else.
    And I would just appreciate it if you would just say you 
will consider it. That is fine with me, and we will be back in 
touch because you have been real great with your time with a 
lot of us over the last 2 months trying to work with you and 
Interior.
    Secretary Salazar. If I may, Congressman, the key issues 
that we are looking at that we need to have some satisfaction 
with are drilling safety, blowout containment and oil spill 
response. And Michael Bromwich, the Director of the Bureau of 
Ocean Energy, has already publicized the schedule of meetings 
that he is going to have, especially in the Gulf Coast states, 
developing additional information. And then maybe the 
moratorium could be adjusted based on zones of risk. We already 
have said that it is OK to move forward with drilling in the 
shallow waters, OK? We have said that there may be a 
possibility of doing something that distinguishes between wells 
that are being built off production platforms versus wells that 
are being drilled as exploration wells. We don't know anything 
at all about those formations or insufficient information.
    So that is part of the analysis that we currently have 
under way, and we would be and will keep you informed as we 
move forward with that analysis.
    Mr. Green. And that is what our letter asks for, those less 
riskier wells where we could get those folks back to work and 
delineate the reservoirs. Again, the taxpayers would benefit, 
obviously my constituents and people who work there.
    My second question is, and you mentioned shallow well 
drilling, I appreciated the first production well was actually, 
a permit was given last week. And you know, my concern, there 
has been a de facto moratorium on shallow well drilling. There 
have been reworking and things like that, permits given on 
shallow well drilling, but like I said, the first actual 
production well was issued last week. And from what I 
understand from today's Wall Street Journal, that company 
actually started drilling Sunday because there was such a 
demand in shallow water.
    We have also sent an earlier letter to you at the end of 
May from Congressman Boustany and I that we appreciate the 
lifting of the shallow water but like I said, the first new 
well permit was issued last week. In fact, I was told 
yesterday, several of our shallow water producers met with Mr. 
Bromwich's staff yesterday, and they are close in agreement on 
some of the guidance in NTL06 because that is some of the 
concern. We are having--field offices don't know what NTL06 and 
they are not issuing those permits, and as soon as possible if 
we could get the rules there because these are shallow water 
wells. All the equipment is up on top. If you have a question 
about the blowout preventer, it is not 5,000 feet below sea 
level. And there are a great deal of natural gas that is 
produced and jobs created from those shallow water wells.
    So I appreciate. Hopefully that one permit that was issued 
last week for production will see more issued in the next few 
days. So that will show that there is not a de facto moratorium 
on shallow well-drilling.
    Mr. Chairman, I appreciate your patience.
    Mr. Stupak. Thank you, Mr. Green. Mr. Griffith for 
questions.
    Mr. Griffith. Thank you, Mr. Chairman. I am listening 
intently to the testimony, and it is obvious that we all crave 
certainty in our lives, and therefore we want to measure and 
measure everything.
    I think that in my particular case, I am not so much 
interested in the technical aspects of the well head of what 
have you, but I do know that the capping of the well was low 
tech. I do know that this was not a difficult concept of 
putting a cap on top of where the oil was coming out of, but I 
do know that it took a good long while. And I do know that we 
will fool ourselves into some degree of confidence that we are 
doing the job when we measure and continue to measure. And I 
know we will generate a huge booklet of regulations, but I will 
remind all of us that if I step on the bathroom scales and it 
looks at 200 pounds, I get off of that bathroom scale and I put 
a cotton ball on, the needle doesn't move. Whatever we are 
measuring has a finite amount of confidence to it. So what I am 
concerned about is that we are going to have a blowout again, 
as diligent as we are today and as many of the things that we 
would like to measure, but we do know that the thermal dynamics 
and the external variables, the internal variables almost make 
deep-water drilling a biologic system. And we know that a human 
can die with a normal blood work and a normal EKG and a normal 
MRI and a normal CT scan, so we are going to have this event 
once again in front of us, regardless of our intentions.
    And so my concern is from the time that well blew out to 
the time we put a cork in the bottle, so to speak, what 
happened? And my other question is this. Should that have 
happened when your position was empty, should that have 
happened in between administrations or in between Secretary of 
the Interior, who takes charge? It reminds me of the story of 
the nurse that goes down to the nurse's station and says, Mr. 
Jones is blue. The nurse takes the chart out and says, what 
room is he in, and she duly charts it and then says what do you 
think we should do? Let us call his doctor. It looks like he 
might need some oxygen. We can't give it to him without an 
order. His doctor is not on call. Do you think it is his heart 
or is this a lung doctor we should call? Well, by the time we 
get there, well, he is not blue anymore, he has got a tag on 
his toe, and he is on the way downstairs.
    So what we saw here was a cost guard, an EPA, Environmental 
Protection Agency. We saw the mayors and governors all weighing 
in, and it appeared that there was no central control 
immediately of the situation. So after we create the documents, 
and this happens again. Who can you point to, and not you but 
generic who says this is the guy that takes care of the oil 
well problem? This is the guy that takes care of the earthquake 
problem. This is the guy that takes care of the tsunami 
problem. This is the guy that takes care of the hurricane 
problem, because we have done this before in America, whether 
it be Katrina, the Colombia accident or what have you. We are 
having trouble going from a tremendous amount of knowledge to 
executing it in the field, and I think that should be part of 
our response and solution. I would like to hear your thought on 
that.
    Secretary Salazar. Well, Congressman Griffith, Admiral Thad 
Allen was appointed as the National Incident Commander. All of 
the United States Government goes through him as he coordinates 
the overall response. Secretary Chu and I have been focused in 
two areas, one is on the source control on the kill of the 
well, and I have been focused as well in terms of protecting 
the 44 wildlife refuges and national parks and the ecological 
resources of the Gulf Coast.
    Secretary Napolitano obviously overseeing the Coast Guard 
and being under the Presidential directives, the personal role 
and charge of the oil spill response.
    So the Federal Government from day one has been very----
    Mr. Griffith. Well, my question is simply this, can we make 
that more efficient? Could we say this is a catastrophe and we 
are on it from day one or two or three? In other words, can we 
reduce that timeline because capping that well was probably not 
a novel light bulb going on in some engineer's brain. It 
probably, had they put their----
    Mr. Stupak. The gentleman's time is----
    Mr. Griffith [continuing]. They may have been able to not 
have done it quicker.
    Mr. Stupak. If you can answer, Mr. Secretary?
    Secretary Salazar. I will say that I think from day one--I 
sent my deputy without overnight clothes on April 21st to New 
Orleans along with Kendra Barkhoff who was here who began to 
monitor the situation, and quickly we were in communication 
with Secretary Napolitano and the White House and everybody 
else. We have been on it since day one.
    I do believe, Congressman Griffith, that when one looks 
back as one should in any post-mortem, there will be an 
opportunity to see how things might have been improved. That is 
just the nature of how these things go. We are dealing with 
what is an unprecedented and largest oil spill response in the 
history of this country, and the resources that have been spent 
have been enormous, and the mobilization of the United States 
Government has been at the direction of the President 
relentless and with his specific direction that we will not 
rest until we get this problem solved.
    Mr. Griffith. I appreciate you and your staff--I don't like 
the moratorium a bit, but I am sure if I could----
    Mr. Stupak. OK, Mr. Griffith, your time is up, please.
    Mr. Griffith. Thank you.
    Mr. Stupak. Let us go to the next questioner, Ms. Capps, 
for questions, please.
    Mrs. Capps. Thank you, Mr. Secretary, for being here with 
us.
    During the previous testimony today by your predecessors, 
strong comparisons were made between the Deepwater Horizon oil 
spill and Hurricane Katrina. It was striking to me that what 
was not mentioned was one very striking difference. The 
hurricane which occurred 5 years ago was watched by the entire 
country as it approached land and wreaked havoc, you know, for 
2 full days and then it was gone. But with the exception of the 
initial deadly explosion, the extent of the oil spill was 
unknown. It occurred a mile below the surface of this gulf, and 
the perpetrator of the blowout, BP, withheld so much 
information, videos, and reports for days and weeks.
    We in the government, and more importantly, the American 
people, were lied to. Precious response time was wasted, let 
alone any requirement to have response equipment already in 
place and ready to go on day 1. Now it is day 90, and you and 
your team have been in full response mode, but you also have 
been learning a great deal. I want to let you talk or ask you 
to talk, please, and respond for a minute or so, fairly 
briefly. I want to follow it up with another similar kind of 
question to look where we have come from, but also on your 
watch, where we should go from here.
    Secretary Salazar. Well, it seems to me and I appreciate 
the question, Congresswoman Capps, I think when you look at it 
back from a global perspective that we are looking at what the 
President has been pushing, and many of you have been 
supportive, which is a comprehensive energy program for this 
Nation, and in that comprehensive energy many of you are 
supportive of the renewable part of the portfolio. Some of you 
are more supportive of the oil and gas part of the portfolio, 
but we all recognize and the President recognizes that oil and 
gas will be part of that portfolio during this transition time.
    The question then for all of us as the United States 
becomes how can we make sure that oil and gas as it is produced 
is being produced in a way that is safe and protects the 
environment. And to me, Congresswoman Capps, the central 
questions come down to these three.
    First, can we assure the American public that drilling can 
continue in a safe way? Your prevention bill that you passed is 
part of that answer.
    Secondly, if you do have a blowout, what are the oil 
containment programs in place to be able to deal with a 
blowout. They obviously were not in place to deal with this 
issue that now is in its 90th day.
    And then thirdly, what are the adequate oil spill response 
capacities that are needed to be able to deal with an oil spill 
response if one should ever occur again. When we have answers 
to those questions, it seems to me then we are able to move 
forward.
    Mrs. Capps. Thank you. I have to say in your position as 
Secretary from my perspective as a coastal representative I 
very much appreciate your decision to shelve the Bush Plan to 
open up much of the California coast to oil and gas leaking--
leasing.
    It was referenced, though, today already that the 
development of the previous Administration's offshore energy 
program plan appeared to be driven more by energy companies 
than by public input or the best available science. In contrast 
to this kind of closed-door process employed by the previous 
Administration, it appears to me that your decisions are being 
informed by public input and incorporating the best available 
science.
    I salute the listening sessions that you held right as soon 
as you were sworn into office, long before this event ever 
occurred, and I was fortunate to be part of one of them, and I 
noticed that Director Bromwich announced yesterday that there 
will be additional public hearings coming up in the next few 
months to inform the leasing decisions that you will then be 
making. This accompanied with some of the science.
    So this is what I would like you to spend the rest of the 
time on if you would, how do you intend to use this decision, 
this gathering of information in your decision-making process?
    Secretary Salazar. Congresswoman Capps, the--we will use 
the information that we collect from the Bromwich set of 
hearings to move forward in consideration of the three central 
questions that I outlined previously, all of which related to 
the moratorium and to the ultimate goal here, which is to 
develop a safe and protective oil and gas production program.
    You are correct that when I took office on January the 21st 
I had in front of me a new 5-year plan that was to go into 
effect in 60 days that essentially opened up all of the waters 
of the United States. I decided 60 days was insufficient for 
public comment and extended it to 180 days and had the hearings 
which you participated in in California, Alaska, and other 
places.
    And it is our view, it is the President's strong view that 
the decisions are best made when they are transparent and when 
we are maximizing public input.
    Mrs. Capps. Thank you, Mr. Chairman.
    Mr. Stupak. Thank you. Mr. Latta for questions, please. 
Five minutes.
    Mr. Latta. Well, thank you very much, Mr. Chairman, and Mr. 
Secretary, thank you for joining us today. Really appreciate 
your time here.
    I read with interest in your conclusion that you have 
talked about a little bit already, but I would like to also 
just read. It says, ``Much of my time as Secretary of the 
Interior has been spent working to reform old practices of the 
MMS and advance the President's vision of a new energy future 
that will help us to move away from spending hundreds of 
billions of dollars each year on imported oil. A balanced 
program of safe and environmentally-responsible offshore energy 
development is a necessary part of the future. Our efforts to 
develop a robust OCS renewable energy program are a major part 
of the effort to find that balance and help us move our Nation 
toward a clean energy future.''
    Then you also go on to state that, you know, for now we 
have to look at conventional oil and gas.
    You know, it is interesting that we are here today because 
I am not sure, you probably did see the front page of the 
``Wall Street Journal'' today. ``China Tops U.S. in Energy,'' 
and I would just like to read just a little bit from this.
    ``China has passed the U.S. to become the world's biggest 
energy consumer according to the new data from the 
International Energy Agency, a milestone that reflects both 
China's decades-long burst of economic growth and its rapidly-
expanding clout as an investorial giant. China's ascent marks a 
new age,'' it says here, ``in the history of energy.''
    Then it goes on--I think it is also interesting a little 
bit farther in the article it says, ``China overtook it,'' 
meaning the United States, it says here a little earlier that 
the Untied States was the largest energy user since the early 
1900s in the world. ``China overtook it at break-neck pace. 
China's total of the energy consumption was just half that of 
the U.S. 10 years ago, but in many of those years since China 
has--China saw annual double-digit growth rates. It has been 
expected to pass the U.S. about 5 years from now but took that 
to position today.''
    The reason I read that is because I represent the largest 
manufacturing district in the State of Ohio, and I also 
represent the largest ag district in the State of Ohio. My 
district, if we are going to survive and according to the 
National Manufacturers, I, 2 years ago, represented the ninth 
largest manufacturing district in the Nation, and because of 
where we are with the economy, we are 20th now.
    But, you know, my main concern is what Mr. Shimkus brought 
up. We have to have base-load capacity in this country, and I 
am all for an all-invoked strategy, and that all-invoked 
strategy has always been we need nuclear gas, oil, clean coal, 
wind, solar, ethanol, biodiesel, hydrogen, and right down the 
line.
    But for the factories in my district to operate, we have 
got to have power that turns on immediately, or we are not 
going to have people working, and the biggest problem in our 
area, we are just talking about one thing, jobs, jobs, jobs, 
and when folks look around and they ask me, how come the jobs 
are leaving the United States, well, and then I am looking at 
this article and I can point to one more thing that is killing 
is that, you know, the energy needs in this country might be--
are being shipped someplace else means they are going to be--
their manufacturing is topping ours. The Chinese want to be, 
you know, atop us in manufacturing. In 10 years if they are 
able to do in energy, they might do to us in manufacturing. 
This is getting scary.
    And it is also, it is kind of odd right on top of this 
there is another story in the ``Journal'' today. It says, 
``Personal Journal, How to Tame your Nightmares.'' Well, this 
is my nightmare right here, and you know, I am really concerned 
that as we--as the Administration goes forward and that we 
get--30 percent of our U.S. oil comes from the Gulf, that as 
you said in your statement on page 10 here that, you know, 
you--that you will continue to look at this conventional oil 
and gas playing a significant role in our economy and not 
selling it short because we have got to have it to survive as a 
manufacturing country.
    And I will leave the rest of my time for an answer. Thank 
you.
    Secretary Salazar. Thank you, Congressman Latta. As I have 
said in previous testimony, we--the President from day 1 has 
said we need to have a comprehensive energy plan, and our view 
is part of the reason the United States will fall into second 
place is if we are not able to get a comprehensive energy plan 
adopted for the United States of America, and hopefully there 
is still time in this Congress to be able to do that because 
once the right signals are sent to the market, essentially what 
you are going to have is a different kind of headline than the 
one that you were showing me from the ``Wall Street Journal.''
    And that is that we as a United States are not playing for 
second place. We are playing for first place as the President 
has said, but in order to do that we need to have the long-
range policies in place to bring up as many of you support 
nuclear, as many of you support clean coal, as many of you 
support wind and solar and geothermal, but we need to have a 
framework that isn't the start and stop of energy policy which 
we in this country have now had for the last 30 years.
    Mr. Latta. Well, thank you very much, Mr. Chairman. I yield 
back.
    Mr. Stupak. Thanks, Mr. Latta.
    Mr. Melancon, questions, please.
    Mr. Melancon. Thank you, Mr. Chairman. I appreciate it.
    Secretary Salazar, I would like to kind of follow up on 
something that Mr. Dingell was inquiring about. It is my 
understanding that there is a requirement of a 30-day EIS 
completion for these deepwater well, and if it can't be 
completed in 30 days, then, in fact, they can waive--the 
department, MMS, can waive that requirement. Is that----
    Secretary Salazar. The issue on the categorical exclusions 
is that you cannot do, frankly, an environmental impact 
statement in the 30 days, and so what has happened is that 
categorical exclusions have been given in the past under 
Republican and Democratic Administrations with respect to 
exploration plans as happened here in the----
    Mr. Melancon. Do you have or does your staff know when that 
categorical exemption was put into effect either by law, or was 
it put in effect by rule within the Department?
    Secretary Salazar. I can get that information for you, 
Congressman Melancon. I don't have that at the top of my head 
right now.
    Mr. Melancon. Is this same waiver applicable in all of the 
Gulf Coast States, or is it only applicable in certain States?
    Secretary Salazar. My understanding, Congressman, is that 
there have been several hundred of them that actually had been 
given and probably it would not be done on a jurisdictional 
basis off any one of the States. And so the reality is that the 
categorical exclusions are driven in large part because under 
the current law relating to OXA there is a 30-day requirement 
to approve an expiration plan once it is filed with the 
Department. And so that is not sufficient time to do the right 
kind of environmental review and is--it is the reason why in 
the President's submission of a legislative package to Congress 
he said that requirement of the law should be changed to 90 
days.
    Mr. Melancon. If you would and if you would just--this 
could be responded to, the reason I asked that question is I 
have been told, and I don't know that this is valid or not, 
that Louisiana, Texas--I mean, Louisiana, Mississippi, and 
Alabama, the 30-day requirement with the waiver, if it can't be 
done in 30 days, was applicable, but the other two Gulf States 
they had to do the IS regardless. Don't know that for a fact, 
but if your Department can verify.
    Secretary Salazar. We will check on that and get back to 
you on that.
    Mr. Melancon. We have had as you know and you and I have 
gone back and forth, and I appreciate your efforts to stay in 
contact with me. You have been better than me at returning 
calls back to you, but the moratorium is more concern and I 
guess the concern I have got is, one, is the Commission that 
was set up, they have any charge whatsoever about making 
recommendations as to whether the Administration stays with the 
moratorium, or if they have some findings, or are they charged 
with looking for findings to bring back to the Administration 
and to you to say this moratorium maybe isn't good, the 
economic hardship or impact would be worse than trying to find 
some method or way of doing the rolling inspections as we have 
talked about in the past.
    Secretary Salazar. Congressman, the President's Deepwater 
Horizon Commission has as its mission to get to the bottom of 
the story as to what happened with respect to the blot at the 
Macondo Well and the Deepwater Horizon, and they will undertake 
that effort as they have already started. We will be informed 
by their proceedings and information as they develop and 
recommendations that they make. So we will be in contact with 
them as we develop our own information and move forward with 
our process on addressing the issue of the moratorium.
    Mr. Melancon. Can you give me, if it is possible, what was 
the thought processing, I mean, was it just strictly the 
concern with another blowout as opposed to a moratorium, or was 
there any discussions about finding something as I have 
described that would work for inspections and safety that was 
somewhere between drill, baby, drill and shutting it completely 
down?
    Was there any discussion there, or did it just go straight 
to we have got to shut this down and try and find out--make 
sure that we don't have another blowout and let us not worry 
about the economy? What transpired in those conversations? Do 
you recall?
    Secretary Salazar. Congressman, those issues were, in fact, 
looked at and considered, and they are part of the record and 
part of our decision on the moratorium. I will say this, that 
as I am here in front of this committee today, we are still in 
a very dynamic and a very dangerous situation. We are not out 
of the woods even though this well has been temporarily shut in 
because until we get to the ultimate kill of the well, the 
situation is still a very dangerous one. And it is our view and 
I have worked on this from April 20 forward, that until we have 
the answers to the fundamental questions that I outlined to the 
committee earlier on, that it would be imprudent for us and 
irresponsible to move forward and lift the moratorium.
    Now, as information develops and as we move forward with 
our review and as Director Bromwich holds his hearings, too, 
which I think are scheduled for Louisiana, that we will have an 
additional set of information that might allow us to adjust the 
moratorium at some point, but right now looking at the 
timeframe, our view is that November 30 is a reasonable 
timeframe when we can expect to be able to make some decisions 
on the moratorium.
    Mr. Melancon. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Mr. Stupak. Thank you, Mr. Melancon.
    Mr. Shadegg for questions, please.
    Mr. Shadegg. Thank you, Mr. Chairman, and Mr. Secretary, I 
want to commend you as did my colleague, Mr. Shimkus. I 
listened very carefully to your opening statement, and it is 
not often that in this town anybody comes forward and 
acknowledges, look, we could have done things better. In your 
opening statement you said that past Administrations and this 
Administration had not done as much as they could have done to 
ensure the safety of this industry or to ensure the safety and 
ecological protection necessary for this kind of activity, and 
I appreciate the candor of that statement.
    You also went on to say, and I appreciated it, that with 40 
years of drilling history and there being no incidents, I 
believe your words were, this Administration and prior 
Administrations had been lulled into a sense of complacency, 
and I think that is a fair assessment. I don't know how much of 
this hearing you have been able to watch, but in the appearance 
of your two predecessors during the early hours of this 
hearing, that was not the kind of testimony that was going on. 
Rather there was a blame game being played very aggressively by 
some members of the committee trying to assign blame and trying 
to point fingers. I don't really think that solves the problem. 
I think it is more important to look at what went wrong but 
more important to live our lives looking forward at what we can 
do correctly in the future.
    In that regard, I believe the report that you received on 
May 27 contained language to the effect that the industry had 
had over 50,000 wells in the U.S. outer-continental shelf, of 
which more than 2,000 were in waters 1,000 feet deep or more, 
700 were in waters 5,000 deep, that we had been using sub-sea 
below preventers since the mid 1960s and that the only major 
prior event from offshore drilling had been 41 years ago, and 
that, in fact, had been from the--in the Santa Barbara Channel, 
and it had been from a shallow water platform where the blowout 
preventer was on the surface.
    I assume that is what you were referring to when you were 
talking about the history of this industry led us to using the 
procedures we were using prior to this incident. Is that 
correct?
    Secretary Salazar. Congressman, what I would say is that 41 
years of a relatively good record essentially led the United 
States Congress and many Administrations to essentially assume 
that there was safety with respect to this kind of drilling.
    Mr. Shadegg. Mr. Kempthorne said just about, and he also 
noted that we would never do it again because we have learned 
from this incident.
    Secretary Salazar. But the fact is that that assumption was 
made, and we do have an ongoing disaster in the Gulf of Mexico, 
and I think from our point of view would be imprudent for us to 
simply move on as if nothing had happened.
    Mr. Shadegg. I couldn't agree----
    Secretary Salazar. At the end of the day where you were is 
where the President and I have been from day 1 on this. We have 
a problem, and we have to fix it, and we have to fix it right.
    Mr. Shadegg. I couldn't agree more. My time is short, so I 
want to get to all these questions.
    Mr. Waxman in his questioning talked about several issues. 
He mentioned that there are regulations on--you mentioned in 
response to his question that there are regulations on casing 
and cementing and mud and all of those issues and that a part 
of your study now is to find out were those regulations filed, 
followed, or were they broken, and that is a part of the 
forensic activity.
    Wouldn't you agree that it would be prudent before this 
Congress enacts permanent legislation, at least legislation 
specifying details in that nature as opposed to granting new 
regulatory authority, that we get the answers to those 
questions before we enact legislation?
    Secretary Salazar. I think we have already learned a great 
deal from this ongoing disaster in the Gulf that provides a 
basis for which to act. Now, that does not mean that as we go 
forward and the President's Deepwater Horizon----
    Mr. Shadegg. We don't--by your own testimony we don't know 
the answer to those details. Correct? We don't know exactly 
what went wrong here. You said earlier we can't get to those 
things because we are too busy trying to cap the wells, stop 
the flow. We haven't been able to do the forensics yet. 
Correct?
    Secretary Salazar. We know a lot. We don't know everything 
yet.
    Mr. Shadegg. Great. You said in response to Mr. Shimkus's 
question that huge was 1,000 megawatts. Then he cut you off. 
Did you really mean huge means 1,000 megawatts, or is that huge 
compared to what we thought wind could do prior to this?
    Secretary Salazar. It was 1,000 gigawatts.
    Mr. Shadegg. Oh. You said megawatts, and that is quite a 
bit of difference. OK.
    Secretary Salazar. If I said that, I apologize. I meant to 
say the National Renewable Energy Labs calculation of the 
potential for offshore wind is at about 1,000 megawatts, but 
the states along the Atlantic----
    Mr. Shadegg. I don't want to be rude. I want to get into 
this last question, and my time is extremely short. Gigawatts 
is very different than megawatts. You may have--you just 
misspoke, and it just stunned some of us back here.
    You are aware of the e-mail that was sent by the eight 
scientists who disagreed with your characterization of their 
report and were quite angry that it had been changed after they 
signed off on it and before they submitted it. The original 
report said that the moratorium should last for a sufficient--
and I am quoting here. ``For a sufficient length of time to 
perform additional,'' and then they talk about blowout 
preventer testing, pressure testing, and water barrier testing. 
It then is changed by your Department to say a 6-month period.
    Is it routine for the Department to change reports after 
the fact, and I note that today, and I am going to run out of 
time here, I note that today you said----
    Mr. Stupak. You are out of time.
    Mr. Shadegg. I am out of time? I note that today that you 
said that the recurrent moratorium will remain in effect until 
November 30 or until those three questions you posed are 
answered. I am a little confused as to what the line of the--
the length of the current moratorium is, and I would concur 
with some of the members here who hope that you will release 
that moratorium as soon as it is safe to do and that you would 
focus on bad actors as opposed to punishing anybody that is out 
there doing a good job.
    Secretary Salazar. If I may, Mr. Chairman.
    Mr. Stupak. Yes.
    Secretary Salazar. Just responding to the two questions.
    In terms of the engineering reports, the fact is that the 
report to the President was my report, and I appreciated the 
input from the engineers and any others who were involved in 
helping us write the report, but the decision on the moratorium 
essentially was my decision as Secretary of the Interior. It 
wasn't the decision of engineers or anybody else.
    I think I have covered it.
    Mr. Shadegg. Thank you.
    Mr. Stupak. Mr. Gonzalez for questions, please.
    Mr. Gonzalez. Thank you, Mr. Chairman. Welcome, Mr. 
Secretary.
    On the moratorium, I share some of the same concerns as 
others, and when we have the other witnesses, Mr. Secretary, I 
also expressed that I wasn't in total agreement with what--the 
policies that have instituted this place, and I think Mr. Green 
probably articulated many of my own concerns.
    Until we find out, and I think Mr. Shadegg has a good 
point, until we find out what went wrong at Deepwater Horizon, 
how are you going to proceed with remedying that situation if 
we really don't know? Now, some people say it may have just 
been a deviation from what is accepted industry standards, and 
I don't know all of the terms, all--we are not going to be 
experts in this, but the casings and the cement and so on, in 
capping the well.
    And let us just for the sake of argument say that is what 
we find out. We find out whoever was responsible for that 
didn't do that particular process correctly, and according to 
everybody else in the industry they would have never done it in 
the manner in which it was done. That is the assumption that 
they are making when we have had them here as witnesses.
    How does that play into what you are going to do with the 
moratorium, because this could be an open-ended question for 4 
months, 5 months, 6 months. I mean, I am not sure when we 
finally arrive at answers.
    Secretary Salazar. Let me say there are many questions, and 
one of them has to do with drilling safety, but there are many 
others that are obvious such as the oil spill response plans 
and the capability.
    I think it is fair to say that the oil spill response plans 
that have been in place are inadequate, and so how we deal with 
that issue is something that we can start working right away, 
and waiting until we have the reports from the Commissions and 
the other investigations isn't the way that we want to do 
business.
    We want to move forward as quickly as we can for respective 
blowout containment measures, which is another set of issues, 
what you probably have here at the Macondo Well is the greatest 
laboratory in the history of the world relative to what you do 
on containment, because it has been a learning process. Many 
failures but many lessons that have been learned, and so 
creating this kind of containment capacity in the Gulf of 
Mexico may be one of those outcomes that we want to latch onto 
and not wait around for another 6 months before we start 
developing that kind of an effort.
    So I think for those of you who are concerned about the 
moratorium and its length, you should be supportive of the kind 
of effort that we are undertaking to try to move forward to 
create the goal of safety and protection for the environment 
with respect to oil and gas drilling.
    Mr. Gonzalez. And I think we all share the same goals. We 
just believe one on expediency, of course, being thorough, and 
the fact that you can treat different wells that are in 
different phases or stages of development differently so that 
there is not so much catch up when you finally lift it in part 
or in whole.
    Now, you had a Federal District Court basically join you. 
Is that correct?
    Secretary Salazar. That is correct.
    Mr. Gonzalez. And then you issued a new moratorium that 
would be--obviously have something different for the Court to 
consider the next go round. Is that correct?
    Secretary Salazar. It is a new decision with significant 
additional information and we believe a very good record. We 
believe the first one was a very good decision as well and is 
legally defensible. Much happened between the first decision 
and the second decision in terms of additional information.
    Mr. Gonzalez. So you were responsive to some of the Judge's 
concerns?
    Secretary Salazar. Yes.
    Mr. Gonzalez. Thank you. I have got about a minute, but I 
want to give you a chance to respond to what was stated earlier 
by former Secretary Kempthorne. He made a general statement 
that in his opinion and what he read, even though he has not 
been privy to any meetings by any of the stakeholders or 
participants, that he sensed, one, this Administration didn't 
make use of all assets that were available. Number two, that he 
did not see that the Administration was truly engaged and maybe 
there was non-engagement, and thirdly, that he didn't see the 
Administration creating an environment which was conducive to 
cooperation among all of the different individuals at the local 
and state level.
    Twenty-seven seconds if you can give me the 
Administration's response.
    Secretary Salazar. Thank you, Congressman Gonzalez. Let 
me--I have great respect for Secretary Kempthorne, but let me 
say that I very much disagree with those conclusions. Within 
days after this disaster started unfolding, I was actually in a 
meeting in Louisiana with Secretary Napolitano, Director 
Browner, and others with Secretary Gates on the phone, 
authorizing these States to move forward with the National 
Guard and yet very few of the States has really brought up the 
National Guard to the level that they could have brought it up.
    But that was done within days of the onset of this 
disaster. I will tell you knowing and working with my 
colleagues on this Cabinet and the White House every day, 
including sometimes at eleven o'clock at night like we were 
last night and sometimes at 2:00 in the morning, that we have 
not rested, and we have been relentless in terms of our effort 
to deal with this problem, and we are confident that we are 
going to deal with this problem, and we are going to have some 
fixes here that are good for the United States of America.
    Mr. Gonzalez. Thank you very much, Mr. Secretary.
    Mr. Markey [presiding]. The gentleman's time has expired.
    The Chair recognizes the gentleman from Louisiana, Mr. 
Scalise.
    Mr. Scalise. Thank you, Mr. Chairman.
    Mr. Secretary, on the Commission that the President put 
together that is currently conducting hearings, I know I 
testified before them last Monday along with Senator Landrieu, 
and one of the points we were bringing up was about the 
moratorium, and pretty quickly into that conversation, this was 
our first day meeting, they said that they were not tasked with 
addressing the moratorium, and Senator Landrieu had presented 
some letter that you had written where you had indicated that 
their recommendations on the moratorium were going to be one of 
the factors that you did consider.
    So I am trying to find out what is the--is there a gap? 
Were they not aware that this was a role they were supposed to 
play? Is that a role that they are supposed to play?
    Secretary Salazar. Our position--the moratorium is my 
decision as Secretary of Interior. We will be informed relative 
to the central issues of that moratorium based on the findings 
from multiple investigations, including----
    Mr. Scalise. Will that Commission be part of that decision-
making process when you----
    Secretary Salazar. We will consult with them.
    Mr. Scalise. So----
    Secretary Salazar. We will consult with them.
    Mr. Scalise [continuing]. They will in essence be tasked as 
part of their task with addressing the moratorium or at least 
making recommendations to you?
    Secretary Salazar. Congressman Scalise, their mission is to 
get to the bottom of what happened with the Macondo Well in the 
Deepwater Horizon and make sure that there is no stone left 
unturned.
    Mr. Scalise. Right, but would the moratorium be part of 
that----
    Secretary Salazar. No.
    Mr. Scalise [continuing]. Broad issue?
    Secretary Salazar. No, it won't. My decision and my 
authority as Secretary of Interior is to move forward with the 
OCS plan and production in the outer-continental shelf and 
the----
    Mr. Scalise. So they will not be making any recommendations 
to you on the moratorium, or you will not be seeking 
recommendations from them on the moratorium?
    Secretary Salazar. We will be working with the Commission 
and certainly with Chairman Reilly and Graham. We have the 
greatest respect for them and certainly we will seek out their 
thoughts and their ideas and whatever information the 
Commission----
    Mr. Scalise. OK. The reason I am asking is this is 
important back home to people that are trying to figure out 
which way to proceed in trying to put the facts on the table 
and get people that are making decisions to incorporate all of 
the facts. And so many people went and testified before that 
Commission with the understanding they would be addressing or 
at least in some way be working with you or talking with you 
about moratorium decisions, and if they are not, then please 
say so so that people aren't wasting their time back home, but 
if they are, then that is important to know, too, but I don't 
see why----
    Secretary Salazar. Congressman Scalise, let me just give 
you where I think the best thing for your constituents and for 
you as well to communicate with, and that is Director Bromwich 
is holding hearings on these very issues, the three issues that 
I have outlined before in my testimony, and it will be very 
useful to hear the points of view of people with expertise on 
drilling safety, on oil blowout containment strategies, as well 
as----
    Mr. Scalise. So will Director Bromwich be advising you in 
any way on the moratorium as well?
    Secretary Salazar. Yes indeed.
    Mr. Scalise. OK. Now, getting specifically to some of the 
details of the moratorium, the 30-day commission that you had 
put together right after the explosion of the Deepwater 
Horizon, they did come back with some safety recommendations, 
and then this confusion about the moratorium came about when I 
think initially you had said that they recommended the 
moratorium, they came back and said that is not what they said. 
In fact, the members of the Safety Commission, a majority of 
them opposed to moratorium and laid out some I think important 
specific points about why the moratorium that you issued would 
decrease safety in the Gulf, and I want to ask you if you have 
seen their recommendations about that and what your thoughts 
are because when I spoke to some of those--and these are people 
that you picked, scientists, engineers, experts in the field.
    They said four basic things. One is a 6-month pause, as it 
has been described, by the end of the 6 months your most 
experienced, your most newest and most technologically advanced 
rigs will go. They will be the first to leave and the last to 
return, and in some cases it would be years because they 
operate on 3 to 5-year contracts.
    Also, the crew base, the most experienced crew members, 
people who have worked 10, 15, 20 years in the industry, they 
are not going to sit idle for 6 months while their families 
still have needs. They are going to go on and do something 
else, so you lose them, and then in the interim if you are 
going to be stopping operations, there is a higher level of 
risk with stopping a production so that you are bringing in a 
fact of risk there, and the country's demand for oil hasn't 
reduced, so you would then--we will be importing more oil and 
70 percent of the spills come from importing oil in tankers.
    And so with those factors laid out first, do you--have you 
seen those safety concerns that they expressed about your 
moratorium, and do you disagree with them?
    Secretary Salazar. Congressman Scalise, let me say that I 
very much appreciate the work of the engineers that gave us 
input on the safety recommendations that went into the 30-day 
report. At the end of the day that was my report, but I 
understood as well that the engineers disagreed with my policy 
decision, not theirs, on the 30-day moratorium.
    I specifically asked them to come into my office, and they 
did come into the Secretary of Interior's office and gave me a 
complete briefing on their point of view before I issued my new 
decision. And so their point of view was thoughtfully 
considered, and I look forward to working with them and with 
others as we move forward on the issue.
    I would say this for you, Congressman Scalise, because I 
know how you care so much about the Gulf and the oil industry 
there, and that is that if you look at the President's position 
and my position with respect to the Gulf of Mexico and drilling 
there, we have said that oil and gas is part of our energy 
portfolio.
    So we would ask this Congress to join with us as we move 
forward to address this issues relating to drilling safety, oil 
spill response, and blowout containment because the sooner that 
we can address those issues the easier it is going to be for us 
to move our hand off the pause button.
    Mr. Engel [presiding]. The gentleman's time has expired.
    Mr. Scalise. Thank you. I yield back.
    Mr. Engel. I yield myself 5 minutes.
    Mr. Secretary, welcome back to the Hill. I want you to know 
that we are taking good care of your brother, so you have 
nothing to worry about.
    Secretary Salazar. Thank you.
    Mr. Engel. You have a very difficult job obviously, but I 
believe you are the right man for the job, and I think that we 
are all with you on every move you make, because this is 
something that nobody could have expected.
    I have sat through all the hearings that we have had in 
this committee, and one of the hearings we had the chief 
executives from all the other major oil companies, not BP but 
Chevron, ExxonMobil, ConocoPhillips, and Shell, and it seems 
that we have made great progress in the methods of drilling, 
you know, getting the oil out but very little progress in a 
response plan and preventing a disaster.
    The other oil executives were all quick to say that what 
happened with BP wouldn't have happened with them, with their 
company because they built things differently, the plans were 
different. But yet it seemed to me that everyone else had 
exactly the same plan for a response, so I am wondering if you 
could tell us your thoughts on this. I mean, it certainly 
seemed that BP cut corners in order to save money.
    Could this happen again, and what would happen if a second 
major blowout occurred while unified command and oil spill 
response equipment and personnel were busy battling the 
Deepwater Horizon spill?
    Secretary Salazar. Mr. Chairman, I very much appreciate 
your statement, and let me just say we very much agree with 
you. In fact, if you take a look at the three central 
questions, perhaps the two that are most obvious for me today 
right now is the oil spill response capacity representations 
that were made with respect to skimming, for example, that 
really has not borne out to be true. The issue of oil blowout 
containment programs. We have now every day from almost the 
very beginning I have a U.S. lead call with BP every morning. 
We go through the strategy that they are unfolding relative to 
the next containment program. I watched the effort fail, some 
partially succeed, and now hopefully moving to ultimate 
success.
    So in the context of that dynamic it has seemed to us that 
it would be imprudent to move forward with a lifting of the 
moratorium until we get some answers to those basic questions.
    Mr. Engel. I couldn't agree with you more.
    Let me ask you this. The Associated Press recently reported 
that there are 27,000 abandoned wells in the Gulf of Mexico on 
federal lease lands. Now, I believe and correct me if I am 
wrong, that abandoned wells sometimes leak.
    So what tools do we have and what additional tools would 
you need to keep these abandoned wells safe?
    Secretary Salazar. I have asked Michael Bromwich to 
development some recommendations on how you deal with these 
abandoned wells, and in some ways it is very reminiscent of a 
problem that some members of the committee are familiar with 
with respect to abandoned mines. Once they are abandoned, no 
one owns them, and there is not a lot that sometimes can be 
done for a very long time.
    So I would hope that as part of our overall Gulf Coast 
Restoration Plan and dealing with oil and gas production that 
that is an issue that can be addressed perhaps both 
legislatively as well as dealing with the resource issues that 
would be required in order to deal with the abandoned wells.
    Mr. Engel. Thank you. I am going to yield back the balance 
of my time because I know the time is late, and you have to go, 
and we have a couple of members who still need to--yes.
    Mr. Sullivan, 5 minutes.
    Mr. Sullivan. Well, thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here today, and I just 
wanted to ask as Secretary did you prior to the Deepwater 
Horizon incident consider improving rules and regulations 
regarding MMS, inspections of offshore exploration and 
production operations, prior to the Deepwell Horizon--Deepwater 
Horizon blowout?
    Secretary Salazar. Yes, Congressman Sullivan, the answer to 
that is yes, there were several efforts, including notice to 
leasees to increase the safety of drilling in the outer-
continental shelf. Their efforts included in our budgets 
increase the number of inspectors, and so it is an effort that 
was ongoing in September of last year. We asked the National 
Academy of Engineering, an arm of the National Academy of 
Science, to provide recommendations to us on safety issues. We 
had proposed a rule I believe in June of 2009, that would have 
dealt with other issues out in the outer-continental shelf. So 
it was an ongoing effort that we had in terms of our reform 
program.
    Mr. Sullivan. And, you know, you have probably heard this 
analogy a lot, but when we have a commercial airline tragedy, 
we do not stop all airline travel for like 6 months. We work to 
find out the route cause in making air travel safer rather than 
grinding the airline industry to a halt. Why are we shutting 
down an industry for 6 months here, particularly given 
companies have drilled tens of thousands of offshore wells in 
the Gulf over the past 60 years without a prior accident of 
this nature?
    Secretary Salazar. The answer, Congressman Sullivan, is 
that if we were to have another tragedy like the one that we 
see on the well, there is frankly insufficient resources to be 
able to respond to that kind of an oil spill response.
    In addition, we frankly yet do not know how exactly it is 
that we are finally going to get the killing of the Macondo 
Well, and we will not rest until we have that well killed. And 
so in this kind of a dynamic circumstances, I have explained to 
the committee it seems to us to have the pause button in place 
until we can get the answers to some very fundamental, 
important questions relating to safety and relating to 
protection of the environment.
    Mr. Sullivan. And, Mr. Secretary, on the Commission that 
has been set up by the President to investigate the situation, 
it has some former governors and Administrator of EPA. I guess 
former governor, Bob Graham, U.S. Senator Graham, former 
Administrator of the Environmental Protection Agency, William 
Reilly, Francis, and I may get his name wrong, Beinecke. Is 
that how you say it? President of the Natural Resource Defense 
Council. It is a non-profit corporation. Donald Boesch, 
President of the University of Maryland, Center for 
Environmental Science, Terry Garcia is Vice-President for 
Mission Programs for the National Geographic Society, Cherry 
Murray is Dean of Harvard School of Engineering, and Francis, I 
think it is Ulmer, Chancellor of the University of Alaska.
    When the President put this together, why do you think--or 
does anyone here have experience in drilling wells and work in 
the oil and gas industry at all?
    Secretary Salazar. I do not know the members of the 
Commission, Congressman Sullivan, other than the two chairs, 
and I think maybe two or three other members of the Commission, 
but I do know that in selecting the members they were selected 
because they were the kinds of elder statesmen that would do a 
great job in reporting out the cause of what happened here and 
making recommendations.
    They also have understood they are in their staff that they 
are putting in the subject matter expertise that will 
ultimately be needed for them to do their job. So I am 
confident that at the end of the day the mission that has been 
given to the Commission, which is to leave no stone unturned as 
we find out what exactly happened with this particular blowout, 
that they will be able to achieve that mission.
    Mr. Sullivan. And I think you are right. They are elder 
statesmen. I think they are going to do a good job in that 
regard. I believe there is a lot of intelligence on this 
committee, too, but I just--I would like to see, and it is too 
late now, but I don't know why they didn't include someone that 
is from the industry that could actually, you know, use real-
life experiences to help with this is all I am trying to get at 
I guess.
    Secretary Salazar. Well, I think former EPA Administrator 
Bill Reilly is also on the--was on the Board, maybe he still is 
on the Board of ConocoPhillips. I also understand that they 
have hired and are hiring additional people with subject matter 
expertise as staff members to the Commission.
    Mr. Sullivan. Thank you, sir. Thank you for being here.
    Mr. Engel. Mr. Gingrey.
    Mr. Gingrey. Mr. Chairman, thank you, and Mr. Secretary, I 
apologize for coming in late, and I may indeed ask you a 
question that has already been asked, so forgive me if I do 
that.
    In my opening statement I commented a little bit about the 
changing of management services to--and I am not going to try 
to remember what the new name is, but my concern was that at a 
time when we needed to have all our resources, all hands on 
deck, if you will, to try to stop the leak and to effect the 
cleanup ASAP that here we were, you were, indeed, charged 
maybe, maybe it was the Secretary, responsibility to do that as 
soon as possible, but if you can tell us what exactly, what was 
the emergency in regard to reorganization of MMS, and what 
exactly have we done? You know, I don't want to sit here and 
suggest to you that it is rearranging the deck chairs on the 
Titanic, but, you know, naturally people are a little bit 
concerned.
    So my question is simply this. What did you do, and what 
does this do, and how does it make it more effective and more 
fail-safe and correct some of the existing problems that you 
recognized after this disaster occurred?
    Secretary Salazar. Thank you very much, Congressman 
Gingrey. Let me answer in a number of--with a number of 
different points.
    First, my view has been as I testified in September of last 
year before Representative Rahall's committee that it is 
important that an organization like MMS have an organic statute 
because it has existed by executive order since 1981, and it 
has some critical functions including the safe production of 
our oil and gas for our Nation as well as generating on average 
about $13 billion a year. An agency that has that kind of 
importance for the American people should have a legislative 
construct.
    Number two, with respect to my reorganization of the 
agency, what we have done is we have taken the people who are 
involved in the revenue collection and moved them to another 
unit of the department. They essentially are about 700 people 
who are mostly located in the Lakewood Office where we had 
terminated the Royalty-in-Kind Program earlier this year 
because of the sex and drug scandals. We think there needs to 
be distance from the revenue collector from those who are 
actually leasing out the resource of the American taxpayer. So 
that is one unit that, if you will, the revenue collector.
    Then there are two other units. One unit will actually be 
the bureau that will actually decide how and where to lease so 
they will go through the creation of the 5-year plan for the 
OSC, the leasing plans, the lease sales, the exploratory plans, 
and the issuance of the APDs.
    And then a third unit that essentially will be the 
inspection and enforcement unit, making sure that the laws, the 
regulations both with respect to the environment and safety are 
being complied to.
    Mr. Gingrey. Mr. Secretary, that particular unit, will that 
be beefed up manpower wise?
    Secretary Salazar. Our proposal is to beef it up 
significantly. There is a--it is part of the supplemental 
legislation that is pending before Congress to begin the first 
chapter of beefing that up, and we hope to have a budget 
amendment that could increase the number of inspectors and 
others that are needed to work within the new agency by as many 
as 450 personnel.
    It seems, Congressman Gingrey, as I said earlier on that it 
is a fool's errand, if you will, to have 4,000 production 
facilities in the Gulf of Mexico alone and to only have 60 
people that are assigned to go out and do the inspections. So 
the robustness of this agency I think is a necessity for us as 
a country to move forward with safe oil and gas production in 
the outer-continental shelf.
    Mr. Gingrey. Mr. Secretary, I hope that we will need those 
400 more and not--even more if we continue the moratorium. So I 
got to get that plug into you as well. As soon as we can stop 
this, I think, ill-advised moratorium and hire those 450 
additional people and get that drilling going again in a safe 
and effective manner, I think that is what we would like to 
see, at least from this side of the aisle, and I hope you would 
agree with us, and thank you so much for being here and 
testifying and responding to my questions.
    Mr. Chairman, I yield back.
    Mr. Engel. Thank you. Ms. Bono Mack.
    Ms. Bono Mack. Thank you, Mr. Chairman.
    Mr. Secretary, great to see you again. I think last time I 
saw you we were working together on a trails issue. It is good 
to see you. Welcome back to the Hill.
    As you probably know, my district is very abundant in 
renewable fuels, and as you probably know I support renewable 
fuels, but I also support being very honest with my 
constituents that in order to transition our economy towards 
future fuels, we have to do it in a realistic way. In your 
words to my colleague, Congressman Latta, you said it is a 
mistake to start and stop energy policy, but you are doing that 
very thing with this moratorium in my opinion.
    I think it is a mistake to do what you said we shouldn't be 
doing, and I understand what you are talking about, but I just 
want to weigh in and echo my colleague's sentiment about the 
moratorium being a mistake. Even though I believe in future 
fuels and moving us forward, we have to give certainty to 
people who are drilling today in the Gulf, so I want it to be 
on the record my displeasure with the moratorium.
    With that being said, I think what is really missing from 
the debate so far is the absolute lack of coordination between 
all the agencies. I live in a district as you know also that 
sits on top of the San Andreas Fault, and every day we worry 
about the big one hitting us, and I think that my constituents 
have gotten to the point where they don't believe government is 
going to be there for them, and I don't believe that they think 
they are going to be well coordinated and provide a good 
response to a disaster, and I think this is a perfect example 
of that.
    Can you tell me as we go forward with habitat restoration 
and all that has to be done what you are doing to make sure the 
agencies under your purview, whether it is National Park 
Service, whether it is Fish and Wildlife, BLM, whomever it is, 
how are they going to be better coordinated, and more 
importantly I think to bring the state in. In the emergency 
response plans the state is a huge leader in all of those 
decisions that would be in response to a disaster, but in this 
case they are being ignored, and we are hearing constantly from 
the governors that their ideas and their suggestions are being 
completely ignored.
    Can you respond a little bit to what you would do 
differently, how we are going to do this going forward, and 
reassure my constituents that we do have our act together 
because I don't think that they are going to believe that for a 
minute.
    Secretary Salazar. I appreciate your questions very much. 
Let me just say first on the stop and start comment that I 
made, I made it with respect to National Energy Policy, which I 
think everybody would agree has not worked through the '70s, 
the '80s, the '90s, and even until today.
    Ms. Bono Mack. And it doesn't work today, and that is the 
point that I am trying to----
    Secretary Salazar. That is why we need to have a 
comprehensive energy program moving forward, and that is why 
the President has been spending so much time on it.
    With respect to habitat restoration, just very quickly, we 
do believe that the Gulf Coast will be restored to a better 
place than it was before April 20, and Secretary Mabus at the 
direction of the President is leading the effort. We are 
working very closely with him, including multiple meetings that 
my staff and I had with Secretary Mabus yesterday.
    And then thirdly, with respect to your question on 
coordination, what I would say is this is the most Herculean 
response effort to an unprecedented disaster that the United 
States has ever seen, and I am on the front lines of it working 
with the President, working with my colleagues in the White 
House, and working with all of the agencies of the United 
States Government. And when you look at the resource that has 
been amassed to respond to this ongoing problem which is now in 
its 90th day, it is something that when you actually realize 
what the numbers are and the effort are, it makes me proud of 
the fact that the United States Government is operating in the 
way that it is.
    Ms. Bono Mack. Mr. Secretary, I think this is where we 
disagree, and I think my constituents are going to react to 
what you just said.
    You are very proud of the fact that we have a huge, 
bureaucratic, large government response to a disaster, and we 
are ignoring people on the local level and the local voices and 
people who have ideas. You are saying you are very proud of a 
huge bureaucracy and a bureaucratic response to it, and I think 
that is the problem.
    We have so many bureaucrats and people out there who don't 
know what they are doing, and to get to my colleague Sullivan's 
question about the panel, the President's panel has nobody who 
even knows anything about drilling a well, you know, and I--
hey, I consider myself a warm and fuzzy Republican, and I like 
a lot of people who are on that panel, but I think it is short-
sided in the fact that it doesn't have people who have serious 
expertise in how to drill a well. It just seems that bringing 
expertise in the oil and gas field to that panel would have 
been a good thing.
    And just since I have 13 seconds left, you still 
contradicted yourself. I understand what you are saying about a 
national energy policy, but you cannot say that it is OK to 
start and stop right now, because that is what you are doing. 
It is the exact same thing that you are advocating against.
    So I am right on the money at zero, zero, and I appreciate 
the opportunity to question the Secretary. Thank you.
    Secretary Salazar. If I may, Chairman Markey, just----
    Mr. Markey [presiding]. Please.
    Secretary Salazar [continuing]. Respond to the 
Congresswoman. First, with respect to this effort and reaching 
out to the local communities and to the governors, every day my 
colleague, Valerie Geradin and a number of other people from 
the White House are on a telephone call where the governors 
participate. Some days, some days they don't. The President 
himself has made a personal outreach to them. I have done the 
same thing. I have been to the Gulf Coast, Houston, I think the 
last count was ten or 11 times. My Assistant Secretary Tom 
Strickland, 17 times.
    Ms. Bono Mack. But then how does that explain that there 
are still booms sitting unused in warehouses, and there are 
boats sitting unused, and skimmers sitting unused? You can say 
you can reach out to somebody, but it is not being deployed.
    Secretary Salazar. I would be happy to get you a copy of 
the daily report which we receive, but this is a huge 
mobilization of an effort to deal with a very tragic and a very 
unprecedented disaster, and the President has said, leave no 
stone unturned, do not rest, and get the job done, and that is 
what we are committed to do.
    Mr. Markey. We thank the gentlelady.
    I will tell you what we can do. I was intending on 
concluding the hearing right now, but I can recognize the 
gentleman from Texas for 2 minutes.
    Mr. Burgess. I thank the Chairman for the recognition.
    Secretary Salazar, when President Obama came and spoke to 
the country about the problems of the Gulf, he said that he had 
expanded offshore drilling, ``under the assurance that it would 
be absolutely safe.''
    Now, the concept of being absolutely safe, apparently there 
was a team that advised the president, Carol Browner, yourself, 
and Secretary Chu, so is that factual? Is there a team that 
advised the President on the fact that offshore drilling was--
could be assured was absolutely safe, and were you part of that 
group?
    Secretary Salazar. Our view, Congressman Burgess, is that 
we had and still have a thoughtful plan in terms of moving 
forward. The Gulf of Mexico was a place where thousands of 
wells had been drilled. We felt that there was a place in the 
eastern part of the--that would still keep you 125 miles from 
Florida, for there was 67 percent of the resource that could be 
recovered.
    Mr. Burgess. So you and Carol Browner and Dr. Chu did 
advise the President that this was absolutely safe?
    Secretary Salazar. Let me just say what we--what I did as 
Secretary of the Interior is I developed this plan, and I 
developed the plan over a very long period of time that 
included multiple hearings from New Jersey to Louisiana to 
California to Alaska and hundreds of thousands of comments, so 
it was my plan and my recommendation that I made to the 
President.
    Mr. Burgess. So in retrospect now would you say that you 
made a mistake, that that was wrong?
    Secretary Salazar. I would--no. I would say that the plan 
that we put forward was, in fact, a very thoughtful plan. We 
canceled five leases of huge sales in Alaska, for example, 
because we felt that the oil spill response capability was 
insufficient.
    Mr. Burgess. But in light of what has happened were you, in 
fact, wrong at that assessment?
    Secretary Salazar. I think the plan that we put forward at 
the end of March was a plan which took a year to develop with 
huge input from all of the stakeholders and which I believe is 
still a good plan.
    Mr. Burgess. OK.
    Mr. Markey. The gentleman's time has expired again.
    Mr. Chairman, you--Mr. Secretary, we know that you went 
above and beyond to be here this afternoon. It is greatly 
appreciated by this committee. We have jurisdiction over energy 
production generally in the United States of America, and so 
our title is the Energy and Commerce Committee. Your service to 
our country is greatly appreciated, and we thank you for being 
here today.
    This hearing is adjourned. Thank you.
    [Whereupon, at 4:30 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
